<html>
<title> - REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT: NOAA AND COUNCIL PERSPECTIVES (PART 1)</title>
<body><pre>[Senate Hearing 115-536]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-536

                REAUTHORIZATION OF THE MAGNUSON-STEVENS
                FISHERY CONSERVATION AND MANAGEMENT ACT:
                 NOAA AND COUNCIL PERSPECTIVES (PART 1)

=======================================================================

                                 HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
       
       
       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-339 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>                
                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 1, 2017...................................     1
Statement of Senator Sullivan....................................     1
Statement of Senator Peters......................................     2
    Prepared statement...........................................     4
Statement of Senator Nelson......................................     5
    Prepared statement...........................................     6
Statement of Senator Markey......................................    20
Statement of Senator Wicker......................................    22
Statement of Senator Inhofe......................................    24
Statement of Senator Blumenthal..................................    26
Statement of Senator Booker......................................    31
    Report for Shark finning investigations from Senators 
      Booker's Office dated April 20, 2017.......................    33

                               Witnesses

Chris W. Oliver, Assistant Administrator, National Marine 
  Fisheries Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................     6
    Prepared statement...........................................     8
Dr. John M. Quinn, Chair, New England Fishery Management Council.    12
    Prepared statement...........................................    13

                                Appendix

Letter dated July 26, 2017 to Hon. Dan Sullivan and Hon. Lt Cdr 
  Gary Peters from Jackie Odell, Executive Director, Northeast 
  Seafood Coalition..............................................    41
Letter dated July 28, 2017 to Hon. Daniel S. Sullivan and Hon. 
  Gary C. Peters from Ted Morton, Director, U.S. Oceans, Federal, 
  The Pew Charitable Trusts......................................    43
Support letter dated July 31, 2017 to Hon. Dan Sullivan and Hon. 
  Gary Peters from Linda Di Lello Morton, Co-founder, Terra Plata 
  along with 300 chefs, restauranteurs and seafood suppliers from 
  24 states......................................................    45
Letter dated July 31, 2017 to Hon. Dan Sullivan and Hon. Gary 
  Peters from ecotourism industries in California................    53
Letter dated July 31, 2017 to Hon. Dan Sullivan and Hon. Gary 
  Peters from ecotourism industries in Connecticut...............    54
Letter dated July 31, 2017 to Hon. Dan Sullivan and Hon. Gary 
  Peters from ecotourism and outdoor recreational industries in 
  Florida........................................................    55
Letter dated July 31, 2017 to Hon. Dan Sullivan and Hon. Gary 
  Peters from ecotourism industries in New Jersey................    57
Letter dated July 31, 2017 to Hon. Dan Sullivan and Hon. Gary 
  Peters from ecotourism and outdoor recreational industries in 
  Washington State...............................................    58
Response to written questions submitted to Chris W. Oliver by:
    Hon. Dan Sullivan............................................    59
    Hon. Roger F. Wicker.........................................    62
    Hon. Gary Peters.............................................    64
    Hon. Edward Markey...........................................    67
Response to written questions submitted to Dr. John M. Quinn by:
    Hon. Gary Peters.............................................    68

 
                         REAUTHORIZATION OF THE
                        MAGNUSON-STEVENS FISHERY
                    CONSERVATION AND MANAGEMENT ACT:
                 NOAA AND COUNCIL PERSPECTIVES (PART 1)

                              ----------                              


                        TUESDAY, AUGUST 1, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Peters, Nelson, 
Wicker, Inhofe, Blumenthal, Markey, and Booker.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Good morning. The Subcommittee on Oceans, 
Atmosphere, Fisheries, and the Coast Guard will now come to 
order.
    Today's hearing is the first in a series with the long 
overdue issue of the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act, known as the MSA, and 
to examine this law's impact on managing our nation's 
fisheries, its successes to date, and possible areas of 
improvement. The Committee has already announced a field 
hearing in Alaska later this month, and I look forward to 
hearing from stakeholders at additional hearings throughout the 
country this fall.
    I would like to first welcome both of our witnesses, Dr. 
John Quinn, the Chair of the Council Coordination Committee, 
the CCC; and Mr. Chris Oliver, NOAA's Assistant Administrator 
for Fisheries, also known as the NMFS Administrator.
    The last reauthorization of the MSA was 11 years ago when 
it created the CCC. The CCC convenes the leadership of the 
eight Regional Fishery Management Councils to discuss areas of 
common interests, and I'm pleased to have Dr. Quinn here today 
to discuss consensus views of the eight Councils on the MSA 
reauthorization.
    I am also pleased to introduce Chris Oliver, the first ever 
Alaskan to permanently hold the position of the Assistant 
Administrator for Fisheries before becoming Director of NMFS. 
Chris spent 27 years working at the North Pacific Fisheries 
Management Council, the last 17 as its Executive Director. As 
an Alaskan, I can tell you we are thrilled to have you in this 
very important position.
    Based on his work in the Gulf of Mexico at the beginning of 
his career and his extensive experience overseeing the largest 
and best managed fishery in the country, I have confidence that 
under his leadership, Alaska and America's interests will be 
well represented, and the concerns and perspectives of 
commercial, charter, and recreational fishermen alike will be 
valued at NMFS.
    For so many Alaskans and their families, and so many 
throughout the country, fishing is a way of life. As I've 
mentioned at this Committee many times, our fisheries are by 
far the largest in the Nation. I like to say Alaska is the 
superpower of seafood, constituting over 50, almost close to 60 
percent of all domestic landings in the country and tens of 
thousands of jobs. In many communities, our fisheries are the 
backbone of their economy. It's my intention to ensure that the 
next MSA reauthorization guarantees continued strong coastal 
communities not only in Alaska, but throughout the country.
    As Congress considers whether or not the MSA is in need of 
changes, it is important that we simply not rest on previous 
gains. In the last time since the MSA was authorized, 
technology has rapidly advanced, yet legislation able to 
support that technology has not. Specifically as it relates to 
data collection, stock assessments, and other analytical tools 
to help improve the accuracy of fish stock information, better 
understanding the health of the stocks and how technology can 
assist in that regard, as well as reducing administrative 
burdens on our fishing industry are topics ripe for discussion 
and possible elements of a reauthorization.
    In addition, as we continue to responsibly manage the 
fishery resources across the United States, we must ensure that 
our Nation's fisheries management system supports a stable food 
supply, recreational opportunities, and plentiful fishing and 
processing jobs that provide for vibrant coastal communities.
    With that, I want to thank our witnesses again for being 
here.
    I now recognize the Ranking Member for any opening 
statement he may have.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Mr. Chairman.
    And thanks to our witnesses for being here this morning to 
discuss the important issue of reauthorizing the Magnuson-
Stevens Act. As you know, the original 1976 Act helped reduce 
exploitive fishing by foreign fleets in U.S. waters and protect 
our country's important fishery resources.
    Since that time, we have come to understand the importance 
of sustainably managing our fisheries and preserving these 
incredibly important natural resources. The most recent 
authorizations have successfully rebuilt several fish 
populations to healthy, sustainable levels, to the benefit of 
coastal communities. But we still have overfishing and 
overfished populations, and we should always seek out ways to 
improve the management systems that we create. The need to 
determine what is working, what needs improvement, and ways to 
improve fishery management is why we are all here today.
    I regret that I can't spend as much time at this hearing 
this morning as I would like due to a scheduling conflict, but 
that's why we have a hearing record, and I look forward to 
learning what our expert witnesses have to share with us.
    Michigan, like much of the rest of the country, is full of 
hunters and anglers. Every year, nearly 1.8 million anglers 
fish on the Great Lakes, and there are roughly 1,900 charter 
boats operating there. This activity is estimated to have a $7 
billion impact on the surrounding economy, and directly 
supports about 50,000 jobs. While we Michiganders are typically 
targeting walleye, trout, perch, and muskies where we live, 
there are many of us who travel to states like Florida and 
Alaska to enjoy saltwater fishing opportunities. Michigan also 
has a very robust marine product manufacturing industry that 
depends on vibrant coastal communities and well-managed Federal 
fisheries.
    And, finally, Michigan, like much of the rest of the 
country, is full of seafood lovers. We want to be assured that 
the finfish and shellfish that we purchase at markets and in 
restaurants, much of which comes from states like Alaska and 
Florida or is imported from other countries, is responsibly 
harvested.
    So how we manage our Federal fisheries matters to the folks 
in Michigan. What we do about the scourge of illegal unreported 
or unregulated fishing occurring in the waters of other 
countries and on the high seas also matters a great deal to us.
    Conserving these resources through sustainable management 
so that they can continue to support the businesses and 
communities that rely on them matters to folks in Michigan. Key 
to sustainable management is making sure that we are using a 
science-driven process. Fisheries management is complex and 
needs to account for the interactions between different 
species, between species, and their habitat. Understanding 
those many interactions takes a lot of study and an awful lot 
of data, which requires a lot of monitoring.
    It is important to look for ways to leverage developments 
in technology and science to do the critical job of managing 
our Federal fisheries better. Only by gathering and utilizing 
all of the environmental information necessary can we 
understand the ocean and the coastal ecosystems that provide us 
with this important and delicious natural resource.
    Mr. Chairman, I also want to mention that while I 
understand that most freshwater fishery issues are not within 
the purview of this Committee, I have introduced a bill called 
the Great Lakes Fishery Research Authorization Act of 2017. 
This legislation, which was referred to the Committee on 
Environment and Public Works will solidify the scientific basis 
upon which fisheries in the Great Lakes are managed by 
augmenting current data-gathering methods and utilizing new 
cutting edge technologies. It's my hope that as part of this 
important MSA reauthorization process, we might have some 
cross-pollination of ideas and approaches to conservation and 
management between Great Lakes fisheries and Federal saltwater 
fisheries.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Peters follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    Thank you, Mr. Chairman, and thanks to our witnesses for being here 
this morning to discuss the important issue of reauthorizing the 
Magnuson-Stevens Act. The original 1976 Act helped reduce exploitative 
fishing by foreign fleets in U.S. waters and protect our country's 
important fishery resources.
    Since that time, we have come to understand the importance of 
sustainably managing our fisheries and preserving these natural 
resources. The most recent authorizations have successfully rebuilt 
several fish populations to healthy, sustainable levels to the benefit 
of coastal communities.
    But, we still have overfishing, overfished populations, and we 
should always seek out ways to improve the management systems we 
create. That need to determine what is working, what needs improvement, 
and ways to improve fishery management is why we are here today.
    I regret that I can't spend as much time at our hearing this 
morning as I would like, due to a scheduling conflict. But that's why 
we have a hearing record and I look forward to learning what our expert 
witnesses have to share.
    Michigan, like much of the rest of the country, is full of hunters 
and anglers. Every year nearly 1.8 million anglers fish on the Great 
Lakes, and there are roughly 1,900 charter boats operating there. This 
activity is estimated to have a $7 billion impact on the surrounding 
economy and directly supports around 50,000 jobs.
    While we Michiganders are typically targeting walleye, trout, 
perch, or muskies where we live, there are many of us who travel to 
states like Florida and Alaska to enjoy saltwater fishing 
opportunities.
    Michigan also has a robust marine product manufacturing industry 
that depends on vibrant coastal economies and well-managed Federal 
fisheries.
    Finally, Michigan like much of the rest of the country is full of 
seafood lovers. We Michiganders want to be assured that the finfish and 
shellfish we purchase at markets and in restaurants--much of which 
comes from States like Alaska and Florida or is imported from other 
countries--is responsibly and sustainably harvested.
    So how we manage our Federal fisheries matters to Michigan.
    What we do about the scourge of illegal, unreported, or 
unregulated, fishing occurring in the waters of other countries and on 
the high seas matters to Michigan.
    Conserving these resources through sustainable management so they 
can continue to support the businesses and communities that rely on 
them, matters to Michigan.
    Key to sustainable management is making sure we are using science 
driven processes. Fisheries management is complex and needs to account 
for interactions between different species and between species and 
their habitat.
    Understanding those many interactions takes a lot of study and a 
lot of data which requires a lot of monitoring.
    It is important to look for ways to leverage developments in 
technology and science to do the critical job of managing our Federal 
fisheries better. Only by gathering and utilizing all the environmental 
information necessary can we understand the ocean and coastal 
ecosystems that provide us with this important and delicious natural 
resource.
    Mr. Chairman I also want to mention that, while I understand that 
most freshwater fishery issues are not within the purview of this 
committee, I have introduced a bill called the Great Lakes Fishery 
Research Authorization Act of 2017--S. 859.
    This legislation, which was referred to the Committee on 
Environment and Public Works, will solidify the scientific bases upon 
which fisheries in the Great Lakes are managed by augmenting current 
data-gathering methods and utilizing new, cutting-edge technologies.
    It is my hope that, as a part of this important MSA reauthorization 
process, we might have some ``cross-pollination'' of ideas and 
approaches to conservation and management between Great Lakes fisheries 
and Federal saltwater fisheries.
    Thank you, Mr. Chairman.

    Senator Sullivan. Thank you, Senator Peters.
    And now I ask Senator Nelson, the Ranking Member of the 
Commerce Committee, if he would like to make an opening 
statement as well.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Just a couple of 
comments.
    One of the great things about this Committee is the broad 
jurisdiction that it has in areas that are so important to the 
country as a whole. Think about this. In the 1970s, there is 
Senator Magnuson, from Washington; there is Senator Stevens, 
from Alaska and they knew that there was a problem in New 
England, in Senator Markey's area, because it was getting 
overfished. So they decide to do something about it, and that's 
more than 3 decades ago. We are the beneficiaries of that kind 
of bipartisan effort.
    Clearly, Mr. Chairman, your State of Alaska is one of the 
most fertile fisheries around. By the way, that's one of the 
most important reasons we have the U.S. Coast Guard up there. 
It not only is given the task from the United States Navy of 
protecting our national security, but it's there to protect 
that big fishing fleet.
    It's interesting that the members of the Committee, we have 
a number of members that represent landlocked states, don't 
have a direct outlet to the ocean----
    [Voice.]
    Senator Nelson. Yes, you are the Great Lakes.
    [Laughter.]
    Senator Nelson. But yet they participate and understand the 
importance of the Magnuson-Stevens Act. So thank you for having 
this hearing. Of course, my state, when it comes to 
recreational, charter boats, as well as commercial fishing, 
we're known as the capital of the fishing world. And I can 
speak for----
    Senator Sullivan. That sounds more impressive than the 
superpower of seafood.
    [Laughter.]
    Senator Nelson. I can speak for Senator Wicker, there is a 
great deal that comes from the livelihoods of the people along 
the Gulf, and, of course, when Senator Markey comes back, all 
up and down the Atlantic, that comes from the commercial 
fishing.
    The Gulf is such an important resource and we know that we 
have to protect it. Interestingly, the Gulf happens to be, off 
of Florida, the largest testing and training range for the 
United States military in the world. So we have, for our 
national security's sake, reasons to protect that Gulf.
    I'll just close by saying that one of the greatest 
challenges that I saw was when 5 million barrels of oil were 
spilled in the Gulf, it immediately affected the livelihoods of 
a lot of people, not only in the fishing industry, but also it 
cut out an entire season of our tourism industry on the Gulf 
Coast because people thought that the beaches were covered with 
oil. It is a unique environment, and this Committee is 
particularly suited to protect this kind of ocean environment. 
So I am very grateful that you're bringing up for discussion 
the Magnuson-Stevens Act.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    I want to thank Senator Sullivan and Senator Peters for holding 
this hearing today--the first of several I believe we have planned on 
reauthorizing the Magnuson-Stevens Act.
    I also want to thank our witnesses for appearing today.
    Florida has long been heralded as the fishing capital of the world. 
With roughly 2,300 miles of shoreline and year-round, fishing-friendly 
weather, Florida is the source of hundreds of millions of dollars of 
shrimp, snapper, grouper, spiny lobster, and stone crab on the plates 
of America's restaurants and households across the country.
    As a result of Florida's abundant fishery resources and other 
attractions, such as its sugar white beaches, theme parks, fantastic 
hotels, and acclaimed restaurants--it is a vibrant coastal economy 
second to none.
    But Florida might not be the fishing capital of the world today 
were it not for the success of the Magnuson-Stevens Act.
    As we look to reauthorize the Act, I think it is important that 
Congress take the approach a doctor would take in treating a patient: 
``First, do no harm.''
    We must take care not to undo the important improvements that have 
been made to the Act. It's important to Florida and I know it is 
equally important to my colleagues' states.
    Thank you, Mr. Chairman.

    Senator Sullivan. Thank you, Senator Nelson.
    And I want to again welcome our witnesses today. Mr. Chris 
Oliver, Assistant Administrator for the National Marine 
Fisheries Service, NMFS. I want to commend and express my 
appreciation to Secretary Ross for his selection of Chris. I 
don't think he could have found a more qualified, capable 
Director.
    And Dr. John Quinn, the Chair of the Council Coordination 
Committee and Northeast Fishery Management Council.
    You will each have 5 minutes to deliver an oral statement. 
A longer written statement will be included in the record if 
you so desire.
    Mr. Oliver, the floor is yours.

            STATEMENT OF CHRIS W. OLIVER, ASSISTANT

       ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Oliver. Good morning, Chairman Sullivan and members of 
the Subcommittee. Thank you for the opportunity to testify 
today. I participated in both the 1996 and 2006 reauthorization 
processes in my previous role. And while I'm wearing a 
different hat today, and this administration has yet to take 
formal positions on specific issues, my fundamental 
perspectives remain built upon the success of the Act, as 
evidenced by sustainable management in the North Pacific 
fisheries and the successes we have achieved in fisheries 
across the United States.
    I would like to describe some of the agency's successes 
under the Act, but I want to focus on some of the challenges 
that remain.
    Essentially, the Act has been an outstanding success. In 
partnership with the Councils, Commissions, and other 
stakeholders, we have effectively ended overfishing in this 
country and are rebuilding fish stocks across the board, 
thereby assuring a sustainable supply of seafood for the Nation 
in the future.
    The Magnuson Act created broad goals--the Magnuson-Stevens 
Act created broad goals for U.S. fishery management in a unique 
management structure centered around the Regional Councils. I 
can personally attest to the value of that system, which 
encourages a collaborative bottom-up process where input and 
decisions include fishermen, other fishery stakeholders, 
affected states, tribes, and the Federal Government.
    Working together, fishermen, scientists, and managers have 
brought back numerous resources in fisheries across our 
country. I'm especially proud of the accomplishments in Alaska, 
where our approaches have led them to be widely recognized as 
one of the most successfully managed fisheries in the world.
    Yet we have challenges remaining. As an example, while our 
West Coast groundfish species have rebuilt several important 
stocks, in recent years, fishermen are leaving significant 
portions of the available harvest in the water due to outdated 
regulations and also to bycatch constraints. We have to find 
ways to maximize the allowable harvest in all of our fisheries, 
but importantly, do so within our overall long-term 
conservation goals. I think this is a case for some of our 
commercial fisheries and generally for recreational fisheries 
as well.
    Saltwater recreational fishing is among the Nation's 
favorite pastimes and a major contributor to the economies at 
all levels. We are pleased to announce that we are partnering 
with the Atlantic States Marine Fisheries Commission to host a 
national summit on saltwater recreational fisheries in March 
2018. While annual catch limits are a cornerstone of 
sustainable management, we have to recognize that managing 
under ACLs and associated accountability measures has been a 
major change and a new challenge for many fisheries, and that's 
the case for commercial as well as recreational fisheries, 
particularly where harvest data can be much more difficult to 
collect and timely report and where our management goals may 
differ fundamentally from commercial fisheries.
    Additional flexibility in how we apply those accountability 
measures and annual catch limits, as well as rebuilding 
schedules, could expand our collective toolbox and our ability 
to address many of the issues which have been raised in 
reauthorization discussions. I can assure you we stand ready to 
assist in any way we can as those approaches are being 
considered.
    America's seafood industry sets a global standard for 
sustainability; however, the majority of seafood we consume is 
imported. While there are some opportunities to enhance wild-
stock harvests, we believe significant headroom lies in 
expanded aquaculture production, and we are already making 
marine aquaculture development a renewed priority within the 
agency through various operational and budgetary incentives.
    Coordination of the regulatory and permitting process is a 
key area where we can be more effective. With these initiatives 
and with more efficient regulation of our wild-stock fisheries, 
we can position the Nation to make inroads on the seafood 
deficit.
    The current Act works very well for most fisheries. 
However, I believe there are opportunities to provide 
additional flexibility to allow us to more effectively manage 
some of those fisheries, particularly those that have different 
catch accounting challenges or could benefit generally from 
alternative management approaches. Although challenges remain 
in some of those fisheries in the near term, overall, the 
benefits for the resources, the industries it supports, and our 
economy in general can be realized as fish populations grow and 
catch limits increase in the longer term. In that sense, I 
believe we can have it both ways. I believe that we can 
maximize opportunities--take opportunities to maximize our 
domestic harvest potential without compromising the long-term 
sustainability of the resources we manage. I and NOAA Fisheries 
are committed to working with Congress throughout this 
reauthorization process to achieve just that goal.
    And that really concludes my opening comments, Mr. 
Chairman. And, again, I know there will be questions, and I 
will be happy to try to answer them.
    [The prepared statement of Mr. Oliver follows:]

    Prepared Statement of Chris W. Oliver, Assistant Administrator, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
Introduction
    Good afternoon, Chairman Sullivan, Ranking Member Peters, and 
Members of the Subcommittee. I appreciate the opportunity to speak with 
you today about the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act). My name is Chris Oliver and I am 
the Assistant Administrator for the National Oceanic and Atmospheric 
Administration's (NOAA) National Marine Fisheries Service (NMFS) in the 
Department of Commerce. From daily weather forecasts, severe storm 
warnings, and climate monitoring to fishery management, coastal 
restoration, and supporting marine commerce, NOAA's products and 
services support economic vitality and affect more than one-third of 
America's gross domestic product. NOAA's dedicated scientists use 
cutting-edge research and high-tech instrumentation to provide 
citizens, planners, emergency managers, and other decision makers with 
reliable information they need when they need it.
    Today, I will describe the agency's work under the Magnuson-Stevens 
Act, which sets forth standards for conservation, management, and 
sustainable use of our Nation's fisheries resources.
Progress under the Magnuson-Stevens Act
    The Magnuson-Stevens Act provides the Nation with a very successful 
fisheries management construct. U.S. fisheries are among the world's 
largest and most sustainable. For forty years, Magnuson-Stevens has 
demonstrated that a dynamic science-based management process is 
fundamental for sustainably managing fisheries. The goal of fisheries 
management is to achieve fisheries that are environmentally, 
economically, and recreationally sustainable. In partnership with the 
regional fishery management councils, interstate fishery commissions, 
and our stakeholders, and driven by the Magnuson-Stevens Act, the 
agency has effectively ended overfishing and is rebuilding domestic 
fish stocks. As of December 31, 2016, 91 percent of stocks for which we 
have assessments are not subject to overfishing, and 84 percent are not 
overfished.<SUP>i</SUP> By preventing overfishing and rebuilding 
stocks, we are strengthening the value of fisheries to the economy and 
communities that depend on them, and also ensuring a sustainable supply 
of seafood for the Nation in the future.
---------------------------------------------------------------------------
    \i\ See Status of the Stocks 2016. NMFS Office of Sustainable 
Fisheries, available at: http://www.nmfs.noaa.gov/sfa/fisheries_eco/
status_of_fisheries/archive/2016/status-of-stocks-2016-web.pdf
---------------------------------------------------------------------------
    Our most recent data show that after adjusting for inflation the 
landed volume and the value of commercial U.S. wild-caught fisheries 
remained near record highs. U.S. commercial fishermen landed more than 
9.7 billion pounds of seafood valued at $5.2 billion in 
2015.<SUP>ii</SUP> The seafood industry--harvesters, seafood processors 
and dealers, seafood wholesalers and seafood retailers, including 
imports and multiplier effects--generated an estimated $208 billion in 
sales impacts and supported 1.6 million jobs in 2015, the most recent 
year for which economic impact numbers are available.
---------------------------------------------------------------------------
    \ii\ See NOAA Annual Commercial Fisheries Landings Database, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index
---------------------------------------------------------------------------
    Saltwater recreational fishing is among the Nation's favorite 
pastimes and is a major contributor to the U.S. economy at all levels. 
In 2015, the Nation's nine million saltwater recreational anglers took 
more than 60 million fishing trips and spent $28.7 billion on fishing 
trips ($4.5 billion) and durable fishing related equipment ($24 
billion) while spending time with friends and family. Their 
expenditures drove $63 billion in sales impacts, a 5 percent increase 
from 2014, supported 439,000 jobs, and contributed $36 billion to the 
U.S. gross domestic product.<SUP>iii</SUP> In partnership with the 
recreational fishing community, NOAA Fisheries is committed to ensuring 
abundant and enduring saltwater recreational fishing opportunities now 
and into the future. To this end, I am pleased to announce that NOAA 
Fisheries is partnering with the Atlantic States Marine Fisheries 
Commission to host a national summit on saltwater recreational 
fisheries in March 2018 to chart a course toward future success.
---------------------------------------------------------------------------
    \iii\ See Fisheries Economics of the U.S. 2015. NMFS Office of 
Science & Technology, available at: https://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2015/index
---------------------------------------------------------------------------
    Marine aquaculture production totaled 90 million pounds valued at 
$3.8 million in 2014, with the largest regional producer being the 
Atlantic, which represents almost 50 percent of the total 
value.<SUP>iv</SUP> Aquaculture production has tremendous untapped 
potential, and under Secretary Ross' direction NMFS will be working 
expand aquaculture opportunities.
---------------------------------------------------------------------------
    \iv\ See Fisheries of the United States, 2015. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
commercial-fisheries/fus/fus15/index
---------------------------------------------------------------------------
    Marine fish and fisheries--such as tropical tunas in the Western 
and Central Pacific, salmon in the Pacific Northwest, halibut and 
groundfish in Alaska, cod in New England and red snapper in the Gulf of 
Mexico--are vital to the prosperity and cultural identity of coastal 
communities in the United States. U.S. fisheries play an enormous role 
in the U.S. economy. In Alaska, where I have lived for the last 27 
years, Dutch Harbor leads the Nation for the 19th consecutive year as 
the port with the highest volume of seafood landed (787 million pounds 
valued at $218 million).<SUP>v</SUP>
---------------------------------------------------------------------------
    \v\ See Fisheries of the United States, 2015. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
commercial-fisheries/fus/fus15/index
---------------------------------------------------------------------------
    Around the country, commercial fishing supports fishermen, 
contributes to coastal communities and businesses, and provides 
Americans with a valuable source of local, sustainable, and healthy 
food. Recreational and subsistence fishing provides food for many 
individuals, families, and communities; is an important family 
activity; and is a critical economic driver of local and regional 
economies, as well as a major contributor to the national economy. 
Subsistence and ceremonial fishing also provides an essential food 
source and has deep cultural significance for indigenous peoples in the 
Pacific Islands and Alaska and for many Tribes on the West Coast.
    The advancement of our science, management, and enforcement tools 
has resulted in improved sustainability of fisheries and greater 
stability for industry. The 2007 Magnuson Stevens Act reauthorization 
provided more explicitly for market-based fishery management through 
Limited Access Privilege Programs, and addressed the need to improve 
the science used to inform fisheries management. Limited Access 
Privilege Programs, while not appropriate for all fisheries, are an 
important tool in our collective tool box, and the current Act allows 
for development of such programs to be tailored to the specific needs 
of each fishery.
    Under the Magnuson-Stevens Act, the U.S. has many other effective 
tools to apply in marine fisheries management. Yet, as we look to the 
future, we must continue seeking opportunities to further improve our 
management system. Our progress has not come without costs, including 
reductions in near term harvests for both commercial and recreational 
fisheries in some cases, and challenges remain. Fishermen, fishing 
communities, and the Councils have had to make difficult decisions and 
absorb the near-term costs of conservation in exchange for long-term 
economic and biological sustainability.
Magnuson-Stevens Act Flexibility and Regional Approach
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. Given my past work as the Executive Director 
of the North Pacific Fishery Management Council, I can attest to the 
value of the regional fishery management council system established 
through the Magnuson-Stevens Act. This structure encourages a 
collaborative, ``bottom up'' process where input and decisions about 
how to manage U.S. fisheries include fishermen, other fishery 
stakeholders, affected states, tribal governments, and the Federal 
Government.
    The Councils can choose from a variety of approaches and tools to 
manage fish stocks and meet the mandates of the Magnuson-Stevens Act--
e.g., catch limits, catch shares or other allocation mechanisms, area 
closures for habitat or protected species considerations, and gear 
restrictions. These measures are submitted to the Secretary of Commerce 
for approval and are implemented by NMFS.
    Effects on fishing communities are central to many fishery 
management decisions. Fishing communities rely on fishing-related jobs, 
as well as the non-commercial and cultural benefits derived from these 
resources. Marine fisheries are the lifeblood of many coastal 
communities around our Nation. Communities, fishermen, processors, and 
various fishing dependent industries rely not only on today's catch, 
but also on the predictability of future catches.
    The need to provide stable domestic fishing and processing jobs is 
paramount to fulfilling one of the Magnuson-Stevens Act's goals--to 
provide the Nation with sources of domestic seafood. This objective has 
even greater purpose now than when the Act was passed, as today U.S. 
consumers are seeking--more than ever--options for healthy, safe, 
sustainable, and local seafood.
    Under the standards set in the Magnuson-Stevens Act the Nation has 
made great strides in maintaining more stocks at biologically 
sustainable levels, ending overfishing, rebuilding overfished stocks, 
building a sustainable future for our fishing-dependent communities, 
and providing more domestic options for U.S. seafood consumers in a 
market dominated by imports. Thanks in large part to the strengthened 
Magnuson-Stevens Act and the sacrifices and investment in conservation 
by fishing communities across the country, the condition of many of our 
most economically important fish stocks has improved steadily over the 
past decade.
Regional Successes
    There are many examples of what fishermen, scientists, and managers 
can do by working together to bring back a resource that once was in 
trouble.
    Atlantic sea scallops provide one example of rebuilding success. In 
the early 1990s, the abundance of Atlantic sea scallops was near record 
lows and the fishing mortality rate was at a record high. Fishery 
managers implemented a number of measures to allow the stock to 
recover, including an innovative area management system. The stock was 
declared rebuilt in 2001. In real terms, gross revenues in New England 
increased more than six-fold from $44 million in 1998 to $287 million 
in 2015, making New Bedford the Nation's top port by value of landings 
since 2000.<SUP>vi</SUP>
---------------------------------------------------------------------------
    \vi\ See Fisheries Economics of the U.S. 2015. NMFS Office of 
Science & Technology, available at: https://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2015/index
---------------------------------------------------------------------------
    In the Pacific Islands Region, NMFS, the Western Pacific Fishery 
Management Council, the State of Hawaii, and fishing communities have 
ended overfishing of the Hawaiian archipelago's deep-water bottomfish 
complex--a culturally significant grouping of seven species of snapper 
and grouper. This has enabled NMFS to increase annual catch limits for 
these stocks for both commercial and recreational fishermen and ensure 
these fish are available year-round.
    On the West Coast, NMFS and the Pacific Fishery Management Council, 
the fishing industry, recreational anglers, and other partners have 
successfully rebuilt a number of once overfished stocks, including coho 
salmon, lingcod, Pacific whiting, widow rockfish, canary rockfish, and 
petrale sole. These and other conservation gains, including 
implementation of the West Coast groundfish trawl rationalization 
program, enabled NMFS to increase catch limits for abundant West Coast 
groundfish species that co-occur with groundfish species in rebuilding 
plans.
    In the Southeast Region, NOAA, the Gulf of Mexico and South 
Atlantic Fishery Management Councils, the fishing industries, 
recreational anglers and other partners have successfully rebuilt a 
number of once overfished stocks, including gag, red grouper and king 
mackerel in the Gulf of Mexico, and black sea bass in the South 
Atlantic. These and other conservation gains enabled NMFS to increase 
catch limits for six stocks or stock complexes and eliminate or reduce 
two fixed seasonal closures.
    I'm most proud of the accomplishments in Alaska where our 
management decisions have led us to be widely recognized as one of the 
most successfully managed fisheries in the world. In 2015, landings 
revenue totaled about $1.7 billion, a 32 percent increase from 2006 (a 
25 percent increase in real terms after adjusting for 
inflation).<SUP>vii</SUP>
---------------------------------------------------------------------------
    \vii\ See Fisheries Economics of the U.S. 2015. NMFS Office of 
Science & Technology, available at: https://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2015/index
---------------------------------------------------------------------------
Remaining Challenges--Looking to the Future
    Amid these successes, some critical challenges remain. For example, 
while our West Coast groundfish fisheries have rebuilt several 
important stocks, in recent years fishermen are leaving a substantial 
amount of the available harvest of some groundfish species in the 
water, due to regulatory or bycatch species constraints. We must find 
ways to maximize allowable harvests that are still protective of non-
target species in all of our fisheries. Solving difficult management 
issues will require us to reexamine our own stock assessment and data 
collection systems, which we are doing independent of Magnuson-Stevens 
Act reauthorization, and will require the close cooperation of the 
states, the regional fisheries management Councils, and all involved 
stakeholder groups.
    Annual catch limits are a cornerstone of sustainable fisheries 
management around the Nation, but managing fisheries using annual catch 
limits and accountability measures was a major change
    and has been challenging in certain fisheries, particularly 
recreational fisheries where total harvest data can be much more 
difficult to collect and timely report than in most commercial 
fisheries. This is particularly true where data is scarce, which is the 
case for many of the stocks in the Pacific Islands region and the 
Caribbean, especially those species being fished in the coral reef 
ecosystem. I believe there are opportunities to have it both ways--to 
maximize our domestic harvest potential, without compromising the long-
term sustainability of the resources we manage. We are committed to 
working with Congress throughout the Magnuson-Stevens reauthorization 
process with regards to annual catch limits, accountability measures, 
stock rebuilding, or other aspects of our management construct, while 
still protecting the overall, long-term conservation and sustainability 
of the Nation's fishery resources.
    Stock assessments provide the fundamental information necessary to 
successfully manage sustainable fisheries. Preservation and enhancement 
of the science used to inform fisheries management is imperative as we 
look to the future of U.S. fisheries and the seafood they provide the 
Nation. NMFS has made a substantial effort to monitor recreational 
fisheries and incorporate data from these fisheries into stock 
assessments. We are applying new and improved methods for estimating 
total catch by the millions of recreational saltwater anglers, but more 
needs to be done. Strengthening our partnerships with the coastal 
states, regional fisheries management Councils, and affected 
stakeholders to conduct efficient and cost-effective monitoring will be 
an important component of that effort.
    As NMFS assesses the most effective and efficient ways to support 
sustainable fisheries management and fishing communities, there may be 
a need to refocus limited monetary and staff resources on core, mission 
critical activities such as basic stock assessment and catch 
accounting.
    We face formidable challenges managing recovering stocks to benefit 
both commercial and recreational user groups with fundamentally 
different goals and objectives. Together with our partners, it is 
essential that we continue to explore innovative management approaches 
appropriate to solve regional problems with regional management tools. 
We must remain dedicated to exploring ways to maximize economic 
opportunities from wild-caught fisheries for commercial and 
recreational fishermen, processors, and communities. Some improvements 
in our regulatory processes may be possible, not only in the number of 
specific regulations we promulgate, but in the more general regulatory 
processes under which we operate. The Magnuson-Stevens Act intersects 
with a number of other important statutes including National 
Environmental Protection Act, the Endangered Species Act, and the 
Marine Mammal Protection Act, and these various statutes impose 
important responsibilities upon the agency. There may be opportunities 
for more efficiency and consistency in how we interact with those other 
statutes and, to that end, NMFS is currently inviting public comment on 
the efficacy and effectiveness of the current regulatory process, 
including the application of Federal regulations under these statutes 
and to aquaculture.
    We also need to expand U.S. seafood production and exports. 
America's seafood industry is world-renowned and our fisheries set a 
global gold standard for sustainability. However, the majority of the 
seafood we consume is imported. Through maintenance or enhancement of 
wild-stock harvests and expanded aquaculture production, we can 
position the Nation to make inroads on that seafood trade deficit. We 
need to stay true to our essential conservation mission, while taking 
advantage of opportunities to streamline regulatory processes and 
maximize the National benefit of our fisheries resources.
Conclusion
    We all share the common goal of healthy fisheries that can be 
sustained for future generations. Without clear, science-based rules, 
fair enforcement, and a shared commitment to sustainable management, 
short-term pressures can easily undermine progress toward restoring the 
social, economic, and environmental benefits of a healthy fishery. 
There are opportunities to provide flexibility in applying annual catch 
limits and in using sound science and innovative management approaches 
to rebuild more fish stocks. Although challenges remain in some 
fisheries, overall, the benefits for the resource, the industries it 
supports, and the economy can be seen as fish populations grow and 
catch limits increase.
    To understand where we are, it is important to reflect on where 
we've been. We have made great progress but our achievements have not 
come easily, nor will they be sustained without continued attention. 
This is a critical time in the history of Federal fisheries management, 
and we must move forward in a strategic way to ensure our Nation's 
fisheries are able to meet the needs of both current and future 
generations. We also need to remember that practicality and common 
sense are important as we engage strategically. We look forward to 
working with Congress on fisheries management issues in a holistic, 
comprehensive way that builds on its success and considers the needs of 
the fish, fishermen, ecosystems, and communities.
    Thank you again for the opportunity to discuss the Magnuson-Stevens 
Act. I am available to answer any questions you may have.

    Senator Sullivan. Great. Thank you, Director Oliver.
    Dr. Quinn.

             STATEMENT OF DR. JOHN M. QUINN, CHAIR,

             NEW ENGLAND FISHERY MANAGEMENT COUNCIL

    Dr. Quinn. Thank you very much, Chairman Sullivan and 
Ranking Member Peters. My name is John Quinn, and I am here to 
testify on behalf of the Council Coordination Committee.
    By way of background, I am the Director of Public Interest 
Law Programs at the University of Massachusetts School of Law 
in Dartmouth, which is right next door to the Port of New 
Bedford, one of the leading fishing ports in the Nation. I've 
been involved in fisheries issues for the last 30 years as a 
lawyer, a state legislator, and for the last 5 years, as a 
member of the New England Fisheries Management Council.
    Commercial, recreational, and subsistence fisheries are key 
contributors to our coastal communities and the Nation's 
economy. The Councils are the cornerstone of the regional 
system created by the Act, and as a group, we are strong 
believers in its benefits.
    Today, I will highlight a few of the issues that are 
detailed in my written statement grouped into three themes: a 
need for management flexibility, the importance of our public 
process, and a need for adequate resources.
    I'll begin with management flexibility. The wide variety of 
fisheries in our country means that no single solution to 
management challenges will work in all cases. Our strategy 
should be to create a flexible legal framework that allows for 
a wide range of management solutions. This is particularly true 
when it comes to promoting sustainable fisheries. To that end, 
the Act requires that a stock in poor condition must be rebuilt 
within 10 years. This arbitrary timeline can cause problems. 
Imagine that every homeowner could only choose a 10-year 
mortgage when purchasing a home. Well, that would work for 
some; it would not work for all.
    I want to make it clear that we do not seek eliminating 
rebuilding requirements, but we believe that targeted changes 
to the law would enable the development of better rebuilding 
plans. It's not just the Councils that reached this conclusion, 
the issue was highlighted in a report by the National Research 
Council in 2014.
    There is also a need for flexibility at the tactical level. 
Councils need to be able to consider a wide variety of 
management tools without burdensome requirements. ACLs and AMs 
may not be the best tools to managing all fisheries.
    And, finally, most regions have used exempted fishing 
permits to conduct scientific research that leads to management 
solutions. Adding new requirements for the EFP process would 
greatly reduce the ability to get them approved in a timely 
manner. Fishermen in their communities would suffer as a 
result.
    And as to the public process, clearly, a transparent 
process is critical to maintaining public trust. This need 
could be met in a variety of ways, but the defining specific 
webcast requirements will lead to additional expense and ignore 
the technical difficulties encountered when holding meetings in 
isolated fishing ports. All proposed actions are carefully 
examined before implementation. The requirement for NEPA 
analysis, however, duplicates those in the Act and other 
applicable law. We believe that alternative analysis should be 
done within the framework of the Act rather than NEPA.
    With 40 years of experience, the Council has provided a 
well-known, time-tested forum for resolving fisheries issues. 
When other statutes are used to develop regulations that limit 
fishing, that public process is often sidestepped. If all 
Federal fisheries regulations are promulgated under section 302 
of the Act, it would ensure rational management of our fishery 
resources throughout the range.
    And as to resources, in order to effectively manage 
fisheries, a significant investment is needed at all steps of 
the process. We currently rely heavily on data and analysis 
provided by NMFS. Reducing stock assessment funds will reduce 
harvests by U.S. fishermen, which will increase imports of 
foreign seafood. Increasing stock assessment funding, including 
that needed to collect the necessary data, is one of the best 
investments an administration can make in U.S. fisheries.
    Data availability continues to be among the greatest 
challenges for the management of recreational fisheries. 
Changes to NOAA's MRIP program have only been partially 
implemented and have done little to increase the precision of 
catch estimates. MRIP does not provide the data needed for 
reliable monitoring of ACLs and AMs. Addressing this problem 
will require increased sampling rates, which can only occur 
with increased funding.
    While we recognize that strategic planning is necessary, we 
are concerned that it creates unfunded mandates for the 
Councils. We should fulfill existing regulatory and management 
requirements before any new mandates are required.
    Finally, I believe it is important to acknowledge the 
supportive relationship between the Councils and the National 
Marine Fisheries Service. The regional offices and science 
centers are critical to our process. It's unfortunate that Mr. 
Oliver decided to transfer to the second best part of the 
partnership, but we look forward to working with him in the 
future.
    Again, thank you for the opportunity to address the 
Committee. And I'm happy to answer any questions.
    [The prepared statement of Dr. Quinn follows:]

  Prepared Statement of Dr. John M. Quinn, Chair, New England Fishery 
                           Management Council
    Chairman Sullivan and Ranking Member Peters, my name is John Quinn 
and I am here today to testify on behalf of the Council Coordination 
Committee (CCC), which is made up of the chairs, vice chairs, and 
executive directors of the eight Regional Fishery Management Councils 
that were created under the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act or MSA).
    By way of background, I am currently the Director of Public 
Interest Law programs at the University of Massachusetts School of Law, 
which is located near the port of New Bedford. New Bedford has been the 
highest grossing port in the United States for 16 consecutive years. I 
have been involved in fisheries issues for the last 30 years as a 
lawyer, a state legislator, and, for the last five years, as a member 
of the New England Fishery Management Council.
    Thank you for inviting me here today to speak to the 
reauthorization of the Magnuson-Stevens Act. Without a doubt, this 
statute established the United States as the world's premier manager of 
fisheries resources. One of the major strengths of the Act is its 
support of a regional approach to fisheries management that is guided 
by an overarching Federal framework. The eight Regional Fishery 
Management Councils are the cornerstone of that system.
    The Councils fill a unique fishery management role. Our members 
include representatives from state, federal, and tribal fishery 
management agencies, as well as appointed members selected for their 
fisheries knowledge and expertise. We prepare the management plans that 
guide fishing in Federal waters. The National Marine Fisheries Service 
(NMFS), on behalf of the Secretary of Commerce, reviews our proposals 
and implements them if the actions are consistent with the law. While I 
am the current chair of the New England Fishery Management Council, 
today I speak to you as the representative of all eight regional 
councils. We meet regularly as the Council Coordination Committee to 
discuss cross-regional issues and collaborate with NMFS on strategic 
planning and policy development.
    As a group, we are strong believers in the Magnuson-Stevens Act--
and not just because it established the Councils. The outcome of our 
management success is clear: commercial, recreational, and subsistence 
fisheries are key contributors to our coastal communities and the 
Nation's economy. In large measure this is because the Act structured a 
very successful approach to sustainable fisheries management. Central 
to the Act are the 10 National Standards that guide our management 
process. National Standard 1, which is the most important, requires 
that conservation and management measures shall prevent overfishing 
while achieving optimum yield from each U.S. fishery.
    Let me acknowledge the many successes of the MSA and the Council 
system. While some stakeholders have expressed frustration with 
decisions made by individual Councils--and some of those give your 
offices calls when they don't like Council decisions--I think it is 
important to note that the MSA actually gives stakeholders seats at the 
table when fishery management decisions are made. The MSA created these 
Councils to provide a public forum for fishery management decisions to 
be made. This public forum allows fishery managers, state officials, 
fishermen, academics, environmental groups, Federal officials, and 
other interested parties to have a say in the management of our public 
resources. The decisions made through this public process are based on 
the best scientific information available and use stock assessments 
that have been conducted in a public manner and peer reviewed.
    Finally, the decisions made by the Council are then again reviewed 
by the Secretary of Commerce and published in the Federal Register for 
an additional public comment period. While this is a time-consuming and 
sometimes duplicative process, it ensures that decisions are fair, 
informed, and science-based. The process also is fully transparent.
    We should not be content to rest on our laurels. We believe that, 
going forward, we can improve our efforts. Today I would like to 
highlight some of the issues that we believe need to be addressed. As 
will be no surprise, our regional approach to management means that the 
Councils each face different challenges. Despite these differences, 
there are a number of areas where our opinions on needed improvements 
are consistent. I will limit my comments to the consensus statements 
that all eight Councils support. I've structured my statement around 
broad issues that have been identified.
Management Flexibility
Rebuilding Plans
    One of the important provisions of the MSA is its focus on 
sustainable fisheries. To that end, in 1996 the Sustainable Fisheries 
Act amended the MSA and established strict requirements for ending 
overfishing and rebuilding fish stocks. A key requirement is that, in 
most cases, a stock must be rebuilt within a fixed time period, usually 
no more than ten years. Over the last twenty years, significant 
progress has been made, improving the status of many stocks. But we 
also have learned that there may be a need to improve the rebuilding 
provisions of the MSA so that the Nation fully realizes the benefits of 
its resources. I want to make it clear that we do not seek to eliminate 
rebuilding requirements, but we think our experiences can be used to 
improve the existing provisions.
    In general, the CCC believes that the addition of measures that 
would increase flexibility with respect to stock rebuilding for certain 
types of fisheries would improve the ability of Councils to achieve 
management objectives. We acknowledge that rebuilding often comes with 
necessary and unavoidable social and economic consequences, but 
targeted changes to the law would enable the development of rebuilding 
plans that more effectively address the biological imperative to 
rebuild overfished stocks while mitigating the social and economic 
impacts. For example, increased flexibility in rebuilding timelines 
would allow for a better balance between the biology of the fish and 
the socioeconomic needs of fishermen. A narrow exception for mixed-
stock fisheries also could be considered.
    We agree that exceptions to rebuilding requirements should be 
limited in scope and carefully defined. Ideally, such exceptions would 
be codified in the MSA along with guidance regarding applicable 
circumstances in National Standard guidelines.
Management of Mixed Stocks
    Many fishermen catch a mix of species on a trip. While in some 
cases selective fishing practices can effectively target some species 
and reduce the number or amount of non-target species caught, this is 
not always an adequate solution. Some of the Act's more prescriptive 
requirements pose particular challenges for the management of mixed 
stock fisheries and may not integrate well with ecosystem approaches. 
While the current National Standard guidelines allow for a mixed-stock 
exception to the requirements to prevent overfishing, the statutory 
basis for this is unclear and would benefit from clarification in the 
reauthorized Act. In addition, provisions for mixed-stock fisheries are 
more consistent with the concepts of ecosystem-based fishery 
management.
Transboundary Stocks
    The addition of language that would allow the Councils to develop 
annual and in-season quota trading programs for international and 
national transboundary stocks will improve the ability of the Councils 
to achieve harvest and management objectives. The CCC also recognizes 
the potential for increased enforcement from recommendations of the 
Presidential Task Force Combating Illegal, Unreported, and Unregulated 
(IUU) Fishing.
Data Limited Fisheries
    Further consideration of exemptions or alternatives to the existing 
Annual Catch Limit (ACL) requirements for data-limited species could 
improve the Councils' ability to provide stability in setting harvest 
limits. The ad hoc methods sometimes used to establish ACLs for data-
limited species often result in quotas that are less predictable, 
resulting in a loss of stability and yield in some of our most 
important fisheries. While ACLs and Accountability Measures (AMs) have 
been effective management tools for many fisheries, they may not be the 
best tools for managing incidental or small-scale, data-limited 
fisheries. In these situations, Councils should have discretion to 
determine alternative control mechanisms or utilize ecosystem-based 
fishery management approaches (e.g., seasons, area-based management) 
for data-limited stocks.
Definition of ``Overfished''
    At present, when a stock falls below a minimum biomass, it is 
described as ``overfished'' and a rebuilding plan is required. While 
fishing can be the cause of a reduced stock, there may be other reasons 
as well, such has warming ocean waters or degraded habitat. An 
alternative term could be useful for describing fisheries that are 
depleted as a result of non-fishing factors, unknown reasons, or a 
combination of fishing and other factors. The current MSY-based 
definition can be problematic when applied to data-limited fisheries or 
mixed-stock complexes. Furthermore, the term ``overfished'' can 
unfairly implicate fishermen for depleted conditions resulting from 
pollution, coastal development, offshore activities, natural ecosystem 
fluctuations, and other (perhaps unknown) factors. Not all of the 
Councils agree that ``depleted'' is the appropriate term to replace 
``overfished'' since it has specific meanings in a number of other 
statutes. Care should be taken to avoid conflict or ambiguity if a 
change in terminology is implemented.
Transparency
    Clearly, a transparent public process is critical to maintaining 
public trust when managing a public resource. This need can be met in a 
variety of ways, but identifying specific requirements to meet this 
need can be problematic. Budget problems are very real, and written 
transcripts are costly. Video recordings of large meetings may not add 
substantive content, as they will not capture presentations and 
motions, which are the most critical visual aspects of meetings. 
Streaming video also may degrade the quality of webcast audio. While 
the technology for webcasts is rapidly evolving, live broadcasts 
generally require strong Internet connections to be effective. In the 
context of Council meetings, which often are held in remote locations 
near fishing ports, the Councils have little ability to predict or 
control the quality and cost of the Internet connection. Consequently, 
requiring the use of webcasts ``to the extent practicable'' (rather 
than in all cases) will allow Councils to achieve greater transparency 
within budget and operational constraints.
NEPA Compliance
    Fishery management involves fairly rapid cycles of adaptive 
management in which information about changing conditions is addressed 
through adjustments to the management program and regulations. The 
necessity for National Environmental Policy Act (NEPA) analysis of 
these actions results in requirements that duplicate those in the MSA 
and other applicable law, including additional comment periods that 
delay implementation of these actions, which were developed through the 
open and transparent MSA process. Ensuring NEPA compliance for marine 
fishery management actions has been costly and time-consuming for 
Council and NMFS staff and has limited the Councils' abilities to 
pursue other regulatory activities. In addition, the CCC notes that 
there have been instances where compliance with NEPA has hindered 
adequate compliance with the MSA in terms of providing comprehensive 
analysis to Councils prior to their taking final action due to the 
difficulty and time required to complete NEPA analyses.
    Although the 2007 MSA reauthorization attempted to align the 
requirements of the two laws more closely through the addition of 
Section 304(i), the CCC does not believe what has been called for in 
the Act has been accomplished. There haven't been any substantive 
changes in the way NEPA is used to support management actions or in the 
steps needed to complete those analyses. Clearly, proposed management 
actions should be thoroughly analyzed before decisions are made. We 
believe that such analyses should be done within the framework of the 
MSA rather than NEPA.
Catch Share Programs
    Catch share programs allocate part of a harvest to an individual or 
group of permit holders. Much has been written about their strengths 
and weaknesses. On the one hand, supporters believe the programs reduce 
the ``race for fish,'' creating more rational harvest plans. Opponents 
argue that they privatize a public resource and lead to consolidation 
in the fishing industry.
    One thing we have learned in forty years of the Council process: 
fishery management is complex, and no single solution will work in all 
fisheries. Councils should have the maximum flexibility possible to 
develop effective management tools, including catch share programs. 
Adding excessive requirements for conducting a referendum before a 
catch share program can be adopted is likely to increase the 
administrative burden for the Councils. It may reduce the Councils' 
ability to implement the appropriate management program for their 
fisheries that could include modification of existing catch share 
measures or adoption of new catch share measures. Councils should be 
able to consider the use of all fishery management tools without 
burdensome requirements.
Collection and Use of Fishery Data
    In general, Councils should be granted a reasonable degree of 
flexibility in the development and implementation of monitoring 
programs (electronic and otherwise) so that those programs may be 
tailored appropriately for each fishery and the needs of each region.
Electronic Monitoring
    Our ability to manage fisheries effectively depends on having 
access to timely and accurate data. The development of electronic 
monitoring technologies and the utilization of other emerging 
technologies could be beneficial to U.S. fisheries--in terms of data 
collection and in terms of the potential to reduce the cost to 
fishermen and governmental entities. However, introducing additional 
national-level regulations to govern the use of electronic monitoring 
beyond the current constraints of the Act (e.g., the National 
Standards) may be counterproductive due to a number of factors, 
including funding and resource constraints, variability among 
fisheries, and the rapid evolution of technology. In addition, the 
costs of new technologies should be taken into account when 
implementing new programs or technologies.
Recreational Fisheries
    Data quality and availability continue to be among the greatest 
challenges for the management of recreational fisheries. Given the 
importance of accountability, effective monitoring is critical for the 
successful management of recreational fisheries. Comprehensive 
recreational data also contribute to improved stock assessments that 
benefit all fishery sectors. While NOAA's Marine Recreational 
Information Program (MRIP) has provided some improved statistical 
methodologies to reduce sampling bias, the program has been only 
partially implemented, and it has done little to increase the precision 
of catch estimates. Addressing this problem will require increased 
sampling rates, which only can occur with increased funding. The 
Councils are examining additional technologies that should be 
encouraged to get better data.
Other Federal Statutes
    With forty years of experience, the Councils have extensive 
expertise in managing Federal fisheries. The Council process, tailored 
for each region, provides a well-known, effective forum for resolving 
fisheries issues. When other statutes are used to develop fishery 
regulations, that public process is often side-stepped. The CCC 
believes that an amendment to the MSA that ensures all Federal fishery 
regulations are promulgated under the Council or Secretarial process 
established under MSA section 302 would ensure rational management of 
our fishery resources throughout their range. Under the MSA, the 
Councils are charged with managing, conserving, and utilizing the 
Nation's fishery resources, as well as protecting essential fishery 
habitat, minimizing bycatch, and protecting listed species within the 
United States Exclusive Economic Zone. This is done through a 
transparent public process that requires decisions be based on the best 
scientific information available. This time-tested approach has made 
U.S. fisheries management highly successful and admired throughout the 
world.
    If changes to Council-managed fisheries (for example, changes to 
the level, timing, method, allowable gear, or areas for harvesting 
management unit species) are required under other statutory authorities 
such as the Antiquities Act of 1906, the Endangered Species Act of 
1973, the Marine Mammal Protection Act of 1972, or the National Marine 
Sanctuaries Act of 1972, such restrictions or modifications to those 
fisheries should be debated and developed under the existing MSA 
process. In addition, all actions by the Councils are currently subject 
to review by the Secretary of Commerce to determine consistency with 
MSA and all other applicable laws. This current review ensures that 
Council actions--including those that could be made as a result of 
requirements of other statutes--will continue to be consistent with all 
relevant laws. Making modifications to fisheries through the MSA 
process would ensure a transparent, public, and science-based process. 
When fishery restrictions are put in place through other statutes, 
frequently the fishing industry and stakeholders are not consulted, 
analyses of impacts to fishery dependent communities are not 
considered, and regulations are duplicative, unenforceable, or 
contradictory.
Climate Change
    Fishery resources have evolved to make the best use of their 
habitats. Fish distribution can depend on many factors, including water 
temperatures. In many of our regions, warming sea water temperatures 
are leading to significant changes in the distribution of fish species. 
For example, in New England we are seeing species of fish in the Gulf 
of Maine that historically only were harvested off Long Island and New 
Jersey; at the same time, cold water species like lobster are leaving 
warming waters to the south. Other changes are occurring as well. 
Increased acidification of sea water is a threat to many shellfish 
species, both in nearshore aquaculture and offshore wild-caught 
fisheries.
    The sustainability and performance of our fisheries are at stake, 
and while fishery managers are unable to address the underlying causes 
of climate change, they are nonetheless tasked with meeting our 
conservation and management mandates in a changing environment. These 
changes will impact entire marine ecosystems, and a single-species 
management approach likely will not be sufficient to understand and 
account for these changes. Addressing climate change will require 
establishing the support to enable fishery managers to develop creative 
solutions to new challenges.
    Fishery managers also will need a strong scientific foundation to 
support climate-ready fisheries management. Managing climate-ready 
fisheries is a long-term endeavor that will require investing in the 
information needed to support informed decision-making, along with a 
commensurate shift in resources and attention. Successful management 
already depends on the availability of timely and accurate information 
at all points in the decision-making process. In a changing 
environment, this will become even more critical.
Resources
    The Councils are concerned that important policy directives issued 
by the National Marine Fisheries Service (e.g., forage fish, allocation 
review, and ecosystem-based fishery management) frequently create 
unfunded mandates. The demands on Councils to fulfill existing 
regulatory and management requirements are significant, and these 
should be met before any new tasks are imposed. New mandates can be 
addressed only if adequate resources are provided.
    We also want to make it clear that we rely heavily on data and 
analyses provided by NMFS. At-sea surveys of fish populations are the 
`bread and butter' of the sustainable management that is the hallmark 
of U.S. fisheries under the MSA. Reducing stock assessment funds will 
reduce harvests by U.S. fishermen, which will increase imports of 
foreign seafood. Increasing stock assessment funding is one of the best 
investments an administration can make in U.S. fisheries.
Exempted Fishing Permits
    Exempted fishing permits (EFPs) are an extremely important and 
useful mechanism to conduct scientific research. For instance, EFPs 
have been used in different regions of the U.S. to conduct surveys, 
test monitoring devices under field conditions, investigate invasive 
species, and develop fishing gear that reduces bycatch, reduces habitat 
impacts, and reduces impacts on protected species. These studies are 
frequently done by the fishing community at no cost to the public and 
have provided enormous benefits for the conservation and management of 
marine resources and habitats.
    The existing regulations already provide a good framework for 
developing a regional process of issuing and reviewing EFPs. The EFP 
applications undergo a regional scientific peer review and are 
evaluated through a public process by the respective Councils. The 
public and affected states have an opportunity to comment to NMFS and 
the Councils during this process. Any new requirements for the EFP 
process, such as additional social and economic analysis or further 
consultation with the state governors, would greatly reduce the ability 
to get EFPs developed and approved in a timely manner.
    The CCC further believes that multi-year EFPs provide the necessary 
flexibility to scientifically test gear across different years and 
seasons. New regulations that limit EFPs to a 12-month period will 
severely limit the usefulness of the data collected, as well as the 
type and quality of research that can be done.
General comments
    I would like to close with a few general tenets that we think are 
important.

  <bullet> Modifications to the Act should be national in scope but 
        with reasonable flexibility to address region-specific issues. 
        Avoid across-the-board mandates that could negatively affect 
        one region to address a problem in another. Modifications to 
        the Act that are specific to one region or one Council 
        undermine the national scope of the Act and should be carefully 
        considered, especially with respect to how these modifications 
        might affect operations in other regions.

  <bullet> Legislation should allow for flexibility in achieving 
        conservation objectives but be specific enough to avoid 
        lengthy, complex implementing regulations or guidelines.

  <bullet> Legislation should be in the form of intended outcomes, 
        rather than prescriptive management or scientific parameters.

  <bullet> Legislation should avoid unrealistic/expensive analytical 
        mandates relative to implementing fishery management actions.

  <bullet> Legislation should avoid constraints that limit the 
        flexibility of Councils and NMFS to respond to changing 
        climates and shifting ecosystems.

  <bullet> Avoid unfunded mandates and/or ensure that Councils and NMFS 
        have the resources to respond to provisions of legislation.

  <bullet> Preservation and enhancement of stock assessments and 
        surveys should be among the highest priorities when considering 
        any changes to the Act.

    Finally, I believe it important to acknowledge the supportive 
relationship between the Councils and the National Marine Fisheries 
Service. Our management successes would not be possible without our 
close partnership. The Service is a key participant in the Council 
process and a key provider of the information we need. The regional 
offices and science centers are critical to our process. The healthy 
exchange of ideas and opinions between our groups leads to better 
solutions. We are thrilled that Mr. Oliver is heading the agency, and 
we look forward to working with him in his new role.
    Thank you for the opportunity to address the Committee.

    Senator Sullivan. Thank you, Dr. Quinn.
    And I like the little rivalry between the witnesses here. 
That's helpful.
    Let me begin by just asking and building on what Senator 
Nelson said. I think he made an important point about the 
bipartisan history with regard to the origins of this Act, and 
that's certainly my goal, as the Chairman, to bring together 
Members on both sides of the aisle when we're looking at 
reauthorization of the MSA.
    So given that, I would like to ask both of you, starting 
with Mr. Oliver, what would you see in the MSA, what would you 
hope to see in MSA reauthorizations, the issues that we think 
that you think are important to address? And what areas of 
consensus do you think exist possibly and importantly between 
commercial interests, recreational interests, conservation 
groups?
    So however you want to answer that question, both of you. I 
think that's a really key issue to get your views on that kind 
of high-level, but important, issue to begin with.
    Mr. Oliver. Thank you, Mr. Chairman. I'll take a shot at 
that. In my previous role, you probably have heard me testify 
on behalf of the North Pacific Council when I was in that role 
that the current Act is working very well, and we didn't see 
the need for substantive changes.
    I'm in a new role now, and as I look at the issue more 
broadly, and I've heard from constituents around the country, 
I've heard the dialogues that have occurred with regard to some 
of the ideas that have been submitted or discussed over the 
past year or two in various reauthorization discussions, and I 
have come to believe that there is room in many--you know, a 
lot of the measures in the Act were designed around commercial 
fisheries, and I think there is possibility that additional 
flexibilities that are being considered, whether it be with 
regard to annual catch limits for rebuilding plans, for the 
accountability measures particularly, that are used to enforce 
the annual catch limits, and I think this is particularly true 
in data in fisheries, commercial fisheries, where we don't have 
quite the stock assessment or data collection catch-counting 
systems that I'm used to in my previous role, very robust, and 
very accurate.
    Senator Sullivan. So you're saying those don't exist evenly 
throughout the different Councils in different regions?
    Mr. Oliver. I think that's correct, sir, and across 
different fisheries. I think many of our recreational fisheries 
are of a nature that they don't lend themselves well to some of 
those stricter accountability measures. And I think there's 
probably room for us--the more tools we have in our toolbox, 
and I think this is--I won't speak for Dr. Quinn, but I know 
speaking from my own experience--and, again, our administration 
hasn't taken positions on these specific actions, so I have to 
be a little careful how I answer without--I've got my----
    Senator Sullivan. Well, I can ask you in your personal view 
then.
    Mr. Oliver. In my personal view and my personal experience, 
I think the more tools that we have, the better job we could 
do, and many of these fisheries that don't have the robust 
stock assessment and catch-counting systems, and particularly 
in recreational fisheries, that have a different set of goals 
and objectives in many cases for management. So I think there's 
a lot of room for that kind of flexibility that I think is 
being considered through this reauthorization process.
    Senator Sullivan. Dr. Quinn, would you like to address that 
broad topic?
    Dr. Quinn. Sure. And I think just by the nature of the 
hearing, we're here to reauthorize the Magnuson Act, not to 
repeal it. So much of the aspects of it are working well. We're 
here to tweak it. And I think a couple of things, just like Mr. 
Oliver, the issue of data availability and stock assessments, 
particularly on the recreational side, is something I think 
we've got a lot of work to do.
    Also, this level of uncertainty in the stock assessments is 
something, and also can be solved or at least shrunk through 
the purpose of getting more data. So I think data needs are 
very important, and the uncertainty.
    Recreational, I think--you know, the commercial, these ACLs 
and AMs work for the commercial, not necessarily for the 
recreational.
    Senator Sullivan. Let me follow up on that point, Mr. 
Oliver. How does NMFS view recreational fishing and commercial 
fishing in terms of their similarities and differences from 
each other? And, again, are there flexibility provisions that 
currently exist in the MSA that can address that or do we need 
to look at that as an area of possible reform?
    Mr. Oliver. I think many of the challenges are similar, but 
there are some fundamental differences. We recently had 
revisions to the National Standard 1 Guidelines that have been 
in place only for a few months, and I think some of the 
Councils have been able to take advantage of those revisions to 
the National Standard 1 Guidelines, but I don't think they 
necessarily fully address some of the problems in some of the 
regions. And I think those exist for both commercial and 
recreational fisheries. In many cases, we lack the fundamental 
information in terms of stock assessment, what's in the water, 
where, and the ability through real-time accounting to know 
what's precisely coming out of the water. And some of those are 
internal challenges that we need to deal with within the 
existing structure of the Act and within the existing structure 
of our own regulations. I think some of them could benefit from 
additional flexibility that might be provided through the 
reauthorization process.
    Senator Sullivan. Great. Thank you.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Dr. Quinn, thank you for coming down from the Bay State. We 
very much appreciate it. And we appreciate all your work up 
chairing the New England Fishery Management Council and the 
Regional Fishery Management Council Coordinating Committee, and 
from your research at UMass Dartmouth, you are a master of 
maritime, Dr. Quinn, and so I thank you for all of your work.
    You know as well as anybody knows in our country that 
NOAA's data shows that climate change will have a profound 
impact on our oceans and marine life with many species moving 
north into new areas or into deeper waters. Ocean acidification 
impedes the development of shellfish. Lobster populations are 
moving north, while southern species like black sea bass are 
appearing in greater numbers off the coast of Massachusetts. 
Ocean acidification would be devastating to shellfisheries like 
we have in Massachusetts. New Bedford is the highest grossing 
port in the United States, and 78 percent of landings are 
scallops. In fact, a NOAA report determined that New Bedford 
was the port most at risk in the Nation due to ocean 
acidification from climate change.
    What tools do, Dr. Quinn, Regional Councils have to ensure 
that we can respond to fish stocks that are moving or changing 
due to climate change?
    Dr. Quinn. I first want to add that New Bedford has been 
the highest grossing port for the last 15 years in a row, so 
very good news.
    I think, unfortunately, we do not have a switch that we can 
flip and lower the water temperature or decrease the ocean 
acidification. I think what we can do is continue to collect 
more and more data that identify trends, as you said, Senator 
Markey, of fish moving or ocean acidification impacting 
shellfish beds so that we can monitor this. I think some 
Councils have a lot of data on this, I think others don't. So I 
think increasing monitoring is very important for us to plan 
for the future of climate change.
    Senator Markey. So do you have the tools, what you need, up 
in New England in order to do the monitoring adequately?
    Dr. Quinn. I think we've got the infrastructure. I think 
additional monitoring obviously comes with a financial cost to 
do additional monitoring outside of what we are doing now. So 
that would certainly be a good tool for us to have to expand 
the monitoring in the climate change area.
    Senator Markey. Yes. The Gulf of Maine, where Massachusetts 
is and where we do our fishing, is the fastest warming body of 
water on the planet. So this is just warming up very, very 
fast. And cod need cold water, lobster need cold water. So as 
this water just heats up ever more rapidly, they're just 
moving, the lobster and cod, further to the north, and 
impacting the fishing community.
    Dr. Quinn. Absolutely. The southern New England lobster 
industry has all moved north because of the warming 
temperatures, and certainly coming up in Massachusetts, 
fishermen's nets are fishing species that aren't caught up 
there usually. So it's certainly reflected in the landings.
    Senator Markey. And ocean acidification does have a 
profound impact, especially on shellfish. Can you talk a little 
bit about your feeling about the need for more basic research 
so that we can understand the impact which ocean acidification 
is having on the fishing industry?
    Dr. Quinn. Sure. Absolutely, we need as much research as 
possible in the climate change area, in the ocean 
acidification. We've got some great programs of collaborative 
research and cooperative research, which industry is involved, 
and the fishermen doing some of the research. So I think it's 
important that data, data, data, the more data we can get on 
this, the more data we can get on other aspects of this Act are 
very helpful for planning purposes.
    Senator Markey. Thank you.
    And, Mr. Oliver, on the question of illegal, unreported, 
unregulated fishing in the United States, NOAA issued its final 
rule in December 2016. Can you give us a little bit of an 
update as to the implementation of the rule and what the pace 
is for its scheduled implementation in January 2018?
    Mr. Oliver. Senator, I apologize if I'm misunderstanding 
your question. Is this with regard to the seafood import rule 
or you are speaking on the----
    Senator Markey. Yes.
    Mr. Oliver. Oh. On the IUU----
    Senator Markey. The seafood fraud question is what I'm 
trying to get at, the heart of the seafood fraud issue, and the 
rules that you are going to put on the base. The traceability 
rule.
    Mr. Oliver. Oh, the traceability in the seafood import 
rule. Yes, sir. I'm not an expert on that, I'll be honest with 
you. I can try to get you more information on exactly where we 
are with that, but that rule is really meant to balance the 
playing field, if you will, between imposing requirements that 
are already imposed on our own fishermen for exporting, to 
impose that same requirement on imports to simply ensure that 
those fisheries are adhering to a similar standard. So it's 
really leveling the playing field, as I best understand it.
    But I know there has been a lot of interest in that rule 
and the additional requirements that it puts on our producers. 
I know there has been a lot of interest in other aspects of 
that rule, such as including shrimp, for example, because so 
many of our imports and our trade deficit based on those 
imports is from imported foreign shrimp. For a variety of 
reasons, we were not able to do that. That's something that 
we're going to be pursuing in the future.
    But I don't have any, I guess, more to say on that. If 
there are more specific questions that you have, I would be 
glad to follow up with you.
    Senator Markey. I think for the record, it would be very 
important for us to understand what NOAA believes the state of 
play is with regard to illegal fishing, seafood fraud. It does 
harm to our domestic fishermen in a very significant way. So to 
the extent to which for the record you can provide that 
information I think will be helpful to the Councils, but very 
helpful to this Committee as well.
    Mr. Oliver. Absolutely, sir.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Sullivan. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Mr. Oliver, let me pick up on a line of 
questioning that Chairman Sullivan was pursuing during his 
time, and that's saltwater recreational fishing. You mentioned 
on page 2 of your testimony that NOAA Fisheries is going to 
partner with Atlantic States Marine Fisheries to host a 
national summit in March of next year on saltwater recreational 
fisheries.
    I've introduced a bill called the Modernizing Recreational 
Fisheries Management Act, which would amend Magnuson-Stevens to 
improve management for saltwater recreational fishing. It's 
cosponsored by Ranking Member Nelson, also by Senators Blunt, 
Inhofe, Schatz, and Klobuchar, of this Committee.
    Will you work with Congress as we explore Magnuson-Stevens' 
reauthorization in a way that allows its successes to continue 
while also adapting to fix the problems at hand, especially 
those with recreational fishing? And I would mention 
specifically the Marine Recreational Information Program, which 
our recreational fishermen believe lacks timeliness and 
accuracy. They believe the program is not designed to monitor 
short seasons, like red snapper.
    And have you looked at my bill? And also have you looked at 
the idea of innovations such as Mississippi's Tails n' Scales 
electronic reporting system for red snapper landings by using 
smartphone snaps? So it's sort of a two-part question that I'll 
wrap into one there.
    Mr. Oliver. Thank you, Senator, Mr. Sullivan, Senator 
Sullivan. Yes, thank you for the question. We absolutely want 
to work within whatever construct you have to improve those 
types of information. I have become acutely aware in the short 
month that I've been here of some of the issues surrounding not 
just red snapper, but certainly a lot of focus on red snapper, 
particularly with regard to some of our--some less than perfect 
satisfaction with some of our own stock assessment information, 
less than perfect satisfaction with our MRIP program.
    Senator Wicker. It's a gentle way to say that.
    Mr. Oliver. Yes, sir. And we, of course, we have pending a 
baseline benchmark stock assessment for red snapper thanks to 
funding that's been provided. It's going to be a couple years 
before we get the results of that, but that's going to be an 
important piece of information.
    On the data collection side, what's coming out of the 
water, I have heard from a number of constituents, from a 
number of people. I've had discussions amongst my own staff 
leadership over the past 2 weeks about some of the satisfaction 
I've heard with the MRIP program and the speed with which it's 
progressing. That program is a work in progress. And I 
understand some of the frustrations. I think we have some 
improvements pending on it, going from the telephone survey to 
a mail survey will be an improvement.
    I've also heard that it's not enough, it's not fast enough, 
and we're not taking great enough advantage of some of the 
state data collection programs, as the one you referenced. And 
a couple of thoughts on that is I have made it a priority based 
on discussions over the past 2 weeks to prioritize and expedite 
the certification of those state data programs. We are using 
data from many of those programs, and a lot of those are 
supported through the MRIP program. But I have heard loud and 
clear that we need to expedite the certification of those 
programs and the use of the data in those programs.
    And I personally believe when you look around at the 
technology we have today, the cell phone, smartphone, 
technology, that there have to be--we have to find a way to 
utilize those technologies to get that information quickly, 
more quickly, and more accurately. And I know that there have 
been concerns about using that information as the apples and 
oranges problem with tying it to data from the MRIP and other 
programs in terms of stock assessments, but I think we are 
going to make it a priority to do that.
    I also believe that regardless of the implications for 
stock assessment, if we have a way to get better information 
today on what fish is coming out of the water, we darn well 
need to be using that.
    And so I absolutely agree with the provisions or the points 
that you're making. I've had a chance to briefly look at the 
legislation you've introduced, and I think it's consistent with 
the--it seems to be consistent with the things we already 
intend to do, but certainly any help and direction that you 
want to provide us in that would be most welcome, and we'll 
work with you, sir.
    Senator Wicker. Very good. And my time has expired, so I'll 
just ask you on the record about something I was going to 
explore in this hearing, and that's aquaculture in Federal 
waters. In 2016, there was a final rule. So far, we haven't had 
any bites on actually applications because of the expensive 
permitting process and other regulatory challenges.
    So, Mr. Chairman, I think I'll just ask Mr. Oliver to 
comment on the record since we're pressed for time here about 
why he thinks we haven't had anybody apply now that we have a 
program for aquaculture. So thank you.
    Senator Sullivan. Great. If you can take that question for 
the record for Senator Wicker, we would appreciate that very 
much.
    Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. Back when I 
enjoyed life, I was a building developer----
    Senator Wicker. That was yesterday.
    Senator Inhofe. That was several years ago----
    Senator Sullivan. That was today.
    Senator Inhofe.--in South Padre Island, Texas. And I know 
that you're in a different area; however, you're familiar with 
the different regions. And did I understand in the introduction 
that we got from our Chairman, Mr. Oliver, that you are from 
the Gulf area?
    Mr. Oliver. Yes, Mr. Chairman. I grew up in Rockport, 
Texas, on the Gulf coast, not far from Padre island.
    Senator Inhofe. Oh. I see. Yes, I'm very----
    Senator Sullivan. We claim him as an Alaskan, though.
    Senator Inhofe. Yes. Well, no, I claim him as a Texan. 
How's that?
    [Laughter.]
    Senator Inhofe. No, it's interesting, you are familiar with 
the interest that I have in that down there, and it's really 
just to clear some things up. First of all, down in Texas--and 
there's a lot of interest, I have to say, in my State of 
Oklahoma. You know, people, that's the closest coast we go to, 
and there are a lot of industries that are very active down 
there. So we're interested in the coast.
    They went actually on where you go out, the number of miles 
you go out that's under state jurisdiction, it was 3 miles, 
it's now 9 miles. Is that correct?
    Mr. Oliver. Texas is 9-mile territorial sea.
    Senator Inhofe. Yes, but at one time was it only 3 miles?
    Mr. Oliver. Not in my lifetime, sir.
    Senator Inhofe. I see. OK. Well, my staff is wrong on that 
then.
    My interest is when things that are unforeseen come up, how 
do you handle that? And do you have the--the jurisdiction that 
we're talking about right now, both of you are talking about, 
is that primarily just the Federal jurisdiction we're talking 
about, or do you also oversee the state jurisdiction, in this 
case, Texas, but I'm sure it would be true in other states?
    Mr. Oliver. No, sir. Senator, Mr. Chairman, we do not 
manage inside state territorial waters. We only manage, for 
example, red snapper outside the state waters. We have to take 
into account what the states do in their state water seasons in 
order to--which is why we originally were only able to set a 3-
day season in Federal waters for Gulf red snapper in 2017.
    Obviously, we've implemented regulations that have changed 
that and relaxed that for the remainder of the summer. But 
whether and to what extent we can do that in the future remains 
to be seen. I think it remains--it depends on pending stock 
assessments. There's pending litigation on the measures we 
implemented this year. There is potential legislation that you 
might introduce that all could affect what we may do and what 
may be the situation in 2017.
    But the short answer to your question is the states 
essentially manage what happens within their waters, whether it 
be 3 or 9 miles or otherwise, and we have to react and sort of 
make up the difference on the Federal side, and that's where 
that adjustment in Federal seasons comes in, and we obviously--
we're not enthusiastic about publishing a 3-day Federal season, 
but that was where the math left us, sir, originally.
    Senator Inhofe. So we actually did have a 3-day season for 
the entire year?
    Mr. Oliver. For Federal waters, that was the original 
season for 2017. We have since published a subsequent 
regulation that is extending that season for some 39 days, I 
believe now.
    Senator Inhofe. 39, yes.
    Mr. Oliver. That is being litigated or challenged, but I 
don't know what the outcome of that will ultimately be.
    Senator Inhofe. Well, it may be litigated or challenged, 
but they're doing it right now.
    Mr. Oliver. Yes, sir.
    Senator Inhofe. And, Dr. Quinn, I know that you're in a 
different region up there, but the same, a lot of the same, 
principles apply. When you are making the assessments that Mr. 
Oliver talked about, you use--there are a lot of sources for 
that. How much do you depend on in terms of the recreational 
users reporting data, and how do you see that? The reason I'm 
asking this is my exposure is to the recreational people. 
They're the ones that feel like they're always getting the 
short end of the stick, and I just wanted to see how you view 
them and their input.
    Dr. Quinn. I think the recreational fishermen is very 
important on the East Coast, in particular, in New England. We 
use data that they gather in our assessments. Every regional 
science center has a way to plug in this recreational data into 
their stock assessments. The question is we've got to make sure 
that it's high-quality data that we plug in and where it gets 
plugged into the stock assessment process. So our Council has 
got a great relationship with our recreational industry, and 
we'll work with them closely to get additional data.
    Senator Inhofe. How do you do this? And again I'm talking 
about South Padre Island or the south coast of Texas. Every 
once in a while with no warning, no predictability, we have the 
thing called the red tide. The red tide comes in, dramatically 
changes the populations of fish and all of that. How do the 
unknown factors--how do you address those in making the 
assessments that are necessary?
    Dr. Quinn. You know, over time you'd have--you know, the 
impact of that is not going to be able to be seen that day, the 
day the red tide comes in or some catastrophic situation. It's 
more time series analysis and over the long term see what 
happens, if there's a trend created that there is going to be a 
decline in stock. So at the point in time that the red tide 
comes in, you can't really make the assessment, it's more over 
the longer term.
    Senator Inhofe. Yes. All right. Well, my time is expired, 
but I'm very interested in this and how this works out in terms 
of the Federal versus the state. And I appreciate your witness.
    Senator Sullivan. Thank you, Senator Inhofe.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for having this hearing.
    Mr. Oliver, welcome. And I want to express my respect for 
your long history of involvement in this issue, both 
academically and in public service. I'm sure you've talked to 
the fishing fleets in New England, the men who go out in the 
water and who do this incredibly hard work. The fleets of 
Connecticut and Massachusetts in New England have a proud long 
storied history as a key element in our economy, and they are 
angry and frustrated beyond words, at least beyond words that I 
could repeat in these chambers.
    And you've heard the very earthy and direct epithets that 
are used to describe the system we have now, and in my view, 
with profound justification because it has failed the fishermen 
of New England. That fishing fleet is struggling. The effects 
of climate change have driven the fish that they customarily 
catch north, and it has driven other fish from southern areas 
into our area, but the catch limits have not changed. And so 
what they've seen is that they haul a catch beyond their 
permissible quota of certain fish, they have to throw them 
back, there's waste, billions of dollars are trashed in our 
oceans annually, and meanwhile, fishermen from other southern 
states come into their waters and catch their fish.
    There is something profoundly unfair and intolerable about 
this situation. And in my view, it violates the present law, 
the Magnuson-Stevens Act, which says, and I quote, ``Any 
management plan shall not discriminate between residents of 
different states,'' and must allow quotas that are, ``fair and 
equitable.''
    You've said in your testimony that we need more 
flexibility, but the fishing fleets of New England have run out 
of patience, and I think there's a need for sweeping radical 
immediate change to accommodate the dwindling and dying 
industry that is essential to our economy. Would you agree?
    Dr. Quinn. I would agree in part. I think--I like to call 
the New England fishing industry ``A Tale of Two Industries.'' 
Parts of it, the scallop industry, is booming. It's made New 
Bedford one of the major ports, and oftentimes many boats from 
as far down south as North Carolina come and fish out of New 
Bedford.
    On the groundfish side, you're correct. It has been a very 
struggling industry over time. Some of the catch limits and the 
ACLs we put in place were based on stock assessments that were 
performed with industry involved and with the science centers 
involved. So it's a very difficult challenge for the groundfish 
fleet and not necessarily for the scallop industry.
    Senator Blumenthal. Well, for all industries and for our 
fishermen, our New England fishermen, the prosperity for the 
South Carolina or North Carolina fishing industry, we wish them 
well, but they're not doing us any good, very simply, and 
that's the anger and frustration that I feel on their behalf, 
and certainly they feel it even more directly. I've been on the 
docks and in their towns, and we need better answers for them. 
Would you agree?
    Dr. Quinn. I don't disagree. And I think, you know, the 
Council process is to collect as much data as we can get to 
have accurate stock assessments. I think with your State of 
Connecticut, there has been this northerly move of fishing 
stock. Lobsters and other species have moved north. So we don't 
have a simple solution to that water temperature raising or the 
ocean acidification. What----
    Senator Blumenthal. Well, it is due to climate change, I 
agree, but I also would respectfully suggest that the data is 
there, the facts are known. There is clearly a need to change 
this system.
    And my time is going to expire. I have a question for Mr. 
Oliver, but I would again respectfully suggest that the present 
system is far from satisfactory, it's a downright failure, and 
I would like to talk to you further about ways we can improve 
it.
    Dr. Quinn. I'd be happy to, Senator.
    Senator Blumenthal. Thank you.
    Mr. Oliver, my question to you concerns the budget 
submitted by the President of the United States. We're here 
today to discuss fisheries and their health, including 
shellfish. Shellfish have a rich history in Connecticut, rich 
in our culture and rich in our economy.
    And I'm working hard to preserve and sustain opportunities 
in that sector in our fishing economy. And that's why I am so 
concerned about President Trump's proposed budget, among other 
reasons that I'm concerned. That budget slashes funding for 
programs like Sea Grant and funding for the Milford Lab in 
Milford, Connecticut, and for the University of Connecticut. 
They are doing path-breaking research in areas that concern our 
fishing industry. These Federal research efforts to help grow 
and expand certain forms of agriculture, in effect, 
aquaculture, are very, very promising and important for the 
entire country.
    So as a representative of this administration, how can you 
justify these proposed cuts in NOAA programs that you are 
responsible for administering?
    Mr. Oliver. Well, Senator, I don't know that I'm in a 
position to comment very extensively on the President's budget. 
I do know that they placed a revised emphasis on the Department 
of Defense and national security----
    Senator Blumenthal. Well, I'm on the Armed Services 
Committee, sir, and I very much support that emphasis, and it's 
incorporated in the NDAA, which I have helped to approve 
through the Armed Services Committee. It will come to the floor 
of the Senate probably next month. I support it. It was passed 
unanimously.
    But this kind of slashing and trashing of programs that are 
essential to the programs you administer that are vital to our 
economic future in aquaculture and agriculture I consider a 
mockery of the mission of your agency. And if you're not in a 
position to justify it, who would be?
    And I just want to say to you I'm not being personal about 
it. You are here as a representative of the administration. I 
know your heart may be in the right place, but I want to know 
how you can possibly justify it?
    Mr. Oliver. All I can say, sir, is we're going to do our 
best to operate within the budget that we have. And I know that 
a lot of the programs that were slated to be cut involve 
cooperative agreements or past grant funding through the Sea 
Grant program, for example, and grants to the coastal states. 
We're going to do our best to make that up internally. I also 
believe that----
    Senator Blumenthal. Are you going to commit to me that you 
can make up those cuts to the Sea Grant program and the Milford 
Lab and the University of Connecticut that are essential to 
those programs?
    Mr. Oliver. I can't commit that we're specifically going to 
be able to make those up from our baseline budget. I think that 
we are facing some tough decisions, too. I've said on many 
occasions that I feel that this agency may be in a position to 
refocus on some of its very core missions, science missions----
    Senator Blumenthal. You would agree with me, though, those 
are valid and important programs.
    Mr. Oliver. Of course, sir, I really do.
    Senator Blumenthal. Well, my time is expired. So I want to 
continue this questioning with you because if you agree these 
programs are valid, and there can be no question that they are, 
I think your agency has a responsibility to fight for them and 
to make sure they are fully funded.
    Thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Blumenthal.
    And, you know, with regard to the budget, I think we'll be 
taking a hard look at some of these programs, and, you know, my 
own view is some of them are critical, and I'm not sure they're 
going to survive the cuts, will survive what we in Congress do. 
I think we're going to add a lot back to the ones that we think 
are vital. But I know, Mr. Oliver, you're only 4 weeks on the 
job, so I know that every element of the budget is probably not 
at your fingertips, so we recognize that.
    Let me--I'm going to ask just a few more questions. We have 
a distinguished panel here, and I want to take advantage of the 
opportunity to get your thoughts and views on the record.
    Both of you have talked about, and, Dr. Quinn, you talked 
about it in your testimony, the issue of kind of how we need to 
look at the NEPA process as it intersects with the MSA 
authorities.
    And, for example, Mr. Oliver, many in the North Pacific 
have expressed support for NEPA sufficiency process within the 
MSA to reduce redundancy and programmatic burden. Do you have a 
personal view on that, or does the agency have a personal view?
    And then, related, Dr. Quinn, can you elaborate a little 
bit more on the CCC concern over the application of NEPA 
requirements to the analysis of Fishery Management's actions?
    These are kind of related questions. You both have 
highlighted them. And I would like to get your views on them. 
It's an important issue.
    Go ahead, Mr. Oliver. Why don't you begin.
    Mr. Oliver. I'll start, Mr. Chairman, Senator. I have a 
long history in my previous life dealing with the 
reconciliation of NEPA and Magnuson. I participated in a 
working group of the CCC following the 2006 reauthorization 
where there was a directive provision in the Act for the 
Secretary working through with CEQ and the Councils to 
reconcile and streamline and I forget the exact wording of the 
statute, basically reconcile the intersection of Magnuson and 
NEPA. And I participated on a working group for a number of 
years to try to achieve that goal.
    And while this current administration that I am now 
representing does not have a position on this, I can tell you 
from my experience in that process that we did not, in my 
opinion, address the Directive in the provision in that Act. We 
essentially ended up in a place where we largely cemented, if 
you will, the existing NEPA process. I don't think we--I think 
that we did not satisfy the provisions that were in that 
Directive, and I think that leaves us with the potential 
opportunity to look at that again.
    I will say, on the other hand, however, that over the 
intervening years, we have gotten very good through the Council 
process and through the agency, the National Marine Fisheries 
Service, we've gotten very good with our NEPA compliance using 
NEPA, actually, as the vehicle for our fishery management 
actions, and we're not losing lawsuits anymore. So we've gotten 
good at it.
    But I personally have always believed that the Magnuson-
Stevens Act was the appropriate vehicle for the processing and 
development and promulgation of fisheries management actions, 
and I still believe that to be the case.
    Senator Sullivan. Well, I think it's an area that as we're 
looking at reauthorization, we should entertain ideas the way 
that the North Pacific Fisheries Management Council is looking 
at, as you mentioned previously.
    Dr. Quinn, you touched on this in your written testimony. 
Do you care to elaborate a little bit more?
    Dr. Quinn. Sure. I'll add a few things, Mr. Chairman. The 
CCC believes that following NEPA adds additional complexity to 
the process. After the Council takes action all the way to 
implementation, it lengthens out the process.
    In addition, to some degree it confuses the public because 
you're going down two tracks of public comment. You've got two 
different statutes with two different sets of timelines, and 
rather than encourage more participation, it may discourage it. 
And on occasion, NMFS has used the NEPA process to put maybe an 
additional alternative in place that was not considered at the 
Council level.
    Oftentimes, the CCC's position is misinterpreted as being 
opposed to public participation or being opposed to sharing 
additional information with the public, and I can tell you 
nothing can be further from the truth. We believe we've got a 
rigorous process in place in the Magnuson-Stevens Act, full 
participation by citizens, by groups, and we don't think that 
we need to follow the NEPA process as well. We believe it's 
redundant and unnecessary.
    Senator Sullivan. Well, again, I think that particularly 
given your role on the CCC, and that that is kind of a broad-
based consensus organization among all the Councils, if that is 
one of the views and an area that we think is ripe for 
consensus, I think it's something that we should be looking at.
    Let me ask a more broad question for you, Mr. Oliver. Given 
Secretary Ross' focus on growing the domestic fishing industry 
and fishing production from the United States, which I think 
all of us welcome, how do you best think NMFS can promote U.S. 
fisheries?
    You and I have talked about the export issue. We were able 
to get language in the Trade Promotion Authority that for the 
first time focuses on fishing exports and, you know, unfair 
subsidies for foreign fleets. What are other things that NMFS 
can be doing to promote a goal that I think most of us 
certainly agree with?
    Mr. Oliver. Well, this may sound a little bit repetitive, 
Senator, to some of my earlier comments. There is some headroom 
in our domestic harvest potential. I mentioned the West Coast 
situation where they're leaving fish in the water due to, 
partly due to, bycatch constraints, choke species, partly due 
to some lingering regulatory constraints that may or may not be 
any longer necessary.
    I think there are opportunities in some of our data-poor 
fisheries. When we talked again about flexibility in our annual 
catch limits and rebuilding schedules and some of the 
accountability measures, there again particularly for data-poor 
stocks, I think there are some opportunities for us to maximize 
that. And, again, I'm a firm believer in science-based overall 
catch limits. It has been a cornerstone in the North Pacific 
for 40 years, but I think within that overarching long-term 
conservation construct, I think there are opportunities.
    I think--and, again, in the area of marine aquaculture, I 
think that's where more headroom is, if you will, in terms of 
growing our production. And competing more in the world market 
in terms of this whole import-export unbalance that we're 
currently on the short end of, I think those are probably a 
great deal of potential there in the marine aquaculture area.
    Senator Sullivan. Thank you.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, very much, Senator. I'm here not 
only because of the important issues that we're discussing 
today, but also to keep you company, sir.
    Senator Sullivan. Well, I really appreciate that.
    [Laughter.]
    Senator Booker. Thank you very much. I'm here for you. I 
have your back, sir.
    Senator Sullivan. I know that.
    Senator Booker. Gentlemen, thank you very much for being 
here for this really important issue.
    And, Mr. Oliver, you had said something about bycatch 
restraints that maybe makes me want to jump and have this be my 
first question. About 10 percent of the world's fish catch is 
discarded as bycatch, and more than 22 billion pounds of fish a 
year is what they estimate that is, of just bycatch. This is 
fish that are not intended to be caught, but end up being 
killed as a result of our methods.
    In recent years in the United States, we've discarded over 
600 million pounds of fish annually, and some fisheries discard 
over 60 percent of their catch as bycatch. I just find those 
numbers astonishing and even unacceptable and think we could do 
better than doing that kind of damage to the wildlife in our 
oceans. And I'm wondering if you'll commit to focusing on the 
issue of bycatch more so in your new role to see if there is 
anything that we can do, bring forth any ideas, about 
strengthening existing bycatch provisions in the Magnuson-
Stevens.
    Mr. Oliver. I do. Senator, the bycatch and bycatch 
reduction has long been a focus and a goal of the agency. It's 
also a goal that's supported by the Councils and the Council 
system. Many of the Councils have taken great strides to reduce 
bycatch. Some of the bycatch is economic discards, that are too 
small or for whatever reason are thrown over. A lot of the 
bycatch that occurs are regulatory discards in that there are 
certain regulations in place that prohibit people from 
retaining or selling bycatch, and the reason primarily for that 
is to keep them from targeting it when they are not supposed to 
be targeting it. And then you get to the question of, well, 
there's bycatch and then there's waste. And part of the point 
of your question was waste.
    And I know in my own experience in the North Pacific 
Fisheries, several years ago, we implemented what was 
originally called a full retention/full utilization requirement 
for several of our large groundfish trawl fisheries where the 
premise was you catch it, you keep it, it counts against the 
quota, and it counts against the quota whether you throw it 
away or not, but it's still waste. We didn't like the waste of 
all that fish, and we backed off the 100 percent for a variety 
of practicality reasons. But the essence of that is we reduced 
discards through that program by millions of pounds a year, 
hundreds of thousands of tons a year of discards. And I think 
other Councils have done similar things. There are still 
regulatory discards in place that I think shouldn't be in place 
or need to be carefully reevaluated----
    Senator Booker. Mr. Oliver, you're filibustering me. I'm 
about to be out of time.
    Mr. Oliver. Sorry.
    Senator Booker. But just a simple question, can we do 
better?
    Mr. Oliver. Yes.
    Senator Booker. And will you focus on trying to do better?
    Mr. Oliver. Yes.
    Senator Booker. Thank you very much, sir.
    I'm going to try to get another question in. The Chairman 
is pretty tough and strict with time limits.
    But in 1996, the Sustainable Fisheries Act established 
rebuilding requirements, and shortly thereafter, 92 fish stocks 
were identified as overfished. But by 2006, only three of those 
fish stocks had been rebuilt. The 2006 Magnuson Reauthorization 
Act responded by requiring annual catch limits, and by 
requiring that, rebuilding plans end overfishing immediately. 
By 2016, the United States had rebuilt an additional 38 stocks, 
something we should be proud of, and we now have the lowest 
level of overfished stocks in our entire history, at least 
since we've been recording this. In light of this success, do 
you agree that the annual catch limits are a critical tool for 
managing fisheries? And how do you respond to calls for even 
more flexibility on catch limits and rebuilding timelines? And 
I hear that call from really great folks in my state who are 
calling for more flexibility. I'm wondering how you balance 
that.
    Mr. Oliver. Senator, I think it is a balancing act. As I 
stated previously, through my experience in the North Pacific, 
I am a firm believer in annual catch limits. It has been a 
cornerstone of our successful management, but I also believe 
there are opportunities where, and I'll say it again, we can 
have it both ways.
    I think there are opportunities for additional flexibility 
in how we apply annual catch limits, the subsequent 
accountability measures, and in those rebuilding plans where we 
can achieve some flexibility that people are seeking without 
rolling back our conservation successes and without resulting 
in additional overfished stocks. I think we can balance that.
    Senator Booker. All right. Thank you.
    And, Mr. Chairman, maybe I can throw myself on your----
    Senator Sullivan. Sure, you can go on as long as you want.
    [Laughter.]
    Senator Booker. Thank you very much, sir. Thank you very 
much for being so generous and kind to your fellow Senator.
    Senator Sullivan. No problem.
    Senator Booker. So last question, sir. It's just another of 
my concerns about the larger ecological challenges we have as 
we go forward trying to sustain what is a critical industry for 
my state that provides a tremendous source of economic 
development as well as jobs. But to achieve these sustainable 
fishery management, managers must consider sort of that balance 
between the ecological needs and also the commercial and 
recreational value of fishing, and that includes managing 
forage fish that larger species depend upon.
    New Jersey and the Mid-Atlantic region, as a whole, have 
made considerable strides to improve the sustainability of 
these important fish, but nationwide, I feel at least that we 
need to be doing more. In many instances, there are no Federal 
management plans for forage species.
    What can NOAA Fisheries and the Councils do to improve 
forage fish management so that fishermen in coastline and 
coastal communities can continue to enjoy the benefits of 
healthy forage fish stocks?
    Mr. Oliver. I totally agree with you, the importance of 
forage fish in the overall ecological picture. And we talk 
about ecosystem-based fishery management, and that's a critical 
aspect of that. And I keep falling back on my North Pacific 
experience, but we banned fishing for a number of forage fish 
species, oh, nearly 2 decades ago for those very reasons.
    I think there are probably, in different regions that I 
don't fully understand, there probably are fisheries on those 
stocks for good reasons, but I think it goes back to that 
balancing act. And I guess--I very much appreciate and 
understand your comments, sir, and the importance of forage 
fish, and I think it's up to each Council working with the 
agency to make sure that we're protecting those to the extent 
we need to be doing for the larger ecological processes.
    We can't maintain long-term sustainability of our target 
fisheries unless they have--unless we manage them properly in 
and of themselves and unless they have an adequate forage base. 
So they're both very important.
    Senator Booker. Great. And I just have a yes or no, just 
another commitment I would love to get from you. But you know 
that shark finning was first outlawed in U.S. waters in 2000. 
And a loophole in that original law was closed by the Shark 
Conservation Act of 2009.
    I recently asked your office how many shark finning 
investigations NOAA has opened since January 1, 2010. I was 
shocked to find out that since 2010, NOAA has investigated over 
500 incidences of alleged shark finning. As of April, there 
were seven shark finning cases that were open, but not yet 
charged. And I guess I might ask for assurances that, Will you 
just keep me informed on the progress on investigating these 
outstanding cases? And can you assure me that you and your 
agencies will take this seriously?
    Because, to me, it's a horrific act. Shark fins have no 
nutritional value whatsoever, and they do serious damage to 
that species. And so I just hope to get from you the assurances 
that the agency tasked with investigating these will just 
continue to make progress and that maybe you can keep me 
informed of that progress.
    [The information referred to follows:]

   Sen. Booker's office--Shark finning investigations--April 20, 2017
Request:
    Senator Booker's office would like to know ``how many shark finning 
investigations NOAA has opened since 2010, and how many of those 
investigations led to charges and/or arrests'' (National-Scale). 
Background: On 03/30/17, Senator Booker introduced a bill, S. 793 that 
would prohibit the sale of shark fins.
Response:
             NOAA Cases Involving Shark Finning Violations 
                 January 1, 2010 through April 17, 2017
    Since January 1, 2010, NOAA has investigated 526 incidents 
involving alleged shark finning.\1\ Twenty-six of those investigations 
have resulted in charges. Of the remaining cases, 493 were resolved 
through compliance assistance (i.e., verbal warning, education/
outreach), closed for lack of evidence or resources, or declined for 
prosecution. Seven cases are open but not yet charged. Details on 
charged cases are provided below.
---------------------------------------------------------------------------
    \1\ This list includes only cases that included at least one charge 
related to shark finning and that resulted in the issuance of a Notice 
of Violation and Assessment, criminal complaint, Summary Settlement or 
Written Warning. Cases that involved only other charges related to 
sharks (e.g., international trade permit violations, harvesting permit 
violations, Lacey Act import and export cases, using sharks as bait) 
were not included, nor were open cases, cases referred to a state 
government for prosecution, or cases that were dismissed for lack of 
evidence. This list does not include cases involving de minimus 
violations in which OLE issued a Verbal Warning or provided compliance 
assistance without any further enforcement action. The NOAA Fisheries 
Office of Law Enforcement issued 24 verbal warnings for shark finning 
violations during this time period.

----------------------------------------------------------------------------------------------------------------
                                                     Statute/Regulation       Date of
 Case  Number     Case  Name     Facts/Charges\2\         Violated           Violation         Disposition\3\
----------------------------------------------------------------------------------------------------------------
I1606769        FV Sea Dragon   Crew observed      Magnuson-Stevens             10/17/16   $1,000 Summary
                                 removing the       Fishery Conservation                    Settlement issued by
                                 fins from a        and Management Act                      NOAA Fisheries
                                 shark at sea.      (MSA), 16 USC Sec.                      Office of Law
                                                    1857(1)(A),                             Enforcement (OLE).
                                                    regulations at 50
                                                    CFR Sec.
                                                    600.1203(a)(1).
----------------------------------------------------------------------------------------------------------------
I1604475        F/V             Landed 6 thresher  MSA, 16 USC Sec.             10/24/16   Written Warning
                Endurance        and 4 blacktip     1857(1)(A),                             issued by OLE; case
                                 sharks without     regulations at 50                       referred to State
                                 fins attached.     CFR Sec.                                for further action.
                                                    635.71(a)(2) and
                                                    648.14(a)(6).
----------------------------------------------------------------------------------------------------------------
SE1602041       In Re           Possession of at   MSA, 16 USC Sec.              2/27/16   Notice of Violation
                David Alan       least nineteen     1857(1)(A),                             and Civil Penalty
                 Stiller and     shark carcasses    regulations at 50                       Assessment (NOVA)
                 Michael C.      with their fins    CFR Sec.                                issued by the Office
                 McFadden        or tails, or       635.71(d)(6) and                        of General Counsel
                                 both, removed      635.30(c)(1).                           Enforcement Section
                                 prior to                                                   (GCES) on 10/24/
                                 landing.                                                   2016, assessing a
                                                                                            civil monetary
                                                                                            penalty of $10,000.
                                                                                            Case settled for
                                                                                            $9,000 on 2/23/17.
----------------------------------------------------------------------------------------------------------------
SW1600692       F/V             Possession of      MSA, 16 USC Sec.           2/11/16\4\   $2,000 Summary
                Elizabeth H      fins unattached    1857(1)(P)(ii)                          Settlement issued by
                                 to the                                                     OLE.
                                 corresponding
                                 carcass.
----------------------------------------------------------------------------------------------------------------
PI1600618       F/V             Possession of 6    MSA, 16 USC Sec.               2/6/16   NOVA issued by GCES
                Crystal II       shark fins         1857(1)(P)(ii)                          on 1/6/2017,
                                 unattached to                                              assessing a civil
                                 the                                                        monetary penalty of
                                 corresponding                                              $15,000.
                                 carcasses.
----------------------------------------------------------------------------------------------------------------
PI1504060       F/V             Shark finning      MSA, 16 USC Sec.          11/16/15\4\   Written Warning
                Captain J3                          1857(1)(P)(ii)                          issued by OLE.
----------------------------------------------------------------------------------------------------------------
PI1503956       F/V             Possession of      MSA, 16 USC Sec.          11/19/15\4\   $1,000 Summary
                Lady Amme        fins unattached    1857(1)(P)(ii)                          Settlement issued by
                                 to the                                                     OLE.
                                 corresponding
                                 carcass.
----------------------------------------------------------------------------------------------------------------
PI1501463       F/V Golden      Shark finning.     MSA, 16 USC Sec.           5/22/15\4\   $1,000 Summary
                 Eagle                              1857(1)(A) 50 CFR                       Settlement issued by
                                                    Sec.  600.1204(a)(1)                    OLE.
----------------------------------------------------------------------------------------------------------------
PI1500764       F/V             Shark finning.     MSA, 16 USC Sec.            4/6/15\4\   $1,000 Summary
                Crystal II                          1857(1)(P)(iv)                          Settlement issued by
                                                                                            OLE.
----------------------------------------------------------------------------------------------------------------
SW1500065       F/V             Shark finning      MSA, 16 USC Sec.             10/28/14   $1,000 Summary
                Charlotte V                         1857(1)(P)(i)                           Settlement issued by
                                                                                            OLE.
----------------------------------------------------------------------------------------------------------------
I1305219        F/V             Shark finning.     MSA, 16 USC                  11/23/13   $450 Summary
                Alexander                           1857(1)(A)                              Settlement issued by
                                                                                            OLE.
----------------------------------------------------------------------------------------------------------------
SE1303346       F/V Big Boy     12 shark fins      MSA, 16 USC                   7/26/13   NOVA issued by GCES
                                 were found in      1857(1)(A) 50 CFR                       on 1/13/15,
                                 bags on board a    Sec.  635.71(d)(6)                      assessing a civil
                                 shrimp trawler     50 CFR Sec.                             monetary penalty of
                                 operating in the   600.1023(a)(2)                          $9,000.
                                 Gulf of Mexico.
----------------------------------------------------------------------------------------------------------------
PI1300948       F/V Hokuao      Defendant who was  The Lacey Act, 16          3/19/13\4\   Case referred to the
                                 the Captain of a   U.S.C. Sec.  3372                       U.S. Attorney's
                                 federally          (a)(1)                                  Office for criminal
                                 permitted                                                  prosecution.
                                 longline vessel                                            Defendant Matthew
                                 ordered his crew                                           Case pleaded guilty
                                 to cut the fins                                            to misdemeanor
                                 off of 25 sharks                                           violation of the
                                 and discard the                                            Lacey Act.
                                 carcasses
                                 overboard. He
                                 hid the fins in
                                 a void under the
                                 floorboards of
                                 the pilothouse
                                 to avoid
                                 detection.
----------------------------------------------------------------------------------------------------------------
I1203001        F/V Pat and     Shark finning      MSA, 16 USC                    9/7/12   $250 Summary
                 Hannah          (removal of        1857(1)(A) 50 CFR                       Settlement issued by
                                 tail).             Sec.  635.71(a)(21)                     OLE.
----------------------------------------------------------------------------------------------------------------
SE1202522       F/V Lady        Possession of      MSA, 16 USC                    4/8/12   $45,000 NOVA issued
                 Lyanna          2,029 fins (from   1857(1)(A) 50 CFR                       by GCES on 11/25/13.
                                 508 sharks) in a   Sec.  635.71(d)(6)
                                 hidden
                                 compartment.
----------------------------------------------------------------------------------------------------------------
PI1202251       F/V Libra       Shark finning      MSA, 16 USC Sec.            7/9/12\4\   $1,000 Summary
                                                    1857(1)(P)(i)                           Settlement issued by
                                                                                            OLE.
----------------------------------------------------------------------------------------------------------------
SE1105098       F/V Watersport  The vessel landed  MSA, 16 USC                  11/21/11   NOVA issued by GCES
                                 three mako shark   1857(1)(A) 50 CFR                       on 3/18/14 assessing
                                 fins that were     Sec.  635.71(d)(6)                      a civil monetary
                                 not naturally                                              penalty of $5,015.
                                 attached to the
                                 corresponding
                                 carcass.
----------------------------------------------------------------------------------------------------------------
SE1104085       F/V Lucky       146 shark fins     MSA, 16 USC                   8/16/11   A NOVA assessing a
                 Diamond         were found         1857(1)(A) 50 CFR                       civil monetary
                                 onboard a shrimp   Sec.  635.71(d)(6)                      penalty of $15,000
                                 trawler                                                    was issued by GCES
                                 operating in the                                           on 8/15/14.
                                 Gulf of Mexico.
----------------------------------------------------------------------------------------------------------------
SE1100674       F/V             48 shark fins      MSA, 16 USC                  12/21/10   A NOVA assessing a
                Whiskey Joe      without            1857(1)(A) 50 CFR                       civil monetary
                                 corresponding      Sec.  635.71(d)(6)                      penalty of $13,000
                                 carcasses were                                             was issued by GCES
                                 found on board                                             on 9/30/13.
                                 shrimp vessel.
----------------------------------------------------------------------------------------------------------------
SE1105076       F/V             Shark finning.     MSA, 16 USC Sec.              5/20/11   $100 Summary
                Southern Lady                       1857(1)(A) 50 CFR                       Settlement issued by
                                                    Sec.  635.71(d)(6)                      OLE.
----------------------------------------------------------------------------------------------------------------
PI1104518       F/V             Shark finning.     MSA, 16 USC Sec.           9/30/11\4\   Written Warning
                Deborah Ann                         1857(1)(P)                              issued by OLE.
----------------------------------------------------------------------------------------------------------------
I1100573        F/V             Shark finning.     MSA, 16 USC Sec.              2/14/11   Written Warning
                Buzzards Bay                        1857(1)(A) 50 CFR                       issued by OLE.
                                                    Sec.  600.1203(a)(1)
----------------------------------------------------------------------------------------------------------------
PI1100828       F/V No. 1       Engaged in shark   MSA, 16 USC Sec.          11/11/10\4\   Written Warning
                Ji Hyun          finning; and       1857(1)(A) 50 CFR                       issued by GCES.
                                 possessed shark    Sec. Sec.  600.1203(
                                 fins without the   a)(1) and (a)(2)
                                 corresponding
                                 carcasses while
                                 on board a U.S.
                                 fishing vessel.
----------------------------------------------------------------------------------------------------------------
I1002197        F/V Ella and    Shark finning.     MSA, 16 USC Sec.              6/29/10   Written Warning
                 Sadie                              1857(1)(A) 50 CFR                       issued by OLE.
                                                    Sec.  635.71(d)(6)
----------------------------------------------------------------------------------------------------------------
SE1002041       F/V             Shark finning.     MSA, 16 USC Sec.           6/29/10\4\   Written Warning
                Candie Luck                         1857(1)(A) 50 CFR                       issued by OLE.
                                                    Sec.  635.71
----------------------------------------------------------------------------------------------------------------
SE100390        F/V             Possession of 4    MSA, 16 USC Sec.              6/11/10   Written Warned issued
                Golden Dragon    shark fins.        1857(1)(A) 50 CFR                       by GCES.
                                                    Sec.  622.7(o)
----------------------------------------------------------------------------------------------------------------
\2\ Facts are those related to shark finning or related charges, the case may include additional counts that are
  unrelated to shark finning or requirements to maintain sharks in proper form with their fins naturally
  attached.
\3\ The total assessed penalty is for all counts charged in the case, not only those related to shark finning.
\4\ Date case opened.


    Mr. Oliver. Yes and yes.
    Senator Booker. Thank you very much, sir.
    I just want to note for the record the grace and generosity 
of the presiding Member, Senator Sullivan.
    Senator Sullivan. As always, Senator Booker, I've got your 
back.
    [Laughter.]
    Senator Sullivan. I'm going to wrap up the hearing with 
just two more questions for both of the witnesses. Again, I 
want to take advantage of having the two outstanding witnesses 
here.
    Dr. Quinn, what are some of the problems--and in some ways, 
it does follow up on Senator Booker's line of questioning--what 
are some of the problems that Councils face when managing 
fisheries that catch a number of different stocks? And what is 
the CCC's position on the use of catch shares?
    And, Mr. Oliver, if you want to weigh in on this question, 
we would welcome that as well.
    Dr. Quinn. Why don't I start with the second question 
first, if that's OK, Mr. Chair.
    Senator Sullivan. Sure.
    Dr. Quinn. I think the catch shares certainly have been 
very successful in some part of the country, different 
Councils; in others, including mine, they've been far more 
controversial. The CCC's position is that it should be a tool 
in the toolbox for regional Councils to determine if that works 
best for them. You know, there's the old saying, ``One size 
does not fit all,'' and I think this is quite appropriate with 
the catch shares. It may work in some regions; it may not work 
in others. So it should stay in, but as an option, not as a 
mandate.
    Senator Sullivan. And then that first question I asked 
about some of the challenges that the Councils face managing 
fisheries that catch a number of different stocks?
    Dr. Quinn. Particularly in New England, it's a very big 
challenge because you've got the fish are swimming together, or 
the scallops and the fish are together, and one stock may be 
much more valuable, not just financially, but ecological, but 
the Act treats all species the same. So you cannot pick winners 
and losers. So it's important that we collect a lot of data on 
it.
    This term that Mr. Oliver said, it's a choke species, and 
particularly as we move into the ecosystem-based fisheries 
management, it's going to exacerbate as a problem as well 
because we're trying to manage a stock, not just one individual 
species.
    Senator Sullivan. Mr. Oliver, do you have any comments on 
those questions?
    Mr. Oliver. Well, I think my comments are fairly similar to 
Dr. Quinn's. When you have a mixed stock fishery, sometimes 
that's problematic; sometimes it's not. If all the species you 
happen to be catching are species that are currently open and 
you have markets for them, it's not a problem. The problem 
comes into play when you're targeting one species and catching 
another that may be seen as an economic discard species, or 
particularly when you're catching a species that's either a 
bycatch or a choke target species, but perhaps a choke target 
species, and that's where the difficulties in management come 
into play.
    To briefly address your question about catch shares, I know 
catch shares were a huge priority for the previous 
administration. I don't--this administration hasn't taken a 
formal position on catch shares. Personally, my personal 
experience, is very similar to Dr. Quinn's. It's an incredibly 
important tool used in most of our major fisheries in Alaska, 
for example.
    I think two things. It's not necessarily an appropriate 
tool for all fisheries. And I do believe that whatever 
legislation occurs, or we have current legislation, if there's 
new legislation, I think it really needs to maintain the 
maximum regional flexibility we can because so many of our 
fisheries are so different, and the way you construct these 
different catch share programs is very dependent on the 
specific characteristics and nuances of each fishery. And I 
would just urge that the maximum flexibility and, first of all, 
whether or not we use a catch share program, but in how we 
design the catch share program.
    Senator Sullivan. Great. Thanks.
    Let me wrap up with one final question, and I do want to 
compliment both of you on both not only your emphasis on the 
importance of data and science. We're going to back you up with 
that. We need that. That's critical to well-managed fisheries. 
I know that that's been the experience of both of you, so I 
think that that's an area where you'll see bipartisan agreement 
on.
    But a final question. I certainly have heard a lot about 
this in Alaska. In other hearings, I know that it's an issue in 
different regions of the country. And it's treated differently 
in terms of how it's funded or subsidized. But as you know, 
fishermen in some regions have complained about the costs of 
onboard observers, and have questioned whether emerging 
technologies such as electronic monitoring might be less 
expensive and provide comparable or even possibly better 
information for fisheries managers.
    Does the MSA provide Councils with the flexibility to use 
alternative technologies such as electronic monitoring? And 
again a question for both of you, What additional tools can 
Congress provide to speed up their use? And I think it's again 
an important question. I've met fishermen, you know, in my 
state where they barely have room to have an additional person 
onboard, and yet they have to do that, and it can be 
burdensome. But we want the correct data. But there might be 
much more efficient ways of doing this.
    So do you have a view on that, both of you?
    Dr. Quinn. Sure. I'll lead off. Very similar answer as the 
catch shares. I mean, the authority is in the Act to put 
electronic monitoring in place. And, again, one size does not 
fit all. Regions have specific industries or specific fisheries 
that it may or may not, depending on the size of the boat and a 
whole host of other things that would work.
    There are a lot of pilot programs and other work being done 
on electronic monitoring. So I think we should have the 
flexibility to have it as one of the tools in the toolbox to 
make a decision region-by-region if that's the best way to go.
    Mr. Oliver. I would just echo the importance of electronic 
monitoring options as an option for different fisheries. I 
know----
    Senator Sullivan. Does Congress need to do more to make it 
clear that that's a viable option?
    Mr. Oliver. I don't know that there's more that has to be 
done. I know we are successfully implementing electronic 
monitoring options in a number of our fisheries. I just signed 
a rule last week that formerly brings electronic monitoring 
into our North Pacific observer program for the fisheries off 
Alaska as an option to a human observer. As you point out, 
Senator, in many of the small boat fisheries that we want 
information on, they're simply physically unable to accommodate 
a human observer.
    And while cameras may not be free or even as less costly as 
many people thought they might be, they probably still are less 
costly than a human observer, and certainly can perform 
functions that we need. We have cameras in some of the large 
offshore factory boats as well inside the processing plant, for 
different reasons. But the importance of being able to use them 
particularly on the smaller boat fleet is absolutely critical.
    Senator Sullivan. Well, listen, I want to thank both the 
witnesses for your past experience and service to our country 
and this critical area. And certainly there's a strong 
interest, I think a bipartisan interest, to work closely with 
the two of you as we move forward on ideas and consensus for 
MSA reauthorization. I think this is an important start. And we 
will keep the record of this hearing open for 2 more weeks if 
there are additional questions from members who could not make 
the hearing and still have questions for both of you.
    With that, our hearing is adjourned. Thank you again for 
attending.
    [Whereupon, at 11:22 a.m., the hearing was adjourned.]

                            A P P E N D I X

                                Northeast Seafood Coalition
                                      Gloucester, MA, July 26, 2017

Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
United States Senate,
Washington, DC.

Hon. Lt Cdr Gary Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
United States Senate,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters;

    The Northeast Seafood Coalition (NSC) sincerely appreciates the 
opportunity to provide this statement for the record of the hearing 
your Committee will hold on August 1, 2017, regarding ``Reauthorization 
of the Magnuson-Stevens Fishery Conservation and Management Act: NOAA 
and Council Perspectives''.
    For more than fifteen years NSC has vigorously represented the 
interests of New England groundfish fishermen and associated shoreside 
enterprises in Federal fishery science and management activities in the 
region and in Washington, D.C. Please recall our Policy Director, Vito 
Giacalone, has had the privilege of testifying before your Committee on 
a range of issues important to our fishery including the one discussed 
below. We are grateful for that and for this continuing dialogue.
    Based on this extensive experience and expertise with the science 
and management of our fishery, we respectfully request your 
consideration of the following legislative proposal to revise a 
provision set forth in section 4(a)(2) of H.R. 200, the ``Strengthening 
Fishing Communities and Increasing Flexibility in Fisheries Management 
Act'', and to include that revised provision in any legislation to 
reauthorize and amend the Magnuson-Stevens Act considered by your 
Committee. That provision would amend section 304(e) of the Magnuson-
Stevens Act to provide new and additional authority for the use of a 
science-based alternative rebuilding strategy in certain limited 
circumstances identified by a Council's Scientific and Statistical 
Committee.
    There then follows below what we hope you will find to be a 
thoughtful rationale for why we firmly believe this new additional 
authority is needed for effectively managing our fishery in a manner 
that will enable us to prevent overfishing, rebuild overfished stocks 
and achieve the optimum yield.
Proposed Revision to section 4(a)(2) of H.R. 200
    ``(8)A Notwithstanding subparagraph 4(A), if the Scientific and 
Statistical Committee determines that a reliable fixed rebuilding 
period or a reliable biomass target cannot be established, then a 
fishery management plan, plan amendment, or proposed regulations may 
use alternative rebuilding strategies, including harvest control rules 
and fishing mortality-rate targets to the extent they are in compliance 
with the other requirements of this Act.''
Rationale for Authority to Implement an Alternative Rebuilding Strategy
    Currently there is only one rebuilding strategy authorized in the 
MSA that must be used for all stocks determined to be overfished. This 
is the so-called ``10-year rebuilding strategy'' set forth in MSA 
section 304(e)(4). This strategy establishes a fixed rebuilding target 
and sets a fixed time-frame for rebuilding the stock biomass to that 
target.
    This strategy is predicated on the ability to reliably estimate 
what the Maximum Sustainable Yield (MSY) for a stock will be years into 
the future. In turn, this strategy also depends on the ability to 
estimate a reliable rebuilding target (stock biomass) that would 
produce that estimate of MSY by the end of the rebuilding period. In 
fishery science and management, that estimated stock biomass is called 
Bmsy and typically defines the rebuilding target of a rebuilding plan.
    Thus, the current MSA rebuilding strategy is based on the 
assumption that a stock's biomass will rebuild during those years at a 
rate or trajectory that is sufficient to achieve the estimated Bmsy by 
a pre-specified date (rebuilding timeframe), such as year 10.
    However, the rate at which a stock's biomass increases (or 
decreases) depends on 3 key elements of the stock's biological 
population dynamics. These elements are----

  (1)  ``recruitment''--the measure of annual reproductive success and 
        the degree to which it contributes to a stock's biomass,

  (2)  ``growth''--the measure of the annual collective growth of 
        individuals in the population and the degree to which that 
        contributes to the stock's biomass, and

  (3)  ``natural mortality''--the measure of annual non-fishing deaths 
        that occur naturally in the population through, for example, 
        old age, disease or predation--and the degree to which those 
        deaths subtract from the stock's biomass.

    It is important to recognize that none of these 3 biological 
parameters can be controlled by man. They are instead a product of 
`nature', which means they are highly susceptible to changes in 
ecological and environmental conditions.
    Thus, a stock's recruitment, growth and natural mortality can be 
extremely difficult if not impossible to reliably predict into the 
future, especially when the ecosystem and environment are highly 
dynamic and also unpredictable. Simply stated, in some instances such 
as for New England groundfish, the current MSA rebuilding strategy 
places unrealistic demands on the ability of science to predict an 
unpredictable future. This strategy simply does not work for many 
groundfish stocks in the northeast multispecies complex and this has 
had profound economic and social consequences.
    The fourth key element affecting stock biomass is ``fishing 
mortality''--the measure of deaths caused by fishing and the degree to 
which that subtracts from the stock's biomass. Unlike the other 3 key 
elements, however, fishing mortality can be controlled by man and can 
be far more reliably estimated than a stock's productivity (MSY), 
biomass or the time it might take for a stock to rebuild to Bmsy.
    With all this in mind, Congress needs to provide fishery managers 
with another tool in the toolbox to address these realities by 
providing an additional science-based authority for fishery managers to 
choose, when appropriate, an alternative rebuilding strategy that is 
based on managing the fishing mortality rate of a stock. If a stock is 
managed so that the fishing mortality rate is always held at some 
precautionary margin below the overfishing level (Fmsy), the stock will 
naturally rebuild to its true Bmsy in the time-frame that nature 
dictates, and it will never be subject to overfishing--the two 
fundamental objectives of MSA rebuilding policy.
    Recognizing the mixed results of the current MSA target/timeframe 
rebuilding strategy set forth in section 304(e)(4), in 2010 Members of 
Congress requested a study by the National Academy of Sciences (NAS) to 
evaluate the effectives of and alternatives to this policy. In 2014, 
the National Research Council (NRC) of the NAS issued its report to 
Congress--``Evaluating the Effectiveness of Fish Stock Rebuilding Plans 
of the United States''.\1\
---------------------------------------------------------------------------
    \1\ National Research Council. 2014. Evaluating the Effectiveness 
of Fish Stock Rebuilding Plans in the United States. Washington, D.C.: 
The National Academies Press. https://doi.org/10.17226/18488.
---------------------------------------------------------------------------
    As set forth in the NRC's ``key findings'' of this report, the 
scientific community has concluded and recommended that a rebuilding 
strategy based on controlling the fishing mortality rate would be far 
more effective than the current rebuilding target/timeframe strategy 
especially in situations of high ecosystem/environmental dynamics:

        3) Rebuilding plans that focus more on meeting selected fishing 
        mortality targets than on exact schedules for attaining biomass 
        targets may be more robust to assessment uncertainties, natural 
        variability and ecosystem considerations, and have lower social 
        and economic impact.

                a. The rate at which a fish stock rebuilds depends on 
                ecological and other environmental conditions such as 
                climate change, in addition to the fishing-induced 
                mortality,

                b. A rebuilding strategy that maintains reduced fishing 
                mortality for an extended period (e.g., longer than the 
                mean generation time) would rebuild the stock's age 
                structure and be less dependent on environmental 
                conditions than one that requires rebuilding to 
                prespecified biomass targets, and

                c. When rebuilding is slower than expected, keeping 
                fishing mortality at a constant level below FMSY may 
                forgo less yield and have fewer social and economic 
                impacts than a rule that requires ever more severe 
                controls to meet a predetermined schedule for reaching 
                a biomass target. (NRC Summary, key findings #3. See 
                also Summary, Task 2 and Task 5 Discussion, and 
                Conclusions).

    Consistent with the NRC's recommendations, the New England Fishery 
Management Council (NEFMC) included the following text in its regional 
perspective on the need for greater flexibility in the MSA rebuilding 
provisions in the June 2017 Council Coordination Committee's draft 
White Paper on MSA Reauthorization.\2\ This perspective also provides a 
compelling case for Congress to provide additional authority for a 
fishing mortality rate-based rebuilding strategy as an alternative to 
the current biomass target/timeframe strategy.
---------------------------------------------------------------------------
    \2\ Regional Fishery Management Council Positions on Magnuson-
Stevens Act Reauthorization Issues Council Coordinating Committee (CCC) 
Working Paper June 1, 2017 http://s3.ama
zonaws.com/nefmc.org/9b_170601_CCC_MSA_White_Paper.pdf

        ``New England:
        The New England Council believes the Magnuson-Stevens Act (MSA) 
        should be amended to allow more rebuilding flexibility. The 
        current emphasis on a fixed rebuilding time period assumes a 
        level of stock assessment certainty that does not exist. We 
        have little ability to predict, and no ability to control, the 
        environmental changes that are key drivers in rebuilding 
        progress. We think management should focus on ending 
        overfishing and not arbitrary rebuilding time frames.

        The requirement to define a fixed rebuilding period assumes 
        that we know current stock size, stock size targets and 
        rebuilding trajectories to a degree of certainty that is rarely 
        met.''

    The provision described above would amend MSA section 304(e) by 
adding a new paragraph (8) that provides a separate and additional 
authority for fishery managers to apply a science-based fishing 
mortality rate-based rebuilding strategy in the specific limited 
circumstance when the Scientific and Statistical Committee determines 
that a reliable rebuilding time-frame or a reliable biomass target 
cannot be established. This new and additional authority does not 
replace the existing biomass target/timeframe rebuilding strategy set 
forth in MSA sec. 304(e)(4)(A), which will remain in the statute and 
available for fishery managers to use at their discretion.
    We deeply appreciate your serious consideration of including this 
provision in the Committee's Magnuson-Stevens reauthorization 
legislation this Congress. We look forward to the opportunity to work 
with you and your excellent staff on this proposal and overall 
legislation, and in assisting with the Committee's consideration of 
this critical legislation in any way we can.
            Sincere thanks,
                                              Jackie Odell,
                                                Executive Director.
                                 ______
                                 
                                  The Pew Charitable Trusts
                                                      July 28, 2017

Hon. Daniel S. Sullivan,
Chair,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Gary C. Peters,
Ranking Member,
Subcommittee, on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chair Sullivan and Ranking Member Peters:

    On behalf of The Pew Charitable Trusts, I write to provide our 
views on the Magnuson-Stevens Fishery Conservation and Management Act 
(Magnuson-Stevens Act) and our policy priorities for any upcoming 
reauthorization of the law.
    First and foremost, we ask that Congress not weaken the core 
conservation provisions of the Magnuson-Stevens Act that are working to 
prevent overfishing and rebuild depleted populations across the Nation. 
Since 2000, 43 fish populations have been rebuilt to healthy levels. In 
addition, U.S. marine fisheries (commercial and recreational) supported 
1.6 million jobs in 2015, a 12 percent increase since 2011. This record 
of progress is due to changes made to the law in the two most recent 
reauthorizations and a concerted effort by fishermen, scientists, 
conservationists, fishery managers, and other stakeholders to implement 
the Magnuson-Stevens Act through a regionally-driven management 
process.
    Although progress toward sustainable management of U.S. fisheries 
over the past two decades has been considerable, much more needs to be 
done. Overfishing in the United States has not ended. As NOAA Fisheries 
indicated in its most recent Status of Stocks report, 30 stocks are 
subject to overfishing, including six that were newly added to the 
overfishing list in 2016. Further, 38 stocks, or 16 percent of stocks 
with a known, assessed status, are considered overfished and remain 
subject to rebuilding plans. Some of these overfished stocks are not 
successfully rebuilding. For these stocks, it is clear that annual 
catch limits and rebuilding timelines alone are insufficient. 
Additional considerations to incorporate more effective measures to 
restore fish populations are necessary to address these lingering 
problems.
    To advance this more comprehensive approach, Congress should amend 
the Magnuson-Stevens Act so that regional and national managers:

  <bullet> Conserve forage fish (such as sardines and menhaden), the 
        primary food source for many larger fish species (such as cod 
        and tuna) that are caught commercially and recreationally, in 
        addition to seabirds and marine mammals.

  <bullet> Minimize bycatch, which is the catching and discarding of 
        non-target fish and other marine wildlife. Bycatch results in 
        large-scale waste of wildlife and lost economic opportunity for 
        fishermen.

  <bullet> Protect fish habitat from destructive fishing practices and 
        other damaging human activities to ensure fish have safe places 
        to breed, feed, grow, and take shelter.

  <bullet> Proceed with caution before establishing new fisheries to 
        ensure they are sustainable from the start.

  <bullet> Develop Fishery Ecosystem Plans, using the best available 
        scientific information, to provide a road map for management 
        that considers the important connections among predators, prey, 
        habitat, and human needs.

    America's fish populations are national resources that provide 
significant economic and ecological benefits. Therefore, it is 
important to maintain the existing, robust process for public 
involvement in evaluating how fishery management decisions might affect 
coastal and ocean environments and considering reasonable alternatives 
to proposed decisions. It is also critical to make sure management 
decisions are grounded in science and balance the immediate and long-
term needs of marine life, fishermen, ecosystems, and coastal 
communities. Pew is concerned about recent Department of Commerce and 
NOAA Fisheries decisions that disregard these objectives and 
significantly increase the risk of sanctioned overfishing. 
Specifically, the agency's extension of the Gulf of Mexico red snapper 
recreational fishing season and the override of the Atlantic States 
Marine Fisheries Commission determination that New Jersey's summer 
flounder regulations are out of compliance with its management plan are 
inconsistent with these objectives.
    Finally, we would encourage the Subcommittee to undertake an 
inclusive, non-partisan process that actively engages a range of 
stakeholders in considering potential changes to the Magnuson-Stevens 
Act. During the 2006 reauthorization of the Magnuson-Stevens Act, a 
bipartisan group of Senators and Representatives worked with President 
George W. Bush's administration to confront the problems of overfishing 
by ensuring councils adopt science-based annual catch limits and 
appropriate accountability measures. The resulting legislation passed 
both chambers by voice vote. We believe that the process and outcome of 
the 109th Congress should serve as the model for the next 
reauthorization. To begin the development of a similar bipartisan bill, 
hearings that allow a diversity of stakeholders to share their 
perspectives on legislative changes to the Act should be held.
    Thank you for considering our views on this important issue. My 
colleagues and I would welcome the opportunity to discuss 
reauthorization of the Magnuson-Stevens Act with the Committee further. 
If you, or your staffs, have any questions, please do not hesitate to 
contact me.
            Sincerely,
                                                Ted Morton,
                                    Director, U.S. Oceans, Federal,
                                             The Pew Charitable Trusts.

cc: Members of the U.S. Senate Committee on Commerce, Science, and 
Transportation
                                 ______
                                 
                                                      July 31, 2017

Hon. Dan Sullivan,
Chairman, Subcommittee on Oceans, Atmosphere, Fisheries, and Coast 
Guard,
Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Gary Peters,
Ranking Member, Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters

    Nearly 300 chefs, restauranteurs and seafood suppliers from 24 
states \1\ signed onto the attached letter, stating their unequivocal 
support for a strong fisheries management system that addresses 21st 
century challenges. Changing ocean conditions, loss of vital habitat, 
and protection of the base of the food chain all need to be addressed 
by regional fishery managers.
---------------------------------------------------------------------------
    \1\ Arizona, California, Colorado, Connecticut, Florida, Georgia, 
Hawaii, Iowa, Illinois, Louisiana, Massachusetts, Mississippi, North 
Carolina, New Hampshire, New Jersey, Nevada, New York, Ohio, Oregon, 
Pennsylvania, Rhode Island, Tennessee, Texas and Washington
---------------------------------------------------------------------------
    Despite the need for improvements, our fisheries represent some of 
the best managed fisheries in the world. Our businesses depend on the 
availability of sustainably caught seafood from U.S. waters. For this 
reason, we are not only strongly supportive of efforts to modernize 
fisheries law, but also opposed to any efforts to weaken it. We are 
concerned that any steps backwards could lead to overfishing, reducing 
our access to the products that our customers have come to expect.
    This Congress, please oppose any efforts that will take our 
fisheries backwards and support those efforts that will carry us into 
the future.
                                     Linda Di Lello Morton,
                                                        Co-founder,
                                                           Terra Plata.
cc: Senate Commerce, Science and Transportation Committee members and 
staff
                                 ______
                                 
Hon. Dan Sullivan,
Chairman, Subcommittee on Oceans, Atmosphere, Fisheries, and Coast 
Guard,
Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Gary Peters,
Ranking Member, Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters

    As chefs, restaurateurs, grocers, and restaurant seafood suppliers 
we depend on healthy ocean ecosystems, sustainable seafood, and 
abundant fish populations. Today, we write to encourage your support 
for advancing a more comprehensive fishery management approach when the 
Magnuson-Stevens Fishery Conservation and Management Act is next 
reauthorized. This kind of big picture fishery management is good for 
fish, fishermen, and businesses that depend on fish, including the ones 
that provide seafood at restaurants across the United States.
    The current U.S. fisheries management system emphasizes 
establishing fishing rules on individual populations or groups of 
similar populations. Although improvements to the law in 1996 and 2006 
have helped to end overfishing on many species and to rebuild a number 
of depleted populations, they do not address the bigger picture. Taking 
a big picture approach, factoring the knowledge we have about what each 
species eats, where it lives and what it depends upon is a critical 
next step in advancing good management. As Congress moves forward to 
consider further updates to the Magnuson-Stevens Act, it is important 
to not only maintain our management successes but also build on them to 
make sure fish are managed as part of the larger ocean environment and 
to reinforce our fisheries against emerging and ongoing threats such as 
loss of habitat.
    Specifically, we should strengthen the Magnuson-Stevens Act to 
better protect essential fish habitats, minimize the incidental catch 
of fish and other wildlife, and account for the critical role that 
forage fish play as prey for other fish and wildlife. We should analyze 
and understand the impact of fishing before opening or expanding 
fisheries or accessing new areas. And, we should develop plans that 
establish a road map for broadening the scope of managing fish 
populations, so we factor in the important interactions among fish 
populations, other marine wildlife, and habitats of the ocean 
ecosystem.
    By incorporating a big-picture approach to fisheries management, 
Congress can safeguard our ocean resources and coastal communities for 
the long-term benefit of our customers and your constituents.
    As an influential member, representing a [state/district] known for 
some of the best fisheries in the world, you have the opportunity to 
contribute in a critical and substantial way. It is our hope that you 
will wholeheartedly embrace such a pivotal leadership role and champion 
ecosystem based fisheries management in the reauthorization of 
Magnuson-Stevens Act.
    Thank you for considering our views. We look forward to working 
with you to advance stronger, healthier fisheries that can benefit our 
communities from ocean to plate.

Adam Green, Chef
Fez Restaurant & Bar
Phoenix, AZ

Jackson & Kevin Kelly, Owners
Bliss ReBAR
Phoenix, AZ

Kevan Kiefer, Chef
Corduroy
Phoenix, AZ

Mario Pineda, Chef
Bliss ReBAR
Phoenix, AZ

Mark Dillon, Owner
Fez Restaurant & Bar
Switch
Corduroy
Pizza People Pub
Phoenix, AZ

Mark Howard, Owner
Fez Restaurant & Bar
Bliss ReBAR
Phoenix, AZ

Tim & Marybeth Scanion, Owners
Pizza People Pub
Phoenix, AZ

Tom Jetland, Owner
Fez Restaurant & Bar
Switch
Corduroy
Pizza People Pub
Phoenix, AZ

Suzanne Goin, Chef/Owner
Larder Baking Company & Restaurants
Lucques
Tavern
a.o.c
Los Angeles, CA

Seamus Gibney, Executive Chef
Pier 23
San Francisco, CA

Michael Botello, Owner
Wally's Desert Turtle
Rancho Mirage, CA

Soerke Peters, Chef/Owner
Basil Seasonal Dining
Carmel By The Sea, CA
  
  

Albert Serrano, Chef
Bluewater Grill
Coronado, CA

Evan Cruz, Executive Chef
San Diego Marriott Del Mar/Arterra Restaurant & Outdoor Lounge
San Diego, CA

Trey Foshee, Executive Chef & Partner
George's at the Cove
Galaxy Taco
La Jolla, CA

Shihomi Borillo, Owner
Azuki Sushi
Artisan Bento
San Diego, CA

Jeff Jackson, Executive Chef
Lodge at Torrey Pines-A.R. Valentien Restaurant
La Jolla, CA

Matt Gordon, Executive Chef/Owner
Urban Solace
Solace and the Moonlight Lounge
Encinitas, CA

Davin Waite, Chef Owner
The Whet Noodle
Wrench and Rodent Seabasstropub
Oceanside, CA

Jason Knibb, Executive Chef
Grande Colonial, NINE-TEN Restaurant
La Jolla, CA

Mourad Jamal, Executive Chef
Poseidon on the Beach
Del Mar, CA

Nikki Martin, Chef/Actress
Food Network
Hollywood, CA

Nathan Lyon, Host
Growing A Greener World; Good Food America with Nathan Lyon
Los Angeles, CA

Michael McGeath, Owner
Brooklyn Girl Eatery
San Diego, CA

Sammy Monsour,
Preux & Proper
Los Angeles, CA
  

Kim Muller
B/O/T/H Consulting
Manhattan Beach, CA

Cindy Pawlcyn, Founder & Owner
Mustards Grill
Cindy's Backstreet Kitchen
Napa Valley, CA

Rob Ruiz, Chef & Owner
The Land and Water Company
Carlsbad, CA

Andrew Spurgin, Chef/Owner
Andrew Spurgin: Bespoke event styling & menu design
San Diego, CA

Gordon Drysdale, Culinary Director
Scoma's
San Francisco, CA

Jason Azevedo,
Hock farm craft & I provisions
Sacramento, CA

Jason McLeod, Executive Chef & Partner
Ironside Fish & Oyster
San Diego, CA

Dustin Summerville, Founder
Harney Sushi Restaurants
San Diego, CA

Ricardo Heredia, Executive Chef & Owner
Kitchen Mafioso
San Diego & Los Angeles, CA

Alisha Lumea,
Polished Brands
San Francisco, CA

Mark Dommen, Head Chef & Partner
One Market Restaurant
San Francisco, CA

Patty Unterman, Chef & Owner
Hayes Street Grill
San Francisco, CA

Mary Sue Milliken, Chef and Co-Owner
The Border Grill
Santa Monica, CA

Susan Feniger, Chef and Co-Owner
The Border Grill
Santa Monica, CA

John Ash, Chef & Owner
John Ash & Co
Santa Rosa, CA

Raymond Ho, Chef and Co-Founder
Tataki Sushi Bars
San Francisco, CA

Kin Lui, Chef and Co-Founder
Tataki Sushi Bars
San Francisco, CA

Casson Trenor, Co-Founder
Tataki Sushi Bars
San Francisco, CA

Jeff Krivokopich
Guckenheimer
Venice Beach, CA

Stephen Zwick
ztecture
West Los Angeles, CA

Christian Graves, Executive Chef
Panzano
Denver, CO
  
  

Brianne Bowdish
Cart driver
Denver, CO

Jeffrey Lammer,
RootdownDIA
Denver, CO

Todd Rymer
Colorado Mountain College
Edwards, CO

Mark R. Leopoldino, Owner
Bill's Seafood
Westbrook, CT

Elena Fusco, Chef
Bin 100
Milford, CT

Adam Young, Owners
Sift Bakeshop
Mystic, CT

Lisa Arsenault, Chef
Lis Bake Shop
Mystic, CT

Elizabeth Alina, Chef
Karma Kitchen Mystic & Juicery
Mystic, CT

Ken Lin, Chef
Workery in Mystic
Mystic, CT

Nora Pouillon, Chef and Owner
Restaurant Nora
Washington, DC

David Rashty, Executive Chef
Jack's-Farm to Fork @ The Pinkshell Beach Resort and Marina
Fort Myers Beach, FL

Jack Boykin, Owner
Pink Shell Beach Resort & Marina--Jack's Farm to Fork & Bongos Bea hide 
Grille
Ft Myers Beach, FL

Bob Statler, Owner/Founder
Food Island
Hobe Sound, FL

Persefoni Nicolosi, Director of Operations
Blu Mangrove Grill
Palmetto, FL

David Curran, Chef
Hitched and Honey
Sarasota, FL

Isaac Johnson, Chef
Lila
Sarasota, FL

Patrick Loughrey, Owner/Designer/Writer/Producer
TastyRoyProductions
Sarasota, FL

Stephen Phelps, Chef
Indigenous
Sarasota, FL

Alex Gazdik, Manager
Red Mesa Mercado
St. Petersburg, FL

Cameron Bolonski, Manager
Casita Taqueria
St. Petersburg, FL

Casey Petrauskas, Manager
The Burg Bar and Grill
St. Petersburg, FL

Danny Autrey D, Manager
Engine Rose
St. Petersburg, FL

Denise Backnell, Manager
Leafy Greens Cafe
St. Petersburg, FL

Jason Dudney, Manager
Bodega
St. Petersburg, FL

Jerry Rice, Owner/Chef
Kissin' Cuzzins Restaurant
St. Petersburg, FL

Paul Renner, Owner/Chef
Kissin' Cuzzins Restaurant
St. Petersburg, FL

Jillian Lund Frer, Owner
Chattaway
St. Petersburg, FL

John Reutz, Manager
400 Beach Seafood and Taphouse
St. Petersburg, FL

Travis Zalewski, Manager
400 Beach Seafood and Taphouse
St. Petersburg, FL

Kevyn Kerrivan, Manager
Ricky P's Orleans Bistro
St. Petersburg, FL

Matthew Bronkema, Manager
Ferg's Sports Bar & Grill
St. Petersburg, FL

Natalie Widlak, Manager
Kings's Street Food Counter
St. Petersburg, FL

Rachel Lawhorn, Manager
Engine#9 Bar & Grill
St. Petersburg, Fl

Rodney Contreras, Manager
Gratzzi Italian Grille
St. Petersburg, FL

Sean Hannon, Manager
Stations House
St. Petersburg, FL

Sierra Emory, Manager
Rowdies Den
St. Petersburg, FL

Teerapong Polrat, Manager
The Lemon Grass Tapas
St. Petersburg, FL

Tom Woodard, Owner
Pom Pom's Teahouse & Sandwicheria
St. Petersburg, FL

Tony Harahan, Manager
Hawkers Asian Street Fare
St. Petersburg, FL

Tracy Asalita, Owner
The Queens Head
St. Petersburg, FL

Terry Koval, Chef
Wrecking Bar Brewpub
Atlanta, GA

Mathew Green, Director of Culinary Operations
Blue Orbit
Duluth, GA

Ed Kenney, Chef & Owner
Town Hospitality Group
Mahin & Sun
Town
Kaimuki Superette
Mud Hen Water
Honolulu, HI

Ann Reed,
Iowa State University
Ames, IA

Grant Tipton, Chef
T3 Culinary
Antioch, IL

Bruce Sherman, Chef & Partner
North Pond Restaurant
Chicago, IL

Dan Rosenthal, Owner/Founder
Sopraffina
Chicago, IL

John Mark Stanley
Illinois Institute of Art--Chicago
Chicago, IL

Paul Fehribach, Chef and Co-owner
Big Jones
Chicago, IL

Alfredo Manzanares, Chef
Catahoula Hotel
New Orleans, LA

Dana Honn, Chef and Co-Owner
Carmo: A Tropical Cafe<greek-th>
New Orleans, LA

Isaac Toups, Chef and Owner
Toups Meatery
New Orleans, LA

Kerry Heffernan, Chef
Seaworthy (NOLA), Grand Banks (NY)
New Orleans, LA

Nina Compton, Chef
Compere Lapin
New Orleans, LA

Ryan Prewitt, Chef, Partner
Peche Seafood Grill
New Orleans, LA

Stephen Stryjewski, Chef, Partner
Cochon
Cochon Butcher
Peche Seafood Grill
Calcasieu Rooms
New Orleans, LA

Dickie Brennan Jr, Chef
Dickie Brennan and Company
New Orleans, LA

Lauren Brennan Brower, Owner
Dickie Brennan and Company
New Orleans, LA

Steve Pettus, Managing Partner
Dickie Brennan and Company
New Orleans, LA

Leah Chase, Owner and Executive Chef
Dooky Chase's
New Orleans, LA

Susan Spicer, Owner and Executive Chef
Bayona
New Orleans, LA

Johnny Sheehan, Chef
Liquid Art House
Boston, MA

Peter Davis, Chef
The Charles Hotel/Henrietta's Table
Cambridge, MA

Carolyn Johnson, Chef
80 Thoreau
Concord, MA

Richard Garcia, Chef
Crescent Hotels & Resorts
Kingston, MA

Michael Leviton, Chef
Sustainable Food Systems Consulting Group
Lexington, MA

Jesse Ferriter
Smith College
Northampton, MA

John Lawrence, Owner
Peppers Fine Catering
Northborough, MA

Jes Childers, Chef
New World Tavern
Plymouth, MA

Matt Hennessey, Owner
Driftwood Publick House and Oysteria
Plymouth, MA

Abdus Shakur, Chef and Culinary Arts Instructor
East Weymouth, MA

Corbin Evans, Chef and Owner
Oxford Canteen
Oxford, MS

Vishwesh Bhatt, Executive Chef
SNACKBAR
Oxford, MS

William Dissen, Owner and Executive Chef
The Marketplace Restaurant
Asheville, NC

Clark Barlowe, Chef and Owner
Heirloom Restaurant
Charlotte, NC

Michael Beers,
Chef Gracie K's
Statesville, NC

Corey Fletcher, Chef and Owner
Revival Kitchen and Bar
Concord, NH

Brent Hazelbaker, Chef
Earth's Harvest Kitchen and Juicery
Dover, NH

Mary Ann Esposito, Chef/Host
PBS Ciao Italia with Mary Ann Esposito
Durham, NH

Catherine Brown, Chef
DiCocoa's Market Bakery
Errol, NH

Jeff Alberti, Executive Chef
Tuckers Tavern
Beach Haven, NJ

Peyton Johnson, Chef de Cuisine
Daddy O Restaurant
Brant Beach, NJ

Jeff Alberti, Executive Chef
Plantation Restaurant
Harvey Cedars, NJ

Mattias Gustafsson, Executive Chef; Co-Owner
Madame Claude Bis
Jersey City, NJ

DeAnna Paterra, Chef and Co-Owner
DeAnna's Restaurant
Lambertville, NJ

Lisa Nichols, Co-Owner
DeAnna's Restaurant
Lambertville, NJ

Adam Rose, Chef and Owner
Villalobos
Montclair, NJ

Marc Oshima, Chief Marketing Officer
AeroFarms
Newark, NJ
  
  

Ariane Duarte, Chef/Owner
Ariane Kitchen & Bar
Verona, NJ

Greg Honachefsky, Chef/Owner
The Bi-catch Cafe
Dorchester, NJ

Steven Soltz, Professor--Culinary Arts Dept
College of So. NV
Las Vegas, NV

Dorothy Yang
Purple Kale Kitchenworks
Brooklyn, NY

Jacob Tupper, Fishmonger
Greenpoint Fish/MP Fish
Sea To Table
Brooklyn, NY

Michael Dimin, Founding Director
Sea to Table
Brooklyn, NY

Julie Levin, Chef
Nardin Academy
Buffalo, NY

Samantha Buyskes, Former Executive Chef
Kindred Fare
Geneva, NY

Judith Klinger, Founder
World-Eats
New York, NY

Kathy Zeiger, Founder
Artwalk Hamptons
New York, NY

Kerry Heffernan, Chef
Grand Banks
New York, NY

Lilli Donahue, Community Manager
Culinary Agents
New York, NY

Matt Griffin, Executive Chef
Happy Cooking Hospitality
Fedora
Bar Sardine
New York, NY

Michael-Ann Rowe,
Emmy Award-Winning television personality, food & travel journalist; a 
culinary advocate, specializing in seafood.
Off the Beaten Palate Productions
New York, NY

Rachel Palczynski, General Manaer
Rouge Tomate Chelsea
New York, NY

Suzannah Schneider, Sustainability Connector
Katchkie Farm/Great Performances
New York, NY

Carl Salamone, Vice President for Seafood
Sustainability
Wegmans Food Markets, Inc.
Rochester, NY

Pamela Lynch, Associate Professor of Biology
Suffolk County Community College
Selden, NY

Amy Paul, Director
Edible Ohio Valley
Cincinnati, OH

Derek dos Anjos, Chef/Owner
The Anchor
Cincinnati, OH

Lilly Burdsall, Chef and Manager
Midwest Culinary Institute at Cincinnati State College
Cincinnati, OH

Douglas Katz, CEO/Chef
Fire Spice Company and fire food and drink
Cleveland, OH

Gian Mercurio,
Greenwillow Grains
Brownsville, OR

Maylin Chavez Navarro, Chef/Owner
Olympia Oyster Bar
Portland, OR

Russell Ruscigno,
Slow Food Portland
Portland, OR

Lyf Gildersleeve, Owner
Flying Fish Company--Sustainable Seafood
Portland, OR

David Joachim, Author/Editor
Joachim Ltd
Center Valley, PA

Zach Grainda, Executive Chef
White Dog Cafe
Haverford, PA

Vince Alberici, Chef Consultant
Seviche
Poros
Sonoma
Nola on the Square
Havertown, PA

George Bush,
The Summit Restaurant
New Milford, PA

Anthony Bonett, Executive Chef
Moshulu
Philadelphia, PA

Yves Carreau, Chef and Proprietor
Perle
Seviche
Poros
Sonoma
Nola on the Square
Pittsburgh, PA

Ralph P Fernandez, Executive Chef
Autograph Brasserie
Wayne, PA

Dan Stern, Chef
R2L
Philadelphia, PA

David Dadekian, President and Writer/Editor
Eat Drink Rhode Island
Coventry, RI

Chef Bill Idell, Assistant Dean of the College of Culinary Arts
Johnson and Wales University
Providence, RI

Liam Kimball, General Manager, Business Operations
Juilians
Providence, RI

Meghan Brennan, Executive Chef
The Sqaure Peg
Warren, RI

Bill Idell, Assistant Dean
Johnson and Wales University--College of Culinary Arts
Providence, RI

Kaza Kondo, Executive Chef
Wara Wara
Providence, RI

Rick Farmer
St. Jude Children's Research Hospital
Memphis, TN

Wally Kinney, Partner
Cafe Blue
Bee Cave, TX

Crystal Laramore, Owner/Executive Chef
Crystal's Bistro
Cold Spring, TX

Felipe Gonzalez, Executive Chef/Executive Sous Chef
Shearn's: Moody Gardens Hotel, Spa and Convention Center
San Luis Steakhouse: The San Luis Resort & Conference Center
Galveston, TX

Paco Vargas, Executive Chef and Co-Owner
Rudy & Paco's
Galveston, TX

Ricky Craig, Co-Owner and Chef
Harborside Mercantile
Galveston, TX

Jack Tyler, Chef, Writer, and Photographer
Culinary Houston
Houston, TX

David Skinner, Co-Owner and Executive Chef
Eculent
Kemah, TX

Jason Loban, Executive Chef
Sulphur Springs Country Club
Sulphur Springs, TX

Nancy Manlove, Executive Chef and Owner
Personal Chef; Host: I45NW Cooking Show
Texas City, TX

Casey Gaido, Executive Chef
Gaido's Restaurant
Galveston, TX

Mark Schneider, Texas Chef's Association
President
Department Chair Culinary Arts, Texas State
Technical College
Waco, TX

Michael Wards, Executive Chef/Owner
The Austin Artisan
Austin, TX

Alan McArthur, Owner
McArthur's
Lakeway, TX

Al Lopez, Executive Chef
McArthur's
Lakeway, TX

Ben Nathan, Executive Chef/Partner
Cafe Blue
Austin, TX

Johnny Smecca, Partner
Saltwater Grill
Sky Bar l Steak & Sushi
Little Daddy's Gumbo Bar
NONNO TONY'S
The Gumbo Diner
Taquilo's
Galveston, TX

Erkem Hyseni, Owner/Chef
Adriatic Cafe
Jersey Village, TX

Haythem Dawlett, Owner
Floyd's on the Water
Texas City, TX

Trace Benno, Chef/Owner
Benno's Cajun Seafod
Galveston, TX

Jimmy McClure, Chef/Owner
Jimmy's on the Pier
Galveston, TX

Jim Watkins, Chef & Director
Food Services Bastyr University
Kenmore, WA

Holly Smith, Chef/Owner
Cafe Juanita
Kirkland, WA

Brian Canlis and Mark Canlis, Owners
Canlis
Seattle, WA

Diane LaVonne, Founder/Owner
Diane's Market Kitchen
Seattle, WA

Eric Tanaka, Executive Chef & Managing Partner
Tom Douglas Restaurants
Seattle, WA

Johnathan Sundstrom, Chef/Owner
Lark Restaurant
Seattle, WA

Joshua Henderson, Chef & Proprietor
Huxley Wallace Collective
Westward
State
Saint Helens
Bar Noroeste Taqueria
Vestal
Poulet Galore
Cantine
Scout PNY
The Nest
Seattle, WA

Mick Heltsley, Owner
Agua Verde Cafe
Seattle, WA

Tamara Murphy, Chef/Co-Founder
Terra Plata
Seattle, WA

Linda Di Lello Morton, Co-Founder
Terra Plata
Seattle, WA

Maria Hines, Chef & Owner
Maria Hines Restaurants
Tilth
Golden Beetle Agrodolce
Seattle, WA

Toby Eidem, GM/Owner
Corbett Fish House
Vancouver, WA

Jon Rowley
Jon Rowley & Associates
Vashon, WA

Robin Leventhal, Chef-Instructor
Wine Country Culinary Institute
Walla Walla, WA

Robin Leventhal, Chef-Instructor
Crave Catering & Consulting
Walla Walla, WA

Roy Breiman, Corporate Culinary Director
Coastal Hotels
Bellevue, WA

Bruno Feldeisen, Executive Chef
Semiahmoo Resort
Blaine, WA

Riley Starks, Partner
Lummi Island Wild Co-op
Bellingham, WA
  
  

Karen Jurgensen, Chef Instructor
Seattle Culinary Academy & Quillisascut Farm School
Seattle, WA

Jason Stoneburner, Chef Partner
Stoneburner
Seattle, WA

Stacey Hettinger, Chef & Owner
Geraldine's Counter
Seattle, WA

Gary Snyder, Owner
Heyday
Seattle, WA

Brendan McGill, Chef/Owner
Hitchcock
Bainbridge Island, WA

Carla Leonardi, Chef/Owner
Cafe Lago
Seattle, WA

Joe Bayley, Chef
Munchery
Seattle, WA

Zoi Antonitsas, Chef
Jarr and Co
Seattle, WA

Mike & Liz McConnell, Owners
Via Tribunali
Seattle, WA

David Burger, Executive Director
Stewardship Partners
Seattle, WA

Ethan & Angela Stowell, Owners & Chef (Ethan)
Stowell Restaurants
Seattle, WA

Matt Dillon, Chef/Owner
Sitka & Spruce
Bar Ferdinand
The Corson Building
The London Plane
The Old Chaser Farm
Seattle, WA

William Belickis, Chef/Owner
Mistral Kitchen
Seattle, WA

Dre Neeley & Pepa Brower, Chef & Owners
Gravy Vashong
Vashon, WA

Jason LaJeunesse, Chef
Earnest Loves Agnes
Seattle, WA

Marius Arbune, Chef
Cornuto
Seattle, WA

Sieb & Jen Jurriaans, Chef & Owner
Prima Bistro
Langley, WA

Alex Wilson, Chef
Odd Fellows
Seattle, WA
                                     Blain Wetzel, Chef
Walter Edward, Chef/Consultant       Willows Inn
University Club                      Lummi Island, WA
Seattle, WA
 

                                 ______
                                 
                                                      July 31, 2017
Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Hon. Gary Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters,

    We operate businesses that cater to clients who value healthy 
coasts and ocean wildlife. The ecotourism industry in California 
represents more than 125,000 jobs and over $600 million in revenue per 
year. It is a vital part of our local economy. Ensuring sustainable 
fish populations and conserving marine resources are important to us 
and our customers. As Congress considers the next reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act (MSA), we 
request your leadership to ensure it is updated to advance a big 
picture approach, which will better protect our natural resources and 
the economies that depend on them.
    MSA is forty years old, and we've learned more about how to 
maintain productive ecosystems since then. MSA can be improved to help 
managers fully utilize the knowledge we have today and account for the 
big picture when making management decisions. This means conserving 
forage (or bait) fish, which is what other fish and wildlife eat, 
protecting where fish live (habitat), and reducing wasteful catch 
(bycatch), in addition to other priority actions.
    Bait fish form an essential link in the marine food webs and are 
necessary to ensure health fisheries and oceans, but the MSA does not 
guarantee conservation measures that account for this critical role. 
The law should be updated to conserve these important fish.
    Additionally, ensuring healthy fish habitats is a critical 
component of sustainable fisheries management. It is important to 
address the impacts of certain types of fishing and other activities, 
such as pollution, in order to conserve habitats for fish. Therefore, 
the MSA needs to include greater protections of essential habitats, 
such as deep sea corals and spawning sites that fish need for 
reproduction, shelter, and growth.
    People come to us because they want to see wildlife, but the MSA 
currently does not do enough to ensure bycatch is sufficiently 
minimized. Some fishing practices catch non-target wildlife including 
birds, sea turtles and non-targeted fish. We would like you to ensure 
that the law reduces this wasteful catch.
    Coastal businesses and other enterprises that are involved in the 
ecotourism industry are impacted by how the U.S. manages fish 
populations under the Magnuson-Stevens Act. From tour operators to 
beachside restaurants, bed and breakfasts to dive shops, businesses 
like ours can benefit from a thoughtful bill that advances a big 
picture approach to fisheries management. Please understand that 
inclusion of big picture management principles in the next 
reauthorization of the MSA is critical to our continued economic 
success.
    Thank you for your time and your consideration of this important 
issue.
            Sincerely,
    We the undersigned

Sail Channel Islands                 Shearwater Journeys, Inc
Dan Ryder, Captain                   Debra Shearwater, Owner
Oxnard, CA                           Hollister, CA
 
Channel Islands Outfitters, Inc.     Blue Water Ventures
Fraser Kersey, CFO & Co-Founder      Kim Powell, Owner, Operator &
Santa Barbara, CA                     Naturalist
                                     Santa Cruz, CA
 
Paddle Sports Center                 Newport Landing Whale Watching
Fraser Kersey, CFO & Co-Founder      Jessica Roame, Marine Education
Santa Barbara, CA                     Specialist
                                     Newport Beach, CA
 
Channel Islands Surfboards           Davey's Locker Sportfishing & Whale
Evan Gambetta, Manager                Watching
Santa Barbara, CA                    Jessica Roame, Marine Education
                                      Specialist
                                     Newport Beach, CA
 
Harbor Breeze Cruises                Humboats Kayak Adventures
Amber Boyle, Vice President          Brian Saxton, Owner
Long Beach, CA                       Eureka, Ca
 
Deep Blue Scuba & Swim Center        Beach Bungalow Inn and Suites
Matt Millikin, Manager               Anna Patel, Owner
Long Beach, CA                       Morro Bay, CA
 
Ventura Dive & Sport                 Pacifica Sailing Charters
James Smith, Owner                   Mick Moore, Captain
Ventura, CA                          San Diego, CA
 
Living Sea Images                    Sail San Diego
Marc Shargel, Founder &              Captain Tim Hanley, Operations
 Photographer                         Manager
Felton, CA                           San Diego, CA
 
Epic SUP Adventures                  Matthew Meier Photography
Austin Haggerty, Owner               Matthew Meier, Underwater
Santa Barbara, CA                     Photographer
                                     San Diego, CA
 
Santa Barbara Adventure Company      Xplore Offshore
Michael Cohen, Owner                 Captain Russell Moore, Owner
Santa Barbara, CA                    San Diego, CA
 
Central Coast Sailing Charters       Central Coast Outdoors
Captain Mark Kocina, Owner           John Flaherty
San Luis Obispo, CA                  Los Osos, CA
 
Malibu Divers                        Raptor Dive Charters
Barbara Gentile-Crary, Owner         James Smith, Owner
Malibu, CA                           Ventura, CA
 
Tom Boyd Underwater Images           Seas the Day QQ Adventures
Tom Boyd, Founder & Photographer     Dawn Lamb, Owner
Los Angeles, CA                      San Clemente, CA
 
Kip Evans Photography
Kip Evans, Founder & Photographer
Pacific Grove, CA
 

                                 ______
                                 
                                                      July 31, 2017

Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Hon. Gary Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters,

    We operate businesses that cater to clients who value healthy 
coasts and ocean wildlife. The ecotourism industry in CT supports a 
vibrant tourist industry, vital to the growth of our local economy. 
Ensuring sustainable fish populations and conserving marine resources 
are important to us and our customers. As Congress considers the next 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA), we request your leadership to ensure it is 
updated to advance a big picture approach, which will better protect 
our natural resources and the economies that depend on them.
    MSA is forty years old, and we've learned more about how to 
maintain productive ecosystems since then. MSA can be improved to help 
managers fully utilize the knowledge we have today and account for the 
big picture when making management decisions. This means conserving 
forage (or bait) fish, which is what other fish and wildlife eat, 
protecting where fish live (habitat), and reducing wasteful catch 
(bycatch), in addition to other priority actions.
    Bait fish form an essential link in the marine food webs and are 
necessary to ensure health fisheries and oceans, but the MSA does not 
guarantee conservation measures that account for this critical role. 
The law should be updated to conserve these important fish.
    Additionally, ensuring healthy fish habitats is a critical 
component of sustainable fisheries management. It is important to 
address the impacts of certain types of fishing and other activities, 
such as pollution, in order to conserve habitats for fish. Therefore, 
the MSA needs to include greater protections of essential habitats, 
such as deep sea corals and spawning sites that fish need for 
reproduction, shelter, and growth.
    People come to us because they want to see wildlife, but the MSA 
currently does not do enough to ensure bycatch is sufficiently 
minimized. Some fishing practices catch non-target wildlife including 
birds, sea turtles and non-targeted fish. We would like you to ensure 
that the law reduces this wasteful catch.
    Coastal businesses and other enterprises that are involved in the 
ecotourism industry are impacted by how the U.S. manages fish 
populations under the Magnuson-Stevens Act. From tour operators to 
beachside restaurants, bed and breakfasts to dive shops, businesses 
like ours can benefit from a thoughtful bill that advances a big 
picture approach to fisheries management. Please understand that 
inclusion of big picture management principles in the next 
reauthorization of the MSA is critical to our continued economic 
success.
    Thank you for your time and your consideration of this important 
issue.
            Sincerely,


Kristin Hart                         Mark Leopoldino
Candlewood Stand Up Paddleboard      Bills Seafood
New Fairfield, CT                    Westbrook, CT
 
Ed & Ginamarie Hayes                 Elena Fusco
Scuba Shack                          Bin 100
Rocky Hill, CT                       Milford, CT
 
Jeff Jodoin                          Adam Young
Paddle Mystic                        Sift Bakeshop
Mystic, CT                           Mystic, CT
 
James Verni                          Lisa Arsenault
Tidal River Clothing Co.             Lisa Bakeshop
Mystic, CT                           Cos Cob, CT
 
Jill Kobrin                          Elizabeth Alina
New England Dive LLC                 Karma Kitchen Mystic & Juicery
Wallingford, CT                      Mystic, CT
 
                                     Ken Lin
                                     Workery in Mystic
                                     Mystic, CT
 

                                 ______
                                 
                                                      July 31, 2017

Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Hon. Gary Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters,

    We operate businesses that cater to clients who value healthy 
coasts and ocean wildlife. The ecotourism and outdoor recreational 
industries in Florida represents tens of thousands of businesses and 
more than 329,000 direct jobs according to the Outdoor Industry 
Association. It is a vital part of our local economy. Ensuring 
sustainable fish populations and conserving marine resources are 
important to us and our customers. As Congress considers the next 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (MSA), we request your leadership to ensure it is 
updated to advance a big picture approach, which will better protect 
our natural resources and the economies that depend on them.
    MSA is forty years old, and we've learned more about how to 
maintain productive ecosystems since then. MSA can be improved to help 
managers fully utilize the knowledge we have today and account for the 
big picture when making management decisions. This means conserving 
forage (or bait) fish, which is what other fish and wildlife eat, 
protecting where fish live (habitat), and reducing wasteful catch 
(bycatch), in addition to other priority actions.
    Bait fish form an essential link in the marine food webs and are 
necessary to ensure health fisheries and oceans, but the MSA does not 
guarantee conservation measures that account for this critical role. 
The law should be updated to conserve these important fish.
    Additionally, ensuring healthy fish habitats is a critical 
component of sustainable fisheries management. It is important to 
address the impacts of certain types of fishing and other activities, 
such as pollution, in order to conserve habitats for fish. Therefore, 
the MSA needs to include greater protections of essential habitats, 
such as deep sea corals and spawning sites that fish need for 
reproduction, shelter, and growth.
    People come to us because they want to see wildlife, but the MSA 
currently does not do enough to ensure bycatch is sufficiently 
minimized. Some fishing practices catch non-target wildlife including 
birds, sea turtles and non-targeted fish. We would like you to ensure 
that the law reduces this wasteful catch.
    Coastal businesses and other enterprises that are involved in the 
ecotourism and outdoor recreational industries are impacted by how the 
U.S. manages fish populations under the Magnuson-Stevens Act. From tour 
operators to beachside restaurants, bed and breakfasts to dive shops, 
businesses like ours can benefit from a thoughtful bill that advances a 
big picture approach to fisheries management. Please understand that 
inclusion of big picture management principles in the next 
reauthorization of the MSA is critical to our continued economic 
success.
    Thank you for your time and your consideration of this important 
issue.
            Sincerely,

Captain Memo's Pirate Cruise
Pam Wozencraft--Owner
Clearwater Beach, FL

Little Toot Tours
Clearwater Beach, FL

Sea Screamers of Clearwater
Eric Spaulding--Owner
Clearwater Beach, FL

Encounters With Dolphins
William Fineran--Owner
Clearwater Beach, FL

Calypso Queen Tours
Phil Henderson--Owner
Clearwater Beach, FL

The Tropics Boat Tours
Trisha Rodriguez--Owner
Clearwater Beach, FL

MEGA BITE Tour Boat
Derrick and Darrel Lombardi--Owners

Kai Lani Catamaran
Mike Judge--Owner
Clearwater Beach, FL

ParrotDise Express Boat Tours
Jeff Gearheart
Dunedin, FL

Chute Em Up Parasail
Caleb Mcclymont--Manager
Clearwater Beach, FL

Tampa Bay SUP Standup Paddle Boarding & Kayaking
Safety Harbor, FL
Kim Ward-Owner

Carolina Mike's Kayaking Adventures
Kim Ward referral-great opportunity
Safety Harbor, FL

High Times Parasail and Watersports
Mark Ketlan--Manager/Owner
Clearwater Beach, FL

Around the Bend Nature Tours
Karen Willey--Owner
Bradenton, FL

Parasail City
Caleb Mcclymount--Owner
Clearwater Beach, FL

Riverfront Cruises
James Cambell--Owner
Fort Lauderdale, FL

Jungle Queen Riverboat
Mike Faber--Owner
Fort Lauderdale, FL

Carrie B Cruises
Steve Thorton--Owner
Fort Lauderdale, FL

Riverfront Gondola Tours
Captain's Roy and Lauralee Conklin
Fort Lauderdale, FL

Sea Life Kayak Adventures
Tom McFarland--Owner
Sarasota, FL

Island Time Charter
Captain--Chet Soltak
Sarasota, FL

Kenneth A Myers
Atlantic Coast Kayak Company
Wilton Manors

Carmen Driscoll
Carmen's Kayaks
Pine Island

Barbara Schenck
FunDay Tours
Cocoa Beach

Motorized Kayak Adventures
Bill Gibson
Fort Pierce, FL
  
Paddle Florida, Inc.
Bill Richards
Gainesville, FL
  

South Florida Underwater Photographic Society
Sam Hodge
Fort Lauderdale, FL
      
                                 ______
                                 
                                                      July 31, 2017
Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.
Hon. Gary Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters,

    We operate and represent businesses that cater to clients who value 
the health of our waters and the wildlife it sustains. The ecotourism 
industry in New Jersey is not only vital to our local economies, it is 
robust--for example, ecotourism in Cape May County alone represents a 
$544 million industry. And, these benefits extend far beyond our 
coastal waters to include the major rivers and estuaries which serve as 
the spawning areas for species such as sturgeon and shad.
    Ensuring sustainable fish populations and conserving marine 
resources are important to us and our customers.
    As Congress considers the next reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act (MSA), we request your 
leadership to ensure it is updated to advance a big picture approach, 
which will better protect our natural resources and the economies that 
depend on them.
    MSA is forty years old, and since its enactment we've learned more 
about how best to maintain productive ecosystems. MSA can be improved 
to help managers fully utilize the knowledge we have today and account 
for the big picture when making management decisions. This means 
conserving forage (or bait) fish, which is what other fish and wildlife 
eat, protecting where fish live (habitat), and reducing wasteful catch 
(bycatch), in addition to other priority actions.
    Bait fish form an essential link in the marine food webs and are 
necessary to ensure healthy fisheries and oceans, but the MSA does not 
guarantee conservation measures that account for this critical role. 
The law should be updated to conserve these important fish.
    Additionally, ensuring healthy fish habitats is a critical 
component of sustainable fisheries management. It is important to 
address the impacts of certain types of fishing and other activities, 
such as pollution, in order to conserve habitats for fish. Therefore, 
the MSA needs to include greater protections of essential habitats, 
such as deep sea corals and other spawning sites that fish need for 
reproduction, shelter, and growth.
    People come to us because they want to see wildlife, but the MSA 
currently does not do enough to ensure bycatch is sufficiently 
minimized. Some fishing practices catch non-target wildlife including 
birds, sea turtles and non-targeted fish. We would like you to ensure 
that the law reduces this wasteful catch.
    Coastal and river-based businesses and other enterprises that are 
involved in the ecotourism industry are impacted by how the U.S. 
manages fish populations under the Magnuson-Stevens Act. From tour 
operators to beachside restaurants, bed-and-breakfasts to dive shops, 
businesses like ours can benefit from a thoughtful bill that advances a 
big picture approach to fisheries management. Please understand that 
inclusion of big picture management principles in the next 
reauthorization of the MSA is critical to our continued economic 
success.
    Thank you for your time and your consideration of this important 
issue.
            Sincerely,


Bend The Rod and Island Girl         Greater Newark Convention &
 Charters                             Visitors Bureau
Scott Krawiec, Owner                 Bob Provost, Acting President/CEO
Cape May, NJ                         Newark, NJ
 
Bike Lambertville                    The Inn at Lambertville Station
Lloyd Davis, Chairman                Dan Whitaker, Owner
Lambertville, NJ                     Lambertville, NJ
 
Center for Aquatic Sciences at       Jenkinson's Aquarium
 Adventure                           Cindy Claus, Director
Aquarium                             Point Pleasant Beach, NJ
Brian DuVall, President & CEO
Camden, NJ
 
Delaware River Towns Chamber of      NJ Campground Owners Association
Commerce and Visitors Bureau         Joann DelVescio, Executive Director
Glenn Davis, President & David       Marmora, NJ
 Morgan,
Executive Director
Lambertville, NJ
 
 
Frenchtown Business & Professional   Pinelands Adventures
 Association                         Rob Ferber, Director
Molly Sumridge, President            Shamong, NJ
Frenchtown, NJ
 
 

                                 ______
                                 
                                                      July 31, 2017
Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.
Hon. Gary Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Chairman Sullivan and Ranking Member Peters,

    We operate businesses that cater to clients who value healthy 
coasts and ocean wildlife. The ecotourism and outdoor recreational 
industries in Washington State represents tens of thousands of 
businesses and more than 227,000 direct jobs. It is a vital part of our 
local economy. Ensuring sustainable fish populations and conserving 
marine resources are important to us and our customers. As Congress 
considers the next reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA), we request your leadership to 
ensure it is updated to advance a big picture approach, which will 
better protect our natural resources and the economies that depend on 
them.
    MSA is forty years old, and we've learned more about how to 
maintain productive ecosystems since then. MSA can be improved to help 
managers fully utilize the knowledge we have today and account for the 
big picture when making management decisions. This means conserving 
forage (or bait) fish, which is what other fish and wildlife eat, 
protecting where fish live (habitat), and reducing wasteful catch 
(bycatch), in addition to other priority actions.
    Bait fish form an essential link in the marine food webs and are 
necessary to ensure health fisheries and oceans, but the MSA does not 
guarantee conservation measures that account for this critical role. 
The law should be updated to conserve these important fish.
    Additionally, ensuring healthy fish habitats is a critical 
component of sustainable fisheries management. It is important to 
address the impacts of certain types of fishing and other activities, 
such as pollution, in order to conserve habitats for fish. Therefore, 
the MSA needs to include greater protections of essential habitats, 
such as deep sea corals and spawning sites that fish need for 
reproduction, shelter, and growth.
    People come to us because they want to see wildlife, but the MSA 
currently does not do enough to ensure bycatch is sufficiently 
minimized. Some fishing practices catch non-target wildlife including 
birds, sea turtles and non-targeted fish. We would like you to ensure 
that the law reduces this wasteful catch.
    Coastal businesses and other enterprises that are involved in the 
ecotourism and outdoor recreational industries are impacted by how the 
U.S. manages fish populations under the Magnuson-Stevens Act. From tour 
operators to beachside restaurants, bed and breakfasts to dive shops, 
businesses like ours can benefit from a thoughtful bill that advances a 
big picture approach to fisheries management. Please understand that 
inclusion of big picture management principles in the next 
reauthorization of the MSA is critical to our continued economic 
success.
    Thank you for your time and your consideration of this important 
issue.


Paul Fish, President
Mountain Gear, Inc.
Spokane Valley, WA
 
Grant Putman, President
Northwest Guides & Anglers
 Association
Tillamook, OR
 
Heidi Siegelbaum, Former Owner
Calyx Sustainable Tourism
Seattle, WA
 
Jake Haupert, Founder
Evergreen Escapes
Seattle, WA
 
Dave McCoy, Owner
Emerald Water Anglers, LLC
Seattle, WA
 
Shari Tarantino, President
Orca Conservancy
Seattle, WA
                                     John Land Le Coq, CEO/Founder
Filson Company                       Fishpond, Inc.
Seattle, WA                          Silverthorne, CO
 
 
 
 
 
 
 

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                            Chris W. Oliver
    Question 1. You stated in your testimony that there are 
opportunities for additional flexibility in how we apply Annual Catch 
Limits (ACLs), accountability measures, and rebuilding plans in the 
currently enacted MSA, and that ``we can have it both ways'' as it 
pertains to ensuring conservation efforts are not jeopardized. Please 
elaborate on this, specifically what tools Congress can provide to the 
Councils that would allow additional management flexibility without 
jeopardizing conservation.
    Answer. Annual catch limits (ACLs) have been and remain an 
effective tool in ending overfishing and rebuilding fish stocks, and 
are a cornerstone of sustainable fisheries management. However, 
implementing them and associated accountability measures has been 
challenging in some fisheries--particularly where data is scarce and 
where commercial and recreational user groups have fundamentally 
different goals and objectives. For example, setting effective ACLs for 
species in coral reef ecosystems in the Pacific Islands and Caribbean 
regions, is one of our biggest challenges due to lack of data regarding 
stock status and fishing harvests. Calls for increased flexibility are 
also coming from some recreational fisheries along the Atlantic and 
Gulf coasts. In these fisheries, harvest data can be much more 
difficult to collect and report on a timely basis than in most 
commercial fisheries. Therefore, alternative management mechanisms may 
be useful.
    Increased flexibility under the current MSA was a primary goal of 
NOAA Fisheries' recent revisions to the National Standard 1 Guidelines. 
The revised guidance provides additional flexibility to the Councils in 
setting rebuilding timelines, phasing in new catch limits, carrying 
over unused quota, determining when stocks are subject to overfishing, 
and managing data limited stocks. For example, if a stock assessment 
shows fishing needs to be curtailed to ensure a stock is sustainable, a 
Council may phase the full reduction over a period of 3 years as long 
as the catch level is set below the overfishing limit. This flexibility 
allows the Council to reduce the economic impact of such a cut instead 
of taking the entire needed reduction in a single year.
    While the Councils are actively exploring the use of the 
flexibility included in the revised guidelines, we recognize additional 
measures may be necessary--particularly for some recreational 
fisheries. Increasing flexibility further will require a multipronged 
approach focusing on both science and effective management tools and 
with involvement from a wide host of stakeholders including Congress. 
NOAA Fisheries is committed to ensuring regional fishery management 
councils have flexibility to tailor their management plans to maximize 
fishing opportunities and develop regional solutions to regional 
problems while preventing overfishing and maintaining stocks at 
sustainable levels.

    Question 2. What new tools could Congress provide the Councils to 
manage recreational fisheries differently, while also being mindful of 
annual catch limits?
    Answer. NOAA Fisheries continues to support the pursuit of 
alternative management strategies that may be better suited for 
recreational fisheries, while remaining mindful of annual catch limits. 
In 2016, the American Sportfishing Association and Theodore Roosevelt 
Conservation Partnership convened a saltwater recreational fisheries 
alternative management strategy workshop with support from and 
participation by NOAA Fisheries. The resulting report highlighted 
several potential tools including harvest rate management, harvest 
tags, conservation equivalency, revising optimum yield, and others. The 
Agency is currently evaluating the feasibility of the proposed tools. 
Our continued efforts with the Councils aim to identify the right 
tools, or combination of tools, to address the specific needs 
encountered in recreational fisheries management.

    Question 3. In Alaska, studies have shown that the average age of 
fishery permit holders in 2015 was 50 years, up nearly 10 years since 
1980. In other areas of the country the average age is even older. What 
needs to be done to train and equip the next generation of fishermen 
with the tools they otherwise lack in order to build successful fishing 
businesses?
    Answer. We support the goal of training beginning and young 
fishermen, and NOAA has a variety of programs that support this. NOAA's 
most recent data show that the seafood industry generated an estimated 
$208 billion in sales impacts and supported 1.6 million jobs in 2015. 
Fishermen are a cornerstone of this economic engine supplying consumers 
with healthy, safe, and sustainable seafood. Ensuring fishermen, 
particularly young fishermen interested in entering the industry, are 
provided with the information and tools necessary to establish their 
businesses, and are trained to fish safely and sustainably benefits the 
future of the U.S. seafood industry, the economies that depend on that 
industry, and the continued viability of fish stocks.
    For example, NOAA provides funding for the Marine Resource 
Education Program, a highly successful program in the Northeast and 
Southeast, which gives fishermen with an inside look at fisheries 
science and management processes and equips them with tools to engage 
in shaping regulatory action and participate in collaborative science.
    NOAA also provides funding for the National Fish and Wildlife 
Foundation's Fisheries Innovation Fund (Fund), which focuses on 
community capacity building, among other priorities. The Fund is 
designed to foster innovation in the fishing industry to sustain 
fishermen's livelihoods while rebuilding fish stocks. One project 
funded in 2016 is a state commercial fisherman apprenticeship program 
in California, involving classwork and on-the-water training for 
students. The program also recruits experienced fishermen as employers 
for new entrants into California commercial fisheries. Another project 
funded in 2016 is the Local Fish Fund, which works to ease entrance 
into the Gulf of Alaska groundfish fishery by facilitating the transfer 
of fishing rights from established fishermen and thus removing 
financial barriers for new entrants.
    NOAA's National Sea Grant Program, with its network of 33 Sea Grant 
programs in the coastal U.S. States and territories, also provides an 
avenue for and legacy of training fishermen. For example, Alaska and 
Washington Sea Grant programs fund social science research to 
understand and address the barriers faced by young people who want to 
enter and grow in the fishing industry. Since 2007, Alaska Sea Grant 
has convened six statewide Alaska Young Fishermen's Summits. More than 
400 new fishery entrants have attended, and nearly 100 industry 
volunteers have been mentors and speakers. In 2016, California Sea 
Grant launched an apprenticeship program to help educate young people 
about the opportunities in commercial fishing while educating them 
about the regulations, skills and co-management approach necessary to 
keep commercial fishing economically, ecologically and socially 
sustainable. Louisiana Sea Grant's Louisiana Fisheries Forward program 
helps fishermen, dealers and processors understand the integrated 
pieces of commercial fishing, including business trends, new 
technologies and equipment, regulatory rules and policies, resource 
preservation, and responsible and safe fishing. The program also 
includes educational meetings for inshore recreational for-hire 
captains focusing on the importance of recreational surveys, current 
charter captain license requirements and opportunities for reaching new 
customers.
    In addition, many Sea Grant programs provide training to commercial 
fishermen on marine safety and safe seafood handling. Alaska Sea Grant 
provided marine safety training to 4,400 commercial fishermen in 2016 
and provided safe seafood handling techniques training to 100 
individuals in 27 communities (100 people in 27 communities trained in 
2016). Sea Grant programs also routinely provide technical assistance 
to new and existing commercial fisheries businesses. For example, 
Alaska Sea Grant partnered with the Bristol Bay Economic Corporation's 
Business of Fish program and has provided relevant fishing business 
information and support to more than 200 commercial fishermen in the 
Bristol Bay region since 2014.

    Question 4. What steps is NOAA undertaking to assess the 
requirements that require council members to recuse themselves from 
voting? As you know, recusal of voting council members has been a 
concern for the North Pacific Fishery Management Council.
    Answer. The recusal of voting Council members has been an issue for 
several of the regional fishery management Councils, including the 
North Pacific Fishery Management Council as is explained below. The MSA 
requires recusal of certain members if a council decision would have a 
``significant and predictable effect'' on a financial interest that the 
member is required to disclose pursuant to related provisions of the 
Act. See 16 U.S.C. Sec. 1852(j)(2),(7). The Act specifies that ``[a] 
Council decision shall be considered to have a significant and 
predictable effect on a financial interest if there is a close causal 
link between the Council decision and an expected and substantially 
disproportionate benefit to the financial interest of the affected 
individual relative to the financial interests of other participants in 
the same gear type or sector of the fishery.'' Id. Sec. (j)(7)(A). 
NOAA's regulations define ``council decision'' to mean, among other 
things, ``approval of a fishery management plan (FMP) or FMP amendment 
(including any proposed regulations) [or] request for amendment to 
regulations implementing an existing FMP.'' 50 C.F.R. 
Sec. 600.235(a)(2). For purposes of the recusal procedures, the 
regulations define ``expected and substantially disproportionate 
benefit'' in terms of a ten percent interest in harvesting, marketing, 
or processing, or a ten percent ownership of vessels operating in a 
fishery. Id. Sec. 600.235(c)(3). This applies whether the individual is 
an actual owner of such activity or an employee of an entity owning 
such activity.
    The North Pacific Council has concerns with the way in which NOAA 
attributes fishing activity and vessel ownership to a Council member 
when multiple company ownership is involved. Agency regulation, 
referred to as full attribution, is as follows: if Council member Jones 
works for company A, and company A owns 3 percent of company B, then 
100 percent of company B's activities are attributed to Council member 
Jones for purposes of comparing Jones' financial interests to the 10 
percent recusal thresholds. The North Pacific Council, as well as the 
Council Coordination Committee representing all eight of the regional 
fishery management Councils, has argued that that attribution should be 
proportional to ownership. Under proportional attribution, and using 
the same example, Council member Jones would only be attributed with 3 
percent of company B's fishing activity. The full attribution approach 
results in the frequent recusal of one Council member in the North 
Pacific because this member is employed by a company that partially or 
wholly owns several other fishing companies and the total activity of 
all the companies routinely exceeds the 10 percent threshold for 
groundfish harvest in the Bering Sea/Aleutian Islands. However, it is 
likely this Council member would not be recused under a proportional 
attribution approach.
    In the spring of 2017 the Council member was recused from a Council 
vote on designation of Essential Fish Habitat (EFH). The amendment 
updated EFH descriptions following a five-year review of existing EFH 
components, replaced existing EFH maps, updated EFH conservation 
recommendations for non-fishing activities, initiated a HAPC proposal 
process, and revised research priorities for EFH. No regulations will 
be changed as a result of the amendments, and there will be no changes 
to fishing activities (including the total amount of groundfish 
harvested by that Council member's employer). Because the action taken 
by the North Pacific Council was a Council decision and his employer 
exceeds the 10 percent threshold of groundfish harvest under the 
current attribution policy, the Council member was recused. The North 
Pacific Council has argued that this recusal also was inappropriate 
because there could be no ``close causal link'' between a Council 
decision and a ``substantial and disproportionate benefit'', because 
there is no benefit to be realized in the first place.
    NMFS has tasked its recusal working group, which is comprised of 
experts in both NMFS and NOAA GC, to consider whether the agency should 
take any action regarding how the recusal provisions should be applied 
in such circumstances in the future. We have discussed this issue 
internally during my first few weeks in the AA position and I have made 
this a high priority for resolution. I have requested NMFS staff and 
NOAA GC to reevaluate the attribution policy for recusal determinations 
and to clarify the application of the close causal link requirement in 
the MSA. I expect the working group to provide a report in September, 
and we will promptly undertake appropriate action.

    Question 5. Do you believe that cooperative research programs that 
utilize state, university, and other data could be helpful to Federal 
managers? How best can the integrity of third-party data be assured?
    Answer. Data collected by states, universities, and other entities 
is important to Federal scientists and managers and NOAA Fisheries 
currently utilizes data collected by third parties in its stock 
assessments. This includes fishery-dependent and fishery-independent 
data collected by state partners, university researchers, and 
cooperative research projects. NOAA Fisheries coordinates with state 
partners to cooperatively collect, manage, and disseminate fishery data 
through the Fisheries Information Networks (FINs). NOAA Fisheries also 
collaborates with state and university partners on some fishery 
independent surveys, such as the Southeast Area Monitoring and 
Assessment Program (SEAMAP), Northeast Area Monitoring and Assessment 
Program (NEAMAP), and cooperative trawl surveys. Additionally, every 
Fisheries Science Center supports cooperative research projects 
involving a broad range of stakeholders, including state and tribal 
managers and scientists, fishing industry partners, and educational 
institutions. All of these programs are integral to NOAA Fisheries' 
scientific enterprise because they increase the quality and quantity of 
data, include stakeholder knowledge, improve relevance and transparency 
of research, and reduce costs by creating greater efficiencies and 
shared costs.
    A few factors are important for the integrity of data to inform 
management, including establishing a long time series of data and using 
appropriate survey and sampling designs. All data included in stock 
assessments must undergo review to ensure the best scientific 
information available is used and to ensure that the data does not 
introduce too much uncertainty into assessments. For this reason, NOAA 
Fisheries scientists work closely with many cooperative research 
programs to design projects which can be incorporated into or inform 
assessments. Many cooperative long-term projects, such as industry-
based surveys, undergo periodic peer reviews to ensure that field 
methods, data collection and analysis, and interpretation are all valid 
and robust. For recreational fisheries surveys, the Marine Recreational 
Information Program also works to certify state or third party surveys, 
following independent peer review, to ensure they meet statistical 
standards.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Chris W. Oliver
    Question 1. Last year NOAA published a final rule that lays the 
groundwork for implementing offshore aquaculture in the Gulf or Mexico. 
However, to date nobody has filed to get a permit for finfish or 
shellfish, siting regulatory challenges as the primary obstacle. What 
has NOAA been doing to streamline the Federal permitting process?
    Answer. To streamline the Federal permitting process, NOAA and six 
other Federal agencies have entered into a Memorandum of Understanding 
for Permitting Offshore Aquaculture Activities in Federal Waters of the 
Gulf of Mexico (MOU). The signatories are the Coast Guard and the 
regional and district offices of the Bureau of Ocean Energy Management 
(BOEM), Bureau of Safety and Environmental Enforcement (BSEE), National 
Marine Fisheries Service (NMFS), Army Corps of Engineers (Corps), 
Environmental Protection Agency, and Fish and Wildlife Service.
    NOAA's approach to implementing the Gulf rule was developed in 
close collaboration with these other Federal regulatory agencies and 
with input from an aquaculture task force within the Marine Fisheries 
Advisory Committee. We now have mechanisms in place to coordinate our 
new regulatory program for Gulf Aquaculture Permits with existing 
regulatory programs at the Corps (Section 10 permits under the Rivers 
and Harbors Act) and EPA (Clean Water Act permits), as well as with the 
Coast Guard, BOEM, and BSEE with respect to potential conflicts with 
other activities in the Gulf of Mexico (shipping, oil and gas 
production). A key element of this approach is to provide potential 
permit applicants an opportunity to schedule a pre-application meeting 
with multiple agencies at one time so that potential issues may be 
addressed prior to beginning the formal application process.
    In addition, we now have a suite of informational materials and 
guidance documents to assist permit applicants, including:

  <bullet> A Permit Applicant Guide, which summarizes Federal agency 
        authorities and describes the coordinated Federal permit 
        process

  <bullet> A Pre-Application Meeting Checklist, which identifies the 
        information agencies need the applicant to provide at the 
        initial stage of the process, along with an example of a 
        completed checklist

  <bullet> Guidance for preparation of a baseline environmental survey, 
        which addresses the requirements of both NMFS and EPA

  <bullet> Guidance on the assurance bond and genetics requirements in 
        the Gulf rule

  <bullet> The Permit Application and Forms are available on-line

  <bullet> NOAA is currently developing an on-line system that will 
        provide the applicant a user account and a means to submit the 
        Operating and Reporting Forms electronically

    All of the above documents are posted on the NMFS Southeast 
Regional Office website at:
        http://sero.nmfs.noaa.gov/sustainable_fisheries/gulf_fisheries/
        aquaculture/.

    Question 2. What do you think are the other challenges holding back 
the offshore aquaculture industry in the Gulf of Mexico and how is NOAA 
helping remedy those issues?
    Answer. In November 2016, the Gulf Seafood Institute, in 
collaboration with NOAA Fisheries and the Gulf States Marine Fisheries 
Commission, hosted a Gulf of Mexico Offshore Aquaculture Roundtable to 
discuss challenges and opportunities. Roundtable participants include 
nearly 40 industry and government leaders. A key takeaway from this 
meeting is that industry is uncertain as to whether a return on 
investment in offshore aquaculture could be earned given a number of 
current challenges, including but not limited to permitting challenges 
described in question 1. The conversation included the following:

  <bullet> Investors are uncertain if they will be welcomed by Gulf 
        communities.

  <bullet> A strong coalition of diverse interests to compel government 
        and investors to support offshore aquaculture efforts is 
        needed.

  <bullet> Area management plans to manage disease, siting, biosecurity 
        and other operational features for entities using the same 
        water systems are needed.

    At the roundtable, specific government actions (other than those 
regarding permitting) were discussed and details on how NOAA is 
addressing these actions are listed below:

  <bullet> Develop mapping tools in consultation with recreational and 
        commercial fishermen, eNGOs, and state agencies for the Gulf 
        which indicate areas that are and that may not be suitable for 
        offshore aquaculture. Such tools would help ease the siting 
        process for industry, government agencies, and affected 
        stakeholders.

    <ctr-circle> NOAA actions: A team of researchers with our NOAA 
            Aquaculture Program partners at the National Ocean Service 
            is developing siting and mapping tools to indicate areas 
            suitable for offshore aquaculture in the Gulf. In addition, 
            environmental models (to predict and avoid potential 
            impacts) and monitoring protocols are being developed to 
            support the needs of an offshore aquaculture industry and 
            coastal managers.

  <bullet> Support partnerships to undertake economic and market 
        analyses, refinement of aquaculture science products, 
        technology innovations, monitoring and evaluation of offshore 
        fish farms, and outreach and educational efforts.

    <ctr-circle> NOAA actions: NOAA Fisheries awarded $500K to the Gulf 
            States Marine Fish Commission (in addition to similar 
            awards to the Atlantic and Pacific Commissions) for 
            industry partnerships to support regional pilot projects. 
            We will work with the Commission to identify priorities 
            including addressing challenges to the development of 
            offshore aquaculture. NOAA Fisheries awarded an additional 
            $76K to the Gulf Commission for economic analysis of 
            aquaculture in the region. NOAA Fisheries' Saltonstall-
            Kennedy Grant Program has funded projects that directly 
            relate to development of offshore aquaculture in the Gulf 
            including red drum genetics, snapper hatchery technologies, 
            waste monitoring, and cage engineering. NOAA Sea Grant 
            awarded over $3.2M from its FY 2017 National Aquaculture 
            Initiative to researchers and private industry partners to 
            address impediments to increased aquaculture production in 
            the Gulf of Mexico. Seven projects will address topics 
            involving basic and applied research to improve efficient 
            production of seafood, permitting and public perception of 
            new offshore operations, management of environmental health 
            issues and economic success of shellfish and finfish 
            aquaculture businesses. In addition, the $6M awarded to 
            support projects in other regions will have potential 
            benefit to aquaculture initiatives in the Gulf.

    Other NOAA actions to support development of offshore aquaculture 
in the Gulf include the following:

  <bullet> NOAA Fisheries worked with the Gulf States Marine Fish 
        Commission to fund the Gulf Seafood Institute's ``Gulf Seafood 
        Tour of Maine's Aquaculture Community'' in July 2017. This 
        event brought together influential, Gulf of Mexico stakeholders 
        from the fishing community and Gulf states' governments to 
        experience, first-hand, the aquaculture community in Maine with 
        a focus on identifying potential obstacles and opportunities 
        for the Gulf of Mexico.

  <bullet> NOAA Fisheries with USDA and the White House's OSTP are 
        developing an Aquaculture Innovation Challenge that seeks to 
        increase positive perception of aquaculture on a national 
        level.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Chris W. Oliver
    Question 1. Regional Management Authority: Regional management 
authority is a core foundation of the Magnuson-Stevens Act, and part of 
that foundation is the emphasis on the balance and diversity of council 
appointments. Mr. Oliver, are there areas where current law could be 
improved to ensure councils remain balanced across different sectors 
and viewpoints?
    Answer. Strong regional management is the foundation of the 
Magnuson-Stevens Act. Because of the unique, regional nature of our 
fisheries, achieving balance and diversity of Council members on each 
Council is a challenge. The current law provides adequate means for the 
Secretary to achieve a fair and balanced apportionment in the 
commercial and recreational fisheries under the jurisdiction of the 
Council. A major factor in meeting the requirement to balance 
membership is the unique role of the Governors in nominating 
individuals from different sectors. The process works best when 
Governors provide the Secretary with a variety of highly qualified 
nominees reflecting the types of fisheries under a Council's 
jurisdiction. Under current law, there are several ways that NMFS may 
encourage Governors to submit a fair and balanced slate of nominees for 
consideration.
    First, Section 302(b)(2)(A) of the Magnuson-Stevens Act requires 
that members appointed by the Secretary must be individuals who are 
``knowledgeable regarding the conservation and management, or the 
commercial or recreational harvest, of the fishery resources of the 
geographical area concerned.'' Provisions at 50 CFR 600.215 outline the 
Secretary's definition of a qualified nominee. Equally important is the 
stewardship responsibilities of Councils and the appointment of 
individuals who can work collectively with other members to achieve the 
conservation standards under the MSA.
    Second, NMFS encourages the Governors to submit a balanced slate of 
nominees and may make recommendations for nominees who represent 
underrepresented sectors or industries. Section 302(b)(2)(B) also 
requires the Secretary to report annually to Congress on actions taken 
to achieve, to the extent practicable, a ``fair and balanced 
apportionment, on a rotating or other basis, of the active participants 
(or their representatives) in the commercial and recreational fisheries 
under the jurisdiction of Council.'' This report also makes 
recommendations to the Governors on the types of nominees who could 
help better enable the Secretary to meet the fair and balanced 
apportionment standard.
    The Act requires Governors, to the extent practicable, consult with 
representatives of the commercial and recreational fishing interests of 
the State. The exact method each Governor uses to consult with 
commercial and recreational fishing interests differs due to varying 
State law and process. A Governor must provide a statement explaining 
how nominees meet the qualification and consultation requirements. The 
Magnuson-Stevens Act allows the Secretary to review the nominees and 
determine if they are qualified. Infrequently, the Secretary may 
determine that individuals are not qualified and return the list to the 
Governor, who then must submit a new or revised list.
    Finally, the Secretary considers Congressional and public 
endorsements. Endorsements are sent by members of the public (including 
fishermen, industry groups, environmental non-profit organizations, 
academia, and unaffiliated citizens), members of local/state/federal 
government, and members of Congress. Endorsements ensure public 
involvement, and help inform the Secretary as to whom is best qualified 
pursuant to the Magnuson-Stevens Act and implementing regulations.

    Question 2. Rebuilding Fish Stocks: Can you please describe your 
experience as Executive Director of the North Pacific Fishery 
Management Council, and the flexibility you and the Council had within 
the existing MSA to account for biological and economic considerations 
when rebuilding and managing fish stocks?
    Answer. The Magnuson-Stevens Act provides us with a very successful 
fisheries management construct to ensure fisheries are both 
environmentally sustainable and economically important. The Act created 
broad goals for U.S. fisheries management and a unique, highly 
participatory management structure centered on the Regional Fishery 
Management Councils. Given my past work as the Executive Director of 
the North Pacific Fishery Management Council, I can attest to the value 
of the regional fishery management council system, which encourages a 
collaborative, ``bottom up'' process where input and decisions about 
how to manage U.S. fisheries include fishermen, other fishery 
stakeholders, affected states, tribal governments, and the Federal 
Government. The Councils have flexibility to choose from a variety of 
approaches and tools to manage fish stocks and meet the mandates of the 
Magnuson-Stevens Act.
    Flexibility is also inherent in the Magnuson-Stevens Act's 
rebuilding requirements. The Act requires that the period to rebuild a 
stock not exceed 10 years, but it permits a longer time in certain 
cases where the biology of the fish stock, management measures under an 
international agreement in which the United States participates, or 
other environmental conditions dictate otherwise, although this period 
still must be as short as possible. Current rebuilding time periods for 
stocks with active rebuilding plans range from 3 years to 100 years. Of 
the 35 active rebuilding plans with a target time to rebuild, 22 of 
them (63 percent) are set longer than 10 years due to the biology of 
the stock (slow reproducing, long lived species) or environmental 
conditions. For example, Pacific yelloweye rockfish has a rebuilding 
timeline of 71 years. The remaining 13 rebuilding plans are set for 10 
years or less.
    Increased flexibility under the current MSA was a primary goal of 
NMFS' recent revisions to the National Standard 1 Guidelines. The 
revised guidance provides additional flexibility to the Councils in 
setting rebuilding timelines, phasing in new catch limits, carrying 
over unused quota, determining when stocks are subject to overfishing, 
and managing data limited stocks. For example, if a stock assessment 
shows fishing needs to be curtailed to ensure a stock is sustainable, a 
Council may phase the reduction in over 3 years as long as overfishing 
is not occurring. This flexibility allows the Council to reduce the 
economic impact of such a cut instead of taking the entire needed 
reduction in a single year.
    The North Pacific Fishery Management Council has successfully 
managed fish stocks using the flexibility inherent in the Magnuson-
Stevens Act. There is currently only one stock on the overfished list 
in the region--Pribilof Islands blue king crab--likely due to 
environmental conditions. This successful track record has led to an 
Alaska commercial fishing and seafood industry that generated $4.4 
billion in sales impacts and 53,400 full-and part-time jobs in 2015.

    Question 3. Annual Catch Limits: Several times during the hearing, 
you made the point of a need for greater flexibility with various 
management tools and specifically cited flexibility with catch shares, 
annual catch limits, and accountability measures. Specifically, you 
made the case for one management tool or approach not being a good fit 
for all fisheries. So, when are annual catch limits the appropriate 
tool and when are they not? What characteristics of the given fishery 
or environment make annual catch limits a good choice as a management 
tool?
    Answer. Annual catch limits (ACLs) have been and remain an 
effective tool in ending overfishing and rebuilding fish stocks, and 
are a cornerstone of sustainable fisheries management. However, 
implementing ACLs and associated accountability measures has been 
challenging in some fisheries--particularly where data is scarce and 
where commercial and recreational user groups have fundamentally 
different goals and objectives. For example, setting effective ACLs for 
species in coral reef ecosystems in the Pacific Islands and Caribbean 
regions, is one of our biggest challenges due to lack of data regarding 
stock status and fishing harvests. Calls for increased flexibility are 
also coming from some recreational fisheries along the Atlantic and 
Gulf coasts. In these fisheries, harvest data can be much more 
difficult to collect and report on a timely basis than in most 
commercial fisheries. Therefore, alternative management mechanisms may 
be useful.
    While the Councils are actively exploring the use of the 
flexibility included in the revised National Standard 1 Guidelines, we 
recognize additional measures may be necessary--particularly for some 
recreational fisheries. Increasing flexibility further will require a 
multipronged approach focusing on both science and effective management 
tools and with involvement from a wide host of stakeholders including 
Congress. NOAA Fisheries is committed to ensuring regional fishery 
management councils have flexibility to tailor their management plans 
to maximize fishing opportunities and develop regional solutions to 
regional problems while preventing overfishing and maintaining stocks 
at sustainable levels.

    Question 4. Improving fishery data: Mr. Oliver and Dr. Quinn, 
several fisheries have been described as data poor and data deficient. 
What are the best ways by which we can improve the quality of our 
fishery data and monitoring of fisheries?
    Answer. While NOAA Fisheries has strong data collection and 
monitoring programs in place for fisheries in Federal waters, the need 
for annual catch limits has highlighted the fact that several fisheries 
have limited data with which to inform management. To inform 
management, catch monitoring should be in place for all managed stocks, 
paired with some data collection on biological and stock-specific 
attributes.
    Overall, NOAA Fisheries has strong catch monitoring programs in 
place for its managed species. Recent technological improvements, such 
as electronic reporting, have improved the timeliness of fishery data. 
NOAA Fisheries, through the Marine Recreational Information Program, 
continues to improve recreational fisheries data collection. NOAA will 
continue to work with State partners and others to expeditiously review 
and certify new and alternative methods for the collection of 
recreational fisheries data and support methods that provide 
statistically defensible estimates of catch and effort. Looking 
forward, there is broad agreement within NOAA Fisheries and among 
Survey scientists that smartphone apps can facilitate the reporting and 
quality control of fishing effort and catch data. We recognize the role 
of state reporting programs and intend to find ways over the coming 
year to better integrate State data and collection programs into the 
fishery management process.
    The next tier of data, after establishing catch monitoring, is to 
collect basic biological data on fish species and stocks. This 
information may come from numerous sources, including biological 
sampling of landed fish, cooperative research, and sampling by on-board 
observers. NOAA Fisheries also collects biological data using fishery-
independent surveys on board NOAA ships and charters. Biological data 
can inform which species are longer-lived or more vulnerable to 
overfishing and the availability of biological data varies greatly by 
species. Many of the species described as ``data limited'' are species 
with little biological data, often due to the fact that they are not 
frequently caught (which allows for less sampling), are in regions with 
limited monitoring capacity, or are distributed in habitats that make 
it difficult to perform surveys (such as reefs). Biological data 
collection programs could be improved in efficient ways with advanced 
sampling technologies, such as autonomous or towed platforms supporting 
cameras or sonar, which could expand current ship-based surveys in 
areas that are difficult to sample with conventional gear.
    As part of its next-generation stock assessment framework, NOAA 
Fisheries is supporting a prioritization protocol for fish stock 
assessments, meant to efficiently determine the right level of data and 
assessments for fish stocks, depending on factors such as commercial 
and recreational importance, fishing pressure, and biological 
vulnerabilities of species. The regional prioritization process is 
ongoing, and will inform NOAA Fisheries on the highest priority data 
gaps to address through further data collection or studies, especially 
new fishery-independent surveys using conventional or advanced 
technologies

    Question 5. Environmental Stressors: We live in a changing world 
with impacts to our ocean and coastal ecosystems from pollution run-
off, climate change, harmful algal blooms, and other environmental 
stressors. In the testimony and questions, the need for data and more 
data was made clear. In addition to and in conjunction with collecting 
more data, what are the best ways to account for all of these various 
stressors when managing fisheries as important biological and 
ecological resources? In what ways can we be strategic to collect the 
data that we need to manage the stressors faced by different fisheries 
around the country?
    Answer. Effective fisheries management relies on information 
regarding changes and impacts of these changes on fish stocks and 
fisheries. In order to understand the impact of environmental stressors 
on fish populations, we will continue to monitor of fish populations 
(abundance, distribution) and track relevant environmental data 
(temperature, salinity, pollutants, food webs, habitat status etc). 
NOAA Fisheries has begun to perform fish species vulnerability 
assessments to identify which species, fisheries, and fishing 
communities may be most vulnerable to environmental change and we are 
actively working to include habitat and protected species vulnerability 
assessments. With continued data collection and analysis, NOAA 
Fisheries is developing tools that can inform fisheries management. 
This includes the development of ecosystem indicators that can be 
tracked and reported alongside stock assessments, often in the form of 
ecosystem status reports. NOAA Fisheries is also improving its efforts 
to incorporate these environmental indicators into the assessment 
models to improve understanding and prediction of future changes.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                            Chris W. Oliver
    Question 1. Mr. Oliver, the Secretary of Commerce recently 
dismissed the findings of the Atlantic States Marine Fisheries 
Commission to allow overfishing of Summer Flounder in New Jersey. This 
could negatively impact not only summer flounder stocks but also all of 
the other fishermen from other states who play by the rules. It sets a 
dangerous precedent that states can make management decisions based on 
politics instead of science.
    Mr. Oliver, on July 11, 2017, you sent a letter to the Atlantic 
States Marine Fisheries Commission (the Commission) allowing New Jersey 
to bypass the regulations to end overfishing of summer flounder. These 
regulations are followed in Massachusetts, Rhode Island, Connecticut, 
New York, Delaware, Maryland, Virginia, and North Carolina. How was 
this decision reached? Please provide any and all scientific analysis 
that led the Commerce Department to a different conclusion than the 
Commission's technical advisors.
    Answer. The Department of Commerce found that the management 
measures implemented by New Jersey for the 2017 recreational summer 
flounder fishery to be compliant with the intent of the measures 
contained in the Atlantic States Marine Fisheries Commission's Summer 
Flounder, Scup, and Black Sea Bass Interstate Fishery Management Plan. 
As a result, a moratorium on summer flounder fishing in New Jersey 
state waters was not required.

    Question 2. Mr. Oliver, Right Whales are one of the most endangered 
species. According to your department's website, they are the rarest 
large whale species and among the rarest of all marine mammal species. 
There have been multiple Right Whale deaths in recent months including 
10 in the Gulf of St. Lawrence in Canada this summer and one off the 
coast of Cape Cod in April.
    What actions is NOAA taking to understand why Right Whales are 
dying?
    Right Whales migrate through many different countries' waters. Can 
you commit to working with the State Department to coordinate with the 
Canadian government on avoiding Right Whale deaths and trying to 
rebuild the Right Whale population?
    Answer. As part of NOAA's long-term commitment to North Atlantic 
right whale conservation, NOAA Fisheries scientists and managers have 
been actively studying the population to determine status, trends, and 
threats, monitoring the effectiveness (compliance, implementation, 
etc.) of U.S. regulations already in place to protect the whales from 
entanglements and ship strikes, and providing emergency response to 
animals in distress. A new peer-reviewed paper being published by NOAA 
Fisheries scientists indicates the population was already in decline 
prior to the Unusual Mortality Event (UME) declaration, and estimates 
approximately 460 animals remained in 2015 prior to the 2017 deaths. 
Thus, the 12 recent mortalities since June 2017, plus an additional 
death caused by a ship strike in Cape Cod Bay in April, represent a 
loss of 3 percent of the total population.
    NOAA Fisheries is committed to work with the State Department and 
Canadian officials and scientists to avoid future right whale deaths 
and attempt to rebuild the population.
    Prior to the first report of a dead North Atlantic right whale on 
June 7, 2017, in Canadian waters, NOAA Fisheries and our partners from 
the U.S. marine mammal research and stranding/disentanglement network 
communities were already collaborating with Canadian colleagues at 
Canada's Department of Fisheries and Oceans (DFO) and the Canadian 
stranding/disentanglement organizations. NOAA Fisheries had already 
scheduled aerial surveys to help document the growing concentrations of 
whales being reported in the Gulf of St. Lawrence in recent years, and 
once on site provided technical guidance and expertise (both in-person 
and remotely) for responding to both the dead-stranded whales, as well 
as the entangled live whales.
    To help organize and strengthen the already existing collaborations 
between U.S. and Canadian experts, NOAA Fisheries declared the North 
Atlantic right whale mortalities an official UME on August 25, 2017 to 
address the 12 known dead whales since June 7, 2017 (10 found in Canada 
and 2 found in the U.S.), and any future cases. The declaration of the 
UME brings enhanced scientific focus and resources to assist the 
investigation, including the significant expertise of the Working Group 
on Marine Mammal Unusual Mortality Events and a special Investigative 
Team formed specific to this event. Declaration of the UME also 
provides additional emergency funding to support the investigation 
through the UME Contingency Fund, which is available exclusively for 
UMEs.
    The UME declaration was made in close coordination with Canadian 
colleagues from DFO and the Canadian marine mammal stranding network 
who have been working to investigate the mortalities occurring in their 
waters since June. Our UME investigation will be trans-boundary and 
will include experts from both nations to better understand this event 
and identify conservation and management actions that could be taken to 
assist right whale recovery. NOAA Fisheries will also coordinate with 
Department of State as appropriate.
    In addition to working collaboratively with DFO on the specific UME 
investigation, NOAA Fisheries and DFO have established a Bilateral 
Working Group to discuss ways both countries can increase coordination 
and cooperation to further North Atlantic right whale conservation 
efforts. The Bilateral Working Group will identify science and 
management gaps that are impeding recovery of North Atlantic right 
whales throughout their range. Additional working groups with 
scientific experts are planned to collaboratively develop solutions to 
these challenging science and management gaps, and will complement and 
help inform the bilateral government efforts.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                           Dr. John M. Quinn
    Question 1. Conflicts between MSA and other statutes: Dr. Quinn, in 
your written testimony, you describe conflict with MSA and other 
statutes such as the Antiquities Act and the Endangered Species Act. 
Can you give an example of conflicts between MSA and these other 
statutes? Why should MSA be the only entity to issue and promulgate 
rules related to fisheries?
    Answer. Senator, the MSA is the statute that Congress adopted 
specifically to realize the benefits from commercial and recreational 
fisheries that are managed using sound conservation and management 
principles. Fisheries contribute significantly to the economy of the 
Nation and science-based management decisions are needed to ensure 
their sustainability. Fishery management decisions carefully balance 
the economic, social, and biological impacts for the greatest benefit 
to the Nation. They must take into account all applicable law, such as 
the National Environmental Policy Act (NEPA), Endangered Species Act 
(ESA), Marine Mammal Protection Act (MMPA), Coastal Zone Management Act 
(CZMA), etc. The Act's emphasis on a strong public process is one of 
its strengths and helps to make sure that all points of view are 
considered.
    Fisheries, whether pursued for recreation or profit, are complex. 
Congress developed the MSA to address these complexities, including the 
decision-making process to include myriad stakeholders but also the 
substantial ecological effects of fishing. These range from increasing 
fishing mortality to impacts on habitat and sensitive species such as 
turtles and marine mammals.
    Developing Federal fishery regulations under the MSA section 302 
process ensures consistency and transparency in Federal fisheries 
management, full consideration of impacts to fishing communities, and 
consistency with the MSA National Standards, while also ensuring 
consistency with other Federal statutes such as MMPA and the ESA. 
Currently, regulations directly impacting federally managed fisheries 
may be promulgated under other Federal laws such as the MMPA, ESA and 
National Marine Sanctuaries Act (NMSA). Such avenues for developing 
fishing regulations circumvent the transparent Council process 
established under MSA and lack considerations of the National 
Standards. This can lead to unnecessary socioeconomic impacts on 
fishing communities while having limited conservation benefit on the 
resources.
    Other statutes are designed to meet other purposes. As a result, 
decisions reached using these statutes can be narrowly focused on a 
specific objective and sacrifice net national benefits. For example:

  <bullet> The Antiquities Act of 1906 has allowed Presidents to 
        circumvent MSA by proclaiming Marine National Monuments, which 
        are a type of marine protected area (MPA). MPAs are a common 
        tool employed by the Regional Fishery Management Councils to 
        manage fisheries within their jurisdiction. The establishment 
        of the marine national monuments does not require the use of 
        best scientific information available, completion of analyses 
        required by NEPA nor a prescribed public process. Since 2006, 
        four marine national monuments have been established in the 
        Western Pacific Region (two of which were subsequently 
        expanded), together closing more than 50 percent of U.S. waters 
        in this region to domestic commercial fishing. The closures are 
        unnecessary as the Western Pacific Council has been managing 
        and protecting these waters for over 40 years, resulting in 
        many areas deemed pristine prior to the monuments being 
        established. Moreover, Council measures are required to prevent 
        overfishing so the use of the Antiquities Act to manage 
        fisheries is at best duplicative and at worst a political 
        circumvention of the MSA.

    Our experience with marine monument designations to date is that 
they are counterproductive to domestic fishery goals, as they have 
displaced U.S. fishing effort to the high seas where American fleets 
must compete with foreign fisheries that are less regulated and 
monitored than the U.S. fleets. The establishment of Marine National 
Monuments under the Antiquities Act increases the Nation's reliance on 
foreign fisheries imports. Foreign fisheries that provide these imports 
are rarely as well-managed as U.S. fisheries, resulting in increased 
ecological damage. The U.S. economy suffers from a loss of fisheries 
employment. This has been a particular problem in the Western Pacific 
Ocean, where over half the Exclusive Economic Zone is a marine 
monument.
    Over the past 40 years, Congress has been reauthorizing the MSA and 
its regional, bottom-up management approach, which has resulted in the 
United States being a global leader in effective fishery conservation 
and management. Designations of marine national monuments that prohibit 
fishing have disrupted the ability of the Councils to manage fisheries 
throughout their range as required by MSA and in an ecosystem-based 
manner.

  <bullet> The MMPA False Killer Whale Take Reduction Plan modified 
        gear requirements and a longline fishing prohibited area for 
        the Hawaii longline fishery that is otherwise managed under 
        Pacific Pelagic Fishery Ecosystem Plan (Pelagic FEP) developed 
        by the Western Pacific Fishery Management Council pursuant to 
        the MSA. Modification of the longline prohibited area 
        originally established under the Pelagic Fishery Ecosystem Plan 
        circumvented the transparent Council process established under 
        MSA section 302. Further, the National Marine Fisheries Service 
        (NMFS) has discretion during the rule-making process to modify 
        draft Take Reduction Plans recommended by MMPA Take Reduction 
        Teams, whereas fishery management recommendations made by the 
        Council cannot be modified by NMFS.

  <bullet> Several Councils experienced conflicts with the ESA. The 
        development of biological opinions and management 
        recommendations under the ESA can result in recommendations 
        that are not reasonable or effective. The results of these 
        biological opinions involve species protected under the ESA and 
        have historically taken precedence over the MSA. Thus, 
        immediate actions are taken despite the impacts to the 
        fisheries and supporting communities. Because the NMFS staff 
        completing Biological Opinions may not fully understand how an 
        affected fishery operates, the resulting regulatory changes 
        often require ``remedial'' measures that are ineffective or are 
        impracticable for fishery operations to implement. As an 
        example, the ESA process delayed fishing opportunities for 
        black sea bass in the South Atlantic, unnecessarily delaying a 
        fisheries opening. In the North Pacific, the development of the 
        biological opinion on Stellar Sea Lions was criticized for the 
        lack of transparency during development of the measures that 
        affected fisheries.

  <bullet> The management of fisheries within marine sanctuaries using 
        the National Marine Sanctuaries Act can lead to regulations 
        that are not consistent with the MSA. This statute does not 
        require that actions balance the benefits of a measure with its 
        costs. In New England, at times the sanctuary program has 
        promoted specific fishery measures, raising questions about the 
        position of the Department of Commerce.

    Question 2. During the hearing, you made the point that the current 
MSA has been largely successful and that it only needs to be tweaked in 
certain areas. Much of the hearing focused on topics and aspects of 
fisheries management that do need to be refined. As we move to improve 
fisheries management, we also want to be cognizant of what works. Can 
you describe key aspects of the current fisheries management structure 
that we should not modify and make sure would not be impacted as we 
seek to make modifications and improvements elsewhere in MSA?
    Answer. There are many aspects of the MSA that are working well. 
Fundamentally, the National Standards provide a strong basis for 
management decisions and this strong foundation served us well. One of 
the most important reasons for the MSA's success is the use of the 
Regional Fishery Management Council system. This ensures that local 
conditions are taken into account, but decisions are still made within 
the framework of the National Standards. It also provides the 
opportunity for public participation in the management system. The 
partnership of the Regional Fishery Management Councils with the 
Federal government has proven very effective. The National Marine 
Fisheries Service provides tremendous analytic and policy support to 
the Councils through its science centers and regional offices. This 
relationship, while not without its occasional tensions, promotes a 
rigorous approach to decision-making that benefits the Nation.
    This emphasis on science-based decisions is a key factor in our 
management success. The critical role of the Scientific and Statistical 
Committees should also be retained, as they evaluate the best 
scientific information available that guides Council decisions. Both of 
these factors support a strong requirement that management alternatives 
must be thoroughly analyzed for their impacts.
    Another strength is that the MSA allows Councils to use a wide 
range of management measures that can be tailored to regional 
conditions. Catch share programs are an example: while they can be 
controversial in some fisheries, in others they have proven to be an 
effective tool for restoring economic and social stability, enhancing 
safety at sea, and allowing year-round fishing seasons. The decision to 
implement a catch share program should be at the discretion of the 
Regional Fishery Management Council and Secretary of Commerce. The 
provisions currently in the MSA provide adequate guidance to ensure 
that catch shares are enacted only after careful deliberation and 
consultation with stakeholders. The MSA should not constrain a Council 
from considering a particular management approach, nor should it 
mandate any specific measure.
    It is important to recognize that the protections afforded by the 
MSA are necessary. These protections ensure that fisheries throughout 
the country provide tremendous benefits. They are the reason the red 
snapper fishery is, once again, the most popular offshore sport fishery 
in the Gulf of Mexico. While it is possible for a council to develop 
amendments that give states greater autonomy, proper management of red 
snapper requires continued oversight by the fishery management council 
under the provisions of the MSA.
    Many Councils successfully use Exempted Fishing Permits (EFPs), 
allowed under section 318 of the MSA, to conduct research that directly 
benefits fisheries. The current process for these permits does not need 
to be changed.

    Question 3. Improving fishery data: Mr. Oliver and Dr. Quinn, 
several fisheries have been described as data poor and data deficient. 
What are the best ways by which we can improve the quality of our 
fishery data and monitoring of fisheries?
    Answer. I am going to organize my response into two sections: one 
that deals with recreational fisheries, and the other that addresses 
commercial fisheries. While either component can have data poor 
fisheries, solving their problems may take different approaches.
    For the recreational fisheries, a critical problem is the design of 
a data collection system that can address `rare events' that may 
reflect inadequate sampling. Why a species is considered to be data 
poor or data deficient is an important distinction in determining if an 
improved data collection program will be successful. Some species are 
infrequently encountered by both anglers and fishery-independent 
sampling programs because the fish population is small and/or sparsely 
distributed. No reasonable increase in data collection efforts may 
resolve or significantly improve their data-poor status. Many of these 
data-poor species are incidentally caught and may never become target 
species or comprise a large proportion of the harvest.
    Others species may be data deficient due to the historical absence 
of funds to conduct comprehensive fishery-independent sampling 
programs. In these cases, the appropriate solution is to increase 
fishery-independent sampling intensity, in both space and time, to 
ensure adequate coverage of the environment. Using a variety of gear 
types, such as longline and vertical line gear, trawls, traps, cameras, 
and others could provide observations on the full spectrum of life 
stages of the species in question. Expanding fishery-independent 
sampling programs not only helps to elucidate the current health of 
those data-poor species, but also enhances the knowledge of those 
species designated as data rich.
    The South Atlantic Fishery Management Council is working with its 
partners to develop an electronic permit and logbook for private 
recreational fishermen, but there is a need for better integration of 
this program with MRIP. Frequent changes to MRIP have created 
uncertainty in the Gulf of Mexico Fishery Management Council's 
management efforts. In the Western Pacific, data collection programs 
for non-commercial fisheries do not provide adequate coverage for the 
broad spectrum of fishing activities.
    With commercial fisheries, there are usually comprehensive systems 
established to collect landings and discard data using a variety of 
collection methods tailored to each fishery. Because of cost, sometimes 
these data are not collected in enough details (in terms of time or 
space) to support management options. Improvements in these systems can 
be expensive--particularly in the case of at-sea monitoring using 
observers or electronic monitoring. The MSA limits the approaches that 
can be used to fund observer coverage, making it difficult to improve 
these programs. Data-poor situations can also refer to a lack of 
detailed biological information on age and growth that is needed to 
describe population dynamics. It takes extensive resources to collect 
the data and do the studies necessary to develop this information. Some 
species are not easy to survey because they are not caught by, or may 
not be accessible to, traditional survey gear.
    In a changing environment, NMFS and the regional science centers 
need adequate funding to address unforeseen issues that arise; there is 
no single data collection, research or monitoring program that can 
anticipate all of them.
    Each region has unique fisheries and can be monitored in different 
ways. The cultural importance of fishing should be recognized even if 
it is not commercially valuable in terms of money. Fisheries should be 
monitored based on their importance, and the data collection system 
should be designed to capture and monitor this information.
    If significant investment is to be made on fishery data collection 
and monitoring, the Councils should be involved in the development 
process because the management measures that the Councils generate 
should be monitored in terms of effectiveness. NMFS as the implementing 
agency and the science provider must involve the Councils in monitoring 
the management measures and include the performance of the measures in 
the Stock Assessment and Fishery Evaluation (SAFE) reports.

    Question 4. Environmental Stressors: We live in a changing world 
with impacts to our ocean and coastal ecosystems from pollution run-
off, climate change, harmful algal blooms, and other environmental 
stressors. In the testimony and questions, the need for data and more 
data was made clear. In addition to and in conjunction with collecting 
more data, what are the best ways to account for all of these various 
stressors when managing fisheries as important biological and 
ecological resources? In what ways can we be strategic to collect the 
data that we need to manage the stressors faced by different fisheries 
around the country?
    Answer. All Councils are increasing the use of Ecosystem Based 
Fishery Management (EBFM) approaches. Understanding the relationships 
between different elements of the ecosystem is vital to dealing with 
the changes that are already occurring. Because of the differences 
between regions (in terms of fisheries, data, ecological conditions, 
etc.), a formulaic approach to EBFM would not be helpful. There is some 
evidence that the legal and policy framework adopted by the MSA will 
need to evolve to allow the use of true EBFM approaches. As an example, 
the ability to manage stock complexes can be constrained by the MSA 
emphasis on individual stocks.
    Oceans and coastal ecosystems are changing at a rapid rate and face 
emerging challenges from coastal development, changing climate, and 
increasing demand for marine resources. In large, complex systems, 
natural and anthropogenic impacts are inevitable, and mitigation 
through management, conservation, and restoration is critical. However, 
our ability to respond to disturbances is limited by our knowledge of 
the current and historical condition of ecological and fishery 
resources. Therefore, it becomes necessary to monitor the progress of 
restoration activities. Long-term fishery-independent monitoring of 
natural resources is the most powerful and efficient mechanism to 
collect these data. While these programs exist in various forms, a 
consistent national program (in terms of sampling effort, gear types, 
and geographic coverage) is lacking. Improvements would require a 
dependable funding mechanism and improved coordination between state 
and Federal agencies to ensure that data collection efforts are meeting 
the long-and short-term needs of resource managers. Fishery management 
cannot depend on fishery landings data alone to provide reliable 
indicators of marine resource impacts from climate change or other non-
fishing impacts. Improvements in the fishery-independent data provide 
the information necessary to resolve these uncertainties and provide a 
foundation to support robust decision making by resource managers. A 
strategic approach to collecting data on environmental stressors is to 
conduct a productivity-susceptibility analysis (PSA), since this will 
help identify where in the ecosystem stressors are likely to have the 
most impact on fish stocks. For example, coastal stocks will be 
vulnerable to processes within the near-shore marine ecosystems that 
are most at risk from both natural and anthropogenic forcing. The first 
step in accounting for stressors is to incorporate environmental 
parameters into stock assessments for federally managed species. 
Various groups around the country are collecting many data streams for 
these stressors.
    Environmental stressors and climate have multiple and complex 
interactions with aquatic ecosystems. Not all fish stocks will respond 
negatively to variations in these parameters; some indeed my gain a 
competitive advantage from proximal factors in the environment, 
promoting range expansion through increased habitat or possible niche 
availability as other stocks decline. The bottom line is non-fishery 
related influences on stock abundance cannot be over-emphasized, 
especially if they cause stock abundance to decline below National 
Standard 1 overfishing reference points through no fault of the fishery 
or fisheries dependent on this resource. Experience in the Western 
Pacific Region has shown how environmental forces can cascade through 
multiple levels within a marine ecosystem and create order of magnitude 
changes in abundance and recruitment. Parsing out the true reasons for 
stock abundance dynamics is an extremely important aspect of fisheries 
management, and fishery managers will likely always be playing catchup.
    Offshore stocks such as tunas, billfish and tuna-like species may 
be less influenced by coastal processes but respond to multi-decadal 
cycles such as El Nino, Pacific Decadal Oscillation, and the Atlantic 
Multi-Decadal Oscillation. These large scale oceanic cycles can have 
major influences on recruitment and hence abundance of these type of 
stocks. Indeed, some species of fish may have centennial scales of 
abundance and scarcity, and research that for potentially 70-80 percent 
fish species, productivity is fully or partially independent of stock 
size.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
